<html>
<title> - A LINE IN THE SAND: ASSESSING DANGEROUS THREATS TO OUR NATION'S BORDERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 A LINE IN THE SAND: ASSESSING DANGEROUS 

                       THREATS TO OUR NATION'S BORDERS
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,

                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2012

                               __________

                           Serial No. 112-123

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
81-132                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     7

                               Witnesses

Mr. Roger F. Noriega, Visiting Fellow, American Enterprise 
  Institute:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Frank J. Cilluffo, Director, Homeland Security Policy 
  Institute, The George Washington University:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Douglas Farah, Senior Fellow, International Assessment and 
  Strategy Center:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30
Mr. Marc R. Rosenblum, Ph.D., Specialist in Immigration Policy, 
  Congressional Research Service:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Letter From Chairman Michael T. McCaul to Thomas Donilon.......    54


A LINE IN THE SAND: ASSESSING DANGEROUS THREATS TO OUR NATION'S BORDERS

                              ----------                              


                       Friday, November 16, 2012

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Long, Duncan, Marino, 
Keating, and Davis.
    Mr. McCaul. The committee will come to order.
    The first order of business, I would like to say what a 
pleasure it has been working with my Ranking Member, Mr. 
Keating, over this Congress.
    I believe this will be our last official hearing of this 
Congress, and I just want to say thank you for that.
    The committee will come to order. The purpose of this 
hearing is to discuss the findings from the subcommittee's 
Majority investigative report, entitled ``A Line in the Sand: 
Confronting Crime Violence and Terror At the Southwest 
Border,'' and having issues identified in the report may impact 
American National security.
    I now recognize myself for an opening statement.
    International terrorist networks are expanding their ties 
to ruthless Mexican drug-trafficking organizations and creating 
risks to our Nation's borders and a possible attack on our 
homeland. These are findings from our subcommittee's 
investigative report released yesterday: The Majority report, 
entitled ``A Line in the Sand: Confronting Crime Violence and 
Terror At the Southwest Border,'' describes the growing concern 
that terrorist organizations will exploit burgeoning 
relationships with Latin American drug traffickers to 
infiltrate the Southwest Border undetected.
    Specifically Iran is attempting to cement relations with 
certain Latin American countries to expand its influence and 
challenge the United States. Iran has cultivated stronger 
relationships with Venezuela. Examining travel between the two 
countries, according to Ambassador Roger Noriega, former 
Assistant Secretary of State for Western Hemisphere Affairs, 
direct commercial flights from Caracas to Tehran continue 
despite claims to the contrary.
    Iran also tries to flout international economic sanctions 
by using Venezuela as a major destination to ship its exports. 
Far more alarming than increasing political and economic ties, 
Iran is also attempting to lay the foundation for military and 
covert operations within the United States by partnering with 
Mexican drug cartels.
    No better example illustrates this danger than the Iranian 
Qods Force's attempts to work with the Los Zetas drug cartels 
to assassinate the Saudi ambassador in the United States on 
American soil.
    Some estimate that Hezbollah sympathizers operating in the 
United States could number in the hundreds.
    Iran's strategic migration and its relationship in Latin 
America are a clear and present danger to American National 
security. Should tensions mount over Iran's nuclear program, 
these relationships could possibly result in strategic 
platforms for Iran to unleash terror operations on the U.S. 
homeland.
    In addition, concerns increasingly exist that terrorist 
organizations are attempting to corrupt drug traffickers and 
other aliens entering the United States. For example, according 
to news reports from earlier this year, Osama bin Laden sought 
operatives with valid Mexican passports to enter the United 
States to conduct terror attacks. Bin Laden believed these 
operatives could more easily blend into American society and 
unleash terror attacks without warning. Threats at our Southern 
Border also persist from the increasing sophistication of drug 
cartels. From elaborate underground tunnels costing over $1 
million to constructing submarines used to circumvent our 
maritime security, these cartels will stop at nothing to ensure 
their products enter our homeland.
    U.S. Border Patrol faces an ever-persistent challenge of 
identifying and apprehending special-interest aliens, those 
aliens from countries designated by intelligence agencies as 
potential threats to our security. For fiscal years 2006 to 
2011, Border Patrol officers apprehended nearly 2,000 special-
interest aliens. With the Calderon government's tough stand 
against organized crime in Mexico, we have also witnessed the 
increasingly ruthless violence that the cartels employ to 
strike fear into those attempting to stop them.
    For example, in May 2012, 23 residents of Nuevo Laredo, 
Mexico, were brazenly executed, nine of the bodies hung from a 
bridge at a busy intersection only a 10-minute drive from 
Texas.
    Unfortunately, some of this violence has even spilled into 
American soil. Since 2009, Mexican drug traffickers have fired 
upon nearly 60 Texas law enforcement officers. Kidnappings in 
2009 also spiked in McAllen, Texas, and all these threats were 
making the Southwest Border increasingly dangerous.
    Despite these growing threats, efforts to secure the 
Southern Border have been mixed. Border Enforcement Security 
Teams, or BEST teams, have combined Federal, State, and local 
resources and have had a significant positive impact since 
their creation in 2005, such as seizing over 13,500 weapons and 
investigations, resulting in over 4,500 convictions. The Texas 
Department of Public Safety initiatives have also had an effect 
in reducing border crime, apprehending illegal drugs and 
fostering improved law enforcement relationships resulting in 
improved information sharing.
    However, with these successes, our efforts to secure the 
border have experienced challenges, the most high-profile of 
which, the Secure Border Initiative Network, or SBInet, failed 
to meet expectations and resulted in little return to its $1 
billion investment. Due to the challenges with SBInet, the 
administration abandoned the goal of securing the Southern 
Border to instead focus first on the Arizona border. But we 
still may be years away from effectively securing Arizona, and 
no definite time frame for securing the rest of the Southern 
Border exists. DHS reported in late 2011 that it could respond 
to illegal activity along 44 percent of the Southwest Border, 
leaving 7,500 border miles inadequately protected.
    Given all the threats outlined in the subcommittee's 
report, this approach is unacceptable. The 9/11 Commission 
wisely cautioned us about a failure of imagination, and this 
criticism should be considered when securing our border. The 
next Congress and administration need to develop an achievable 
plan to comprehensively secure our Southern Border.
    By identifying the threats to our border and developing a 
plan to better secure them, this hearing can be a first step 
towards a significant issue that we will need to address in the 
next Congress, reforming our immigration system. I hope our 
witnesses today can share specific ideas on how we can better 
secure our borders and mitigate the grave threats that we see 
from Iran and Latin American drug cartels.
    With that, I now recognize the Ranking Member, the 
gentleman from Massachusetts, Mr. Keating.
    [The statement of Mr. McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           November 16, 2012
    International terrorist networks are expanding their ties to 
ruthless Mexican drug trafficking organizations and creating risks to 
our Nation's borders and possible attack on our homeland. These are 
findings from our subcommittee's investigative report released earlier 
this week. The Majority report, entitled A Line in the Sand: 
Confronting Crime, Violence, and Terror at the Southwest Border 
describes the growing concern that terrorist organizations will exploit 
burgeoning relationships with Latin American drug traffickers to 
infiltrate the Southwest Border undetected.
    Specifically, Iran is attempting to cement relations with certain 
Latin American countries to expand its influence and challenge the 
United States. Iran has cultivated stronger relationships with 
Venezuela. Examining travel between the two countries, according to 
Ambassador Roger Noriega--former Assistant Secretary of State for 
Western Hemisphere Affairs, direct commercial flights from Caracas to 
Tehran continue despite claims to the contrary. Iran also tries to 
flout international economic sanctions by using Venezuela as a major 
destination to ship its exports.
    Far more alarming than increasing political and economic ties, Iran 
is also attempting to lay the foundation for military and covert 
operations within the United States by partnering with Mexican drug 
cartels. No better example illustrates this danger than the Iranian 
Qods Force's attempt to work with the Los Zetas drug cartel to 
assassinate the Saudi Arabian Ambassador to the United States on 
American soil. Some estimate that Hezbollah sympathizers operating in 
the United States could number in the hundreds.
    Iran's strategic migration and its relationships in Latin America 
are a clear and present danger to American National security. Should 
tensions mount over Iran's nuclear program, these relationships could 
possibly result in strategic platforms for Iran to unleash terror 
operations on the U.S. homeland.
    In addition, concerns increasingly exist that terrorist 
organizations are attempting to corrupt drug traffickers and other 
aliens entering the United States. For example, according to news 
reports from earlier this year, Osama bin Laden sought operatives with 
valid Mexican passports to enter the United States to conduct terror 
attacks. Bin Laden believed these operatives could more easily blend 
into American society and unleash terror attacks without warning.
    Threats at our Southern Border also persist from the increasing 
sophistication of drug cartels. From elaborate underground tunnels 
costing over $1 million to construct to mini-submarines used to 
circumvent our maritime security, these cartels will stop at nothing to 
ensure their ``products'' enter our homeland.
    U.S. Border Patrol faces an ever-persistent challenge of 
identifying and apprehending ``special-interest aliens''--those aliens 
from countries designated by intelligence agencies as potential threats 
to our security. From fiscal years 2006 to 2011, Border Patrol officers 
apprehended nearly 2,000 special-interest aliens.
    With the Calderon government's tough stand against organized crime 
in Mexico, we have also witnessed the increasingly ruthless violence 
that the cartels employ to strike fear into those attempting to stop 
them. For example, in May 2012, 23 residents of Nuevo Laredo, Mexico 
were brazenly executed; 9 of the bodies hung from a bridge at a busy 
intersection only a 10-minute drive from Texas.
    Unfortunately, some of this violence has even spilled onto American 
soil. Since 2009, Mexican drug traffickers have fired upon nearly 60 
Texas law enforcement officers. Kidnappings in 2009 also spiked in 
McAllen, Texas. All of these threats are making the Southwest Border 
increasingly dangerous.
    Despite these growing threats, efforts to secure the Southern 
Border have been mixed. Border Enforcement Security Task Forces--or 
BEST teams--have combined Federal, State, and local resources and had a 
significant positive impact since their creation in 2005, such as 
seizing over 13,500 weapons and investigations resulting in over 4,500 
convictions. Texas Department of Public Safety initiatives have also 
had an effect in reducing border crime, apprehending illegal drugs, and 
fostering improved law enforcement relationships resulting in improved 
information sharing.
    However, with these successes, our efforts to secure the border 
have experienced challenges. The most high-profile of which, the Secure 
Border Initiative Network or SBINet, failed to meet expectations and 
resulted in little return on its $1 billion dollar investment. Due to 
the challenges with SBINet, the administration abandoned the goal of 
securing the Southern Border to instead focus first on the Arizona 
Border. But we still may be years away from effectively securing 
Arizona and no definite time frame for securing the rest of the 
Southern Border exists. DHS reported in late 2011 that it could respond 
to illegal activity along 44 percent of the Southwest Border, leaving 
7,500 border miles inadequately protected.
    Given all of the threats outlined in the subcommittee's report, 
this approach is unacceptable. The 9/11 Commission wisely cautioned us 
about a failure of imagination and this criticism should be considered 
when securing our border. The next Congress and administration need to 
develop an achievable plan to comprehensively secure our Southern 
Border. By identifying the threats to our border and developing a plan 
to better secure our borders, this hearing can be a first step towards 
a significant issue that we will need to address in the next Congress: 
Reforming our immigration system. I hope our witnesses today can share 
specific ideas on how we can better secure our borders and mitigate the 
grave threats from Iran and Latin American drug cartels.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for your kind remarks, and it has been a pleasure 
this Congress. I think we have set some record for the number 
of hearings, and I think we have had some fruitful results.
    The purpose of today's hearing is to examine the multitude 
of threats that must be considered when securing our Nation's 
borders. From keeping illegal goods and contraband out of our 
country to ensuring that our border communities are shielded 
from the violence spurred by drug-trafficking organizations 
occurring in Mexico and serving as the last line of defense 
between our country and its neighbors, the work that occurs at 
our borders on a daily basis is nothing short of phenomenal.
    Putting things in perspective, by all accounts, our borders 
are safer now than they have been. In the past 3 years, the 
U.S. Customs and Border Protection has increased the number of 
Border Patrol agents from approximately 9,100 in 2001 to more 
than 18,500 today, and border apprehensions have decreased by 
53 percent.
    The brave men and women who work tirelessly to ensure our 
border security are indeed to be commended.
    I would like to especially thank and honor those who have 
paid the ultimate sacrifice while working to keep our borders 
safe and secure.
    Two threats that our witnesses will discuss in particular 
are whether spillover violence from Mexico has impacted the 
United States and whether Iranian-sponsored terrorism has found 
roots in Latin America. Statistics and evidence show that in 
many respects progress has been encouraging. According to the 
Federal Bureau of Investigation's and anecdotal evidence from 
communities across the border States, U.S. border communities 
are safer places than they were a short time ago. The crime 
rates that are there are less than some of our own cities here 
in the country, particularly even here in the District of 
Columbia.
    Furthermore, the U.S. Department of State in its 2009 and 
its 2011 country reports on terrorism has maintained that, 
``there are no known operational cells of Hezbollah or al-Qaeda 
in the Western Hemisphere.'' Activities of the Iranian 
Revolutionary Guard, however, worldwide and including possible 
Latin American activities bear continued scrutiny. We must not 
divert our attention overall from the threat of homegrown 
terrorist threats, and we should be mindful of General Barry 
McCaffrey's testimony in front of this committee on the 
importance of comprehensive immigration reform and its 
relationship to border security.
    Therefore, the likelihood that terrorists will seek to 
enter the country via the Southwest Border cannot be ruled out, 
but it is lower on the probability scale. In fiscal year 2006 
through fiscal year 2011, only .5 percent of aliens apprehended 
at the Southwest Border were from special-interest countries.
    While progress has been made, we must remain vigilant and 
never rest on our laurels. That is why I would like to thank 
our witnesses for appearing today.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. McCaul. I thank the Ranking Member.
    Other Members are reminded opening statements may be 
submitted for the record. We have a very distinguished panel of 
witnesses here today. I would like to go ahead and introduce 
them.
    Mr. McCaul. First, we have Ambassador Roger Noriega, former 
assistant secretary of state for western hemisphere affairs and 
a former U.S. Ambassador to the Organization of American 
States. He coordinates the American Enterprise Institute's 
program on Latin America and writes for the institute's Latin 
American Outlook Series.
    Next, we have Mr. Frank Cilluffo, who is an associate vice 
president at the George Washington University, where he directs 
the Homeland Security Policy Institute. Shortly after the 
terrorist attacks of September 11, he was appointed by the 
President to the Office of Homeland Security and served as a 
principal adviser to Secretary Tom Ridge.
    Next, we have Mr. Douglas Farah, who is the International 
Assessment and Strategy Center senior fellow of financial 
investigations and transparency. He specializes on 
transnational criminal organizations and armed groups in their 
efforts on states and corruption, terrorism, terror finance and 
proliferation, illicit financial flows in the Western 
Hemisphere.
    Last, we have Dr. Marc Rosenblum. He is a specialist in 
immigration policy at the Congressional Research Service and 
associate professor of political science at the University of 
New Orleans. At CRS, Dr. Rosenblum focuses on policies related 
to immigration enforcement at the border and within the United 
States.
    I would like to thank all of you for being here today.
    The Chairman now recognizes Ambassador Noriega for his 
testimony.

   STATEMENT OF ROGER F. NORIEGA, VISITING FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Noriega. Thank you very much, Mr. Chairman. I have a 
full statement, and I will summarize briefly. I applaud the 
subcommittee for its continued efforts to study and expose the 
menacing cooperation between narco traffickers and Islamic 
terrorist group Hezbollah.
    Focus on the border is essential, of course, but we need to 
look down-range to find the roots of some of these problems. 
There is a growing body of evidence, for example, that this 
narco-terrorist collaboration in this hemisphere is aided and 
abetted by the hostile governments of Venezuela and Iran.
    To put it bluntly, this is not just criminal activity, Mr. 
Chairman; it is asymmetrical warfare being supported by two 
very determined foes of the United States.
    So how is it being waged? Hezbollah conspires with drug-
trafficking networks in Mexico, Central America, and South 
America and really around the world, as a means of raising 
funds, sharing tactics, and reaching out and touching U.S. 
soil. One instructive example of the complexity and scale of 
these operations is the pending criminal case again Lebanese 
drug lord Ayman Jouma. Jouma was indicted in November 2011 for 
managing a sophisticated cocaine-smuggling and money-laundering 
scheme that channeled millions of dollars per month to 
Hezbollah as well as back to the cartels. His network involved 
Colombian narco-traffickers, the deadly Mexico gang Los Zetas, 
and other criminal associates, businesses, or banks in the 
United States, Mexico, Panama, Venezuela, Africa, Europe, and 
Lebanon.
    But traditional threats persist as well as. In recent 
years, Mexico has arrested numerous individuals associated with 
Hezbollah engaging in criminal activities, including smuggling 
of persons across the Southwest Border of the United States. 
Just in September, Mexicans intercepted a Lebanese-born U.S. 
citizen who was convicted in 2010 of channeling $100,000 to 
Hezbollah. That same man is suspected of working with Hezbollah 
operatives in Central America.
    Far from our border, Venezuela serves as a significant role 
as a nexus for narco and terrorist collaboration. On 
Venezuela's Margarita Island, for example, Hezbollah agents 
operate numerous businesses and safe houses. In addition to 
fundraising activities, Hezbollah provides terror training on 
the island for recruits from Venezuela and other Latin American 
countries. It is not well-known that the world's most powerful 
cocaine smuggler and head of Mexico's Sinaloa cartel, Joaquin 
Archivaldo ``El Chappo'' Guzman, conducted his business from 
Venezuela for much of the year 2010, living in a suburb of 
Caracas and on Margarita Island until early last year under the 
protection of security officials of the Venezuelan government.
    Margarita Island is not an isolated example of how 
Venezuela serves as a platform for this cooperation.
    Using that country as a safe haven, two parallel terrorist 
networks proselytize, fundraise, recruit, and train operatives 
on behalf of Hezbollah in many countries in the Americas. 
Hezbollah operatives and their co-conspirators hold senior 
positions in the Venezuela government from which they launder 
millions of dollars using regional banks and state-run 
enterprises in Venezuela to provide--as well as providing 
travel documents--weapons and logistical support to terrorist 
operatives and cocaine smugglers throughout the hemisphere and 
right up to our border. The Venezuelan state-owned airline 
Conviasa helps move personnel, weapons, and contraband in and 
out of our hemisphere from Damascus and Tehran.
    Mr. Chairman, Hugo Chavez is an able broker between 
Hezbollah and the narco-traffickers because I believe his 
regime is a narco-state. To be precise, U.S. officials have 
fresh compelling information implicating Chavez himself, his 
National Assembly president, his former minister of defense, 
his army chief, his newly-appointed deputy minister of interior 
and dozens of other senior military officials in cocaine-
smuggling and money-laundering activities. These cartels engage 
routinely in lucrative schemes involving Hezbollah front 
companies that operate in Venezuela.
    Chavez is also a strategic ally, as you mentioned, with 
Iran, and he carries out, helps them carry out their 
asymmetrical battle to our doorstep through its proxy 
Hezbollah. They have laundered about $30 billion to the 
Venezuelan economy to evade international sanctions and 70 
companies, some of which have been sanctioned by Western 
authorities for their involvement in supporting Iran's illicit 
program, operate suspicious industrial facilities in various 
locations throughout Venezuela. That is the tip of the iceberg, 
Mr. Chairman.
    So what are some of the recommendations for addressing this 
problem? Very, very briefly, I think we need a strategy, we 
need the adequate resources, and we need action.
    This summer, the House passed Representative Jeff Duncan's 
bill to require the Executive branch to provide Congress with a 
strategy for countering this threat. The Senate is expected to 
make small changes and return that measure within days to the 
House for final approval. I hope it passes. Once the Executive 
branch produces the required strategy, I hope Congress will 
appropriate law enforcement and intelligence agencies the 
resources they need to respond urgently and effectively.
    As an immediate measure, further administrative action can 
be taken now to sanction banks for on-going money-laundering 
schemes. Also, the involvement of Venezuelan officials and 
state-run entities in drug trafficking and terrorism must be 
publicized and punished in the form of Federal indictments. 
After years of work on the subject, I think it is fair to ask 
the Justice Department who or what is holding up these 
indictments. Congress is right to demand answers, Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Noriega follows:]
                 Prepared Statement of Roger F. Noriega
                           November 16, 2012
    Mr. Chairman, I applaud you and other Members of the subcommittee 
for your continued efforts to study and expose the evolving threats to 
the U.S. homeland that are developing beyond our borders. The 
subcommittee's published reports on this subject contain a sobering and 
insightful appraisal of the menacing cooperation between 
narcotraffickers and the Islamic terrorist group Hezbollah in our 
hemisphere.
    As a visiting fellow at the American Enterprise Institute for 
Public Policy Research, I head a project to examine and expose the 
dangerous alliance between the Venezuelan regime of Hugo Chavez and 
Iran. To date, we have conducted dozens of interviews with experts from 
throughout the world and with eyewitnesses on the ground in the region 
regarding Hezbollah's offensive in the Americas. We also have obtained 
reams of official Venezuelan and Iranian documents, only a few of which 
we have published to support our conclusions. In addition, I have 
worked for most of my professional life to understand and obstruct the 
illicit production and distribution of illegal narcotics and associated 
crimes of deadly drug syndicates.
    While much attention has been paid to the bloody confrontation 
between authorities in Mexico and several Central American countries 
with the transnational narcotrafficking organizations, there is 
virtually no recognition of the simple fact that, for the last 6-7 
years, much of the cocaine from South America makes its way northward 
with the material support of the government of Venezuela.
    Also, although some have taken note of anecdotal evidence about the 
troubling links between narco-traffickers and global terrorist group 
Hezbollah, most observers have failed to follow that evidence to 
Iranian-backed Hezbollah elements that operate throughout Latin 
America, right up to our Southwest Border, from a safe haven in 
Venezuela.
    Some may assess this narco-terrorist phenomenon as a marriage of 
convenience between different criminal elements or just another modus 
operandi of powerful international drug syndicates. In my view, such 
interpretations overlook a growing body of evidence that this narco-
terrorist alliance in our neighborhood is aided and abetted by 
Venezuela and Iran--two regimes bound together by a relentless 
hostility against U.S. security and interests. In other words, it is 
not just criminal activity--it is asymmetrical warfare.
    Focusing on improving security at our borders is important, but far 
from sufficient. This narco-terrorism will exact an increasingly 
terrible price from our neighbors and our Nation until our National 
security establishment recognizes that the mayhem on our border is 
being sponsored by hostile states. Once our policymakers face this 
fact, they can begin to fashion a more effective response.
                            key observations
    Allow me to describe some of the elements of this narcoterrorist 
network, followed by a fuller discussion to provide the necessary 
context to understand why this threat is extraordinarily dangerous.
  <bullet> Hezbollah conspires with drug-trafficking networks in Mexico 
        and Central and South America as a means of raising funds, 
        sharing tactics and ``reaching out and touching'' U.S. 
        territory.
    <bullet> The criminal case against Lebanese drug lord Ayman Jouma 
            is very instructive. Jouma was indicted in November 2011 
            for a sophisticated cocaine-smuggling and money-laundering 
            scheme benefiting Hezbollah.\1\ His network involves 
            criminal associates and corrupt businesses in Colombia, the 
            United States, Mexico, Panama, Venezuela, and Lebanon. In 
            June 2012, Venezuelan-Lebanese dual citizens Abbas Hussein 
            Harb, Ali Houssein Harb (sic), and Kassem Mohamad Saleh and 
            several Venezuelan and Colombian companies were sanctioned 
            by the U.S. Treasury Department for their role in Jouma's 
            narco-terrorist operation.\2\
---------------------------------------------------------------------------
    \1\ ``Ties Between Hezbollah and Mexican Drug Cartels Revealed,'' 
by Rebecca Anna Stoil, The Jerusalem Post, December 15, 2011 http://
www.jpost.com/International/Article.aspx?id=249684.
    \2\ ``Treasury Targets Major Money Laundering Network Linked to 
Drug Trafficker Ayman Joumaa and a Key Hizballah Supporter in South 
America,'' U.S. Department of the Treasury press release, June 27, 2012 
http://www.treasury.gov/press-center/press-releases/Pages/tg1624.aspx.
---------------------------------------------------------------------------
    <bullet> In recent years, Mexico has arrested numerous individuals 
            associated with Hezbollah engaging in criminal activities--
            including smuggling of persons across the U.S. Southwest 
            Border.\3\ For example, in September, a Lebanese-born U.S. 
            citizen, convicted in 2010 for a credit card scheme that 
            raised $100,000 for Hezbollah, was arrested in Merida by 
            Mexican authorities. Rafic Mohammad Labboun Allaboun, an 
            imam from a mosque in San Jose, California, was traveling 
            with a falsified passport issued by Belize. He was 
            extradited to the United States.\4\
---------------------------------------------------------------------------
    \3\ ``Exclusive: Hezbollah Uses Mexican Drug Routes into the 
U.S.,'' Washington Times, March 27, 2009.
    \4\ ``Mexico Extradites Suspected Hezbollah Member,'' September 11, 
2012 http://latino.foxnews.com/latino/news/2012/09/11/mexico-
extradites-suspected-hezbollah-member/.
---------------------------------------------------------------------------
    <bullet> In Venezuela, our sources report that Hezbollah cells and 
            representatives of the Mexican Sinaloa cartel operate in 
            key cocaine transit corridors in that South American 
            country. Margarita Island, best known as a Caribbean 
            tourist destination, is a safe haven for terrorists and 
            drug smugglers. We believe that it is here that Mexican 
            kingpins and Hezbollah chiefs have planned their 
            collaboration.
    <bullet> It is a little-known fact is that the world's most 
            powerful cocaine smuggler and head of the Sinaloa cartel, 
            Joaquin Archivaldo ``El Chapo'' Guzman conducted his 
            business from Venezuela for much of 2010, living in a 
            suburb of Caracas and on Margarita Island until early last 
            year under the protection of Venezuelan security officials 
            working for Chavez.
    <bullet> Not coincidentally, Hezbollah agents operate numerous 
            businesses and safe houses on Margarita Island. In addition 
            to fund-raising activities, Hezbollah provides terror 
            training on the island for recruits from Venezuela and 
            other Latin American countries.
  <bullet> Margarita Island is not an isolated example of this 
        cooperation. Two Hezbollah networks proselytize, fund-raise, 
        recruit, and train operatives on behalf of Iran and Hezbollah 
        in many countries in the Americas.
    <bullet> One of these parallel networks is operated by a Lebanese-
            Venezuelan clan, and another is managed by Mohsen Rabbani, 
            a notorious agent of the Qods Force of the Iranian 
            Revolutionary Guard Corps who is wanted for his role in the 
            1992 and 1994 Buenos Aires bombings against the Israeli 
            Embassy and Jewish community center, respectively.
    <bullet> Hezbollah operatives and their radical anti-Semitic allies 
            hold important senior positions in the Venezuelan 
            government and run a network that provides logistical and 
            material support to terrorist operatives.
    <bullet> In recent years, the Chavez regime has sent weapons to 
            Hezbollah (ammunition, grenades, rockets, etc., intercepted 
            in 2009 by Israeli commandos) \5\ and shipped refined fuel 
            to Iran and Syria.\6\
---------------------------------------------------------------------------
    \5\ http://articles.latimes.com/2009/nov/05/world/fg-israel-arms-
boat5.
    \6\ http://www.nytimes.com/2012/02/23/world/americas/chavez-
appears-to-use-venezuelan-fuel-to-help-syrias-assad.html.
---------------------------------------------------------------------------
    <bullet> Thousands of authentic Venezuelan travel documents have 
            been provided to persons of Middle Eastern descent in the 
            last decade, and numerous Latin American governments have 
            detained many Iranian and Lebanese persons carrying 
            Venezuelan passports.\7\
---------------------------------------------------------------------------
    \7\ One of the 9/11 attackers had ties to a man traveling on an 
authentic Venezuelan passport bearing the name ``Hakim Mohamed Ali Diab 
Fattah.'' Diab Fattah was detained by the FBI and deported to 
Venezuela; when the FBI asked the Venezuelan government for access to 
this man, authorities there claimed that he never entered the country.
---------------------------------------------------------------------------
    <bullet> The Venezuelan state-owned airline, Conviasa, operates 
            regular service from Caracas to Damascus and Tehran--
            providing Iran, Hezbollah, and associated narco-traffickers 
            a surreptitious means to move personnel, weapons, 
            contraband, and other materiel.
  <bullet> Hugo Chavez is able to broker ties between Hezbollah and 
        narco-traffickers, because his regime has become a narco-state.
    <bullet> To be precise, U.S. officials have fresh, compelling 
            information implicating Chavez, his head of the National 
            Assembly (Diosdado Cabello Rondon), his former Minister of 
            Defense (Henry de Jesus Rangel Silva), his army chief 
            (Cliver Alcala Cordones), and his newly-appointed deputy 
            Minister of Interior (Hugo Carvajal), and dozens of other 
            senior military officials in trafficking in cocaine.
    <bullet> These elected officials and active-duty and retired 
            military officers are responsible for transporting tons of 
            cocaine to Central America, Mexico, the Caribbean, the 
            United States, west Africa, and Europe.
    <bullet> It is no surprise that corrupt Chavista officials, 
            including Chavez's closest advisors, engage routinely in 
            lucrative schemes involving Hezbollah front companies, 
            Colombian guerrillas, narco-traffickers, Venezuelan 
            financial institutions and even powerful state-run 
            entities.
  <bullet> Chavez also is a key ally of the Islamic Republic of Iran, 
        which is carrying its asymmetrical battle to our doorstep. 
        Since Mahmoud Ahmadinejad paid his first visit to Caracas in 
        September 2006, Venezuela has become one of Iran's most 
        important allies in the world--certainly Tehran's closest 
        partner in our neighborhood.
    <bullet> Venezuela has helped Iran launder at least $30 billion to 
            evade international sanctions. Seventy Iranian companies--
            many of them fronts for the IRGC that have been sanctioned 
            by Western governments for their support for Iran's illicit 
            nuclear program--operate suspicious industrial facilities 
            in Venezuela co-located with military and petrochemical 
            installations.
    <bullet> The two governments also cooperate in nuclear technology 
            and the exploration for uranium, notwithstanding U.N. 
            sanctions.
                       discussion and background
                        venezuela's pivotal role
    In light of the pivotal role being played by the Venezuelan regime 
in sustaining this narcoterrorist threat, it is important to bear in 
mind that this is not just another developing country that is unable to 
control its territory. Venezuela is an oil-rich state that has 
collected about $1.1 trillion in oil revenue in the last decade. It 
also is not just an isolated hostile state led by a bombastic populist: 
Venezuela has collected more than $25 billion in loans from China in 
the last 18 months, and has purchased at least $9 billion in arms from 
the Russians in the last decade.
    Chavez's diplomats have systematically undermined the region's 
oldest political forum while creating others that consciously exclude 
the United States. He also has used ``checkbook diplomacy'' to create a 
loose alliance of nearly two dozen states in the region that either 
share his radical views, are dependent on his largesse, or both.
    With the success of the U.S.-backed Plan Colombia, about 6 or 7 
years ago, South American narco-traffickers had to adjust their 
smuggling routes. They had to look no farther than Caracas. Chavez 
doled out lucrative drug-trafficking deals as a means to secure the 
loyalty of military subordinates and to generate billions in revenue 
and make them complicit in his corrupt regime. As described above, 
dozens of senior military officials closely associated with Chavez have 
been implicated in narco-trafficking crimes. The Venezuelan Cartel del 
Sol is headed by Diosdado Cabello, National Assembly president and 
ruling party vice chairman, and other active-duty and retired military 
officers who are among Chavez's closest collaborators.
    That military syndicate operates parallel to a civilian network 
known as the Cartel Libanes, which was formed by Walid Makled Garcia. 
According to journalist and narco-terror expert, Douglas Farah, ``The 
supplier of the cocaine [to the Makled cartel] was the FARC in Colombia 
. . . Venezuelan sources say Makled was also the a key tie in the 
corruption and drugs world to the Shiite Muslim communities in Isla 
Margarita and the Guajira, groups that have a strong financial 
relationship with Hezbollah.''\8\ Makled is wanted in the United States 
for cocaine smuggling; after being detained in Colombia, he gave a 
series of media interviews implicating dozens of Venezuela officials in 
cocaine smuggling. Colombia surprised many observers by extraditing 
Makled to Venezuela, where his closed-door trial began in April 
2012.\9\
---------------------------------------------------------------------------
    \8\ ``The Further Narco-Terrorist Ties of the Chavez Government,'' 
by Douglas Farah, November 12, 2010 http://www.douglasfarah.com/
article/543/the-further-narco-terrorist-ties-of-the-chavez-government.
    \9\ ``5 Things to Watch for in Venezuelan Kingpin Walid Makled's 
Trial,'' by Elyssa Pachico, Latin America Monitor, July 31, 2012 http:/
/www.csmonitor.com/World/Americas/Latin-America-Monitor/2012/0731/5-
things-to-watch-for-in-Venezuelan-kingpin-Walid-Makled-s-trial.
---------------------------------------------------------------------------
    Even before Chavez won power in 1998, he established intimate links 
to the Colombian guerrilla group FARC (Fuerzas Armadas Revolucionarias 
Colombianas)--which wages a terrorist war against a democratic 
government and ally of the United States. For many years, FARC 
commanders and troops have operated in and out of Venezuela with the 
complicity of the Chavez regime. A principal activity of the FARC today 
is the transportation of cocaine to safe havens operated by the 
Venezuelan military for transport to the United States and other 
countries.
    In September, pursuant to section 706(2)(A) of the Foreign 
Relations Authorization Act of 2003, President Obama determined that 
Venezuela was one of three countries in the world (along with Bolivia 
and Burma) that ``failed demonstrably during the previous 12 months to 
adhere to their obligations under international counternarcotics 
agreements . . . ''\10\
---------------------------------------------------------------------------
    \10\ See the September 14, 2012, Presidential Memorandum at this 
site: http://www.whitehouse.gov/the-press-office/2012/09/14/
presidential-memorandum-presidential-determination-annual-presidential-
d.
---------------------------------------------------------------------------
    In the last 4 years, the Russians have sold at least $9 billion in 
arms to Venezuela and will complete construction of a factory in 
Maracay that can produce about 25,000 assault rifles per year. The 
latest $4 billion Russian line of credit announced in June will go 
toward arming Chavista militias--shock troops loyal only to him and 
meant to intimidate the opposition.
    Venezuela's internal security apparatus has been organized and 
directed by Cuba, a country designated by the U.S. State Department as 
a state sponsor of terrorism. That same report cited Venezuela's 
``economic, financial and diplomatic cooperation with Iran . . . ''\11\ 
Chavez's aides make no secret of on-going oil shipments to a third 
terrorist state, Syria. A regime with intimate ties to three of the 
world's four terror states would have to try quite hard not to be a 
threat. Just as Hezbollah, Cuba, Syria, and Iran are considered 
terrorist threats to U.S. National security interests, Venezuela's 
crucial support for each of them should be, too. Although this support 
may not pose a classical conventional threat, it is precisely the kind 
of asymmetrical tactics that our enemies favor today.
---------------------------------------------------------------------------
    \11\ http://www.state.gov/j/ct/rls/crt/2011/195546.htm.
---------------------------------------------------------------------------
    Chavez also has served as the principal interlocutor on Iran's 
behalf with other like-minded heads of state in the region, primarily 
Rafael Correa (of Ecuador) and Evo Morales (of Bolivia), both members 
of the Chavez-sponsored Bolivarian Alliance for the Peoples of Our 
America (ALBA) and both of whom have established dubious networks with 
criminal transnational groups.\12\ According to recent Congressional 
testimony by investigative journalist Doug Farah, this has led to ``the 
merging of the Bolivarian Revolution's criminal-terrorist pipeline 
activities and those of the criminal-terrorist pipeline of radical 
extremist groups (Hezbollah in particular) supported by the Iranian 
regime.''\13\ Such ties are invaluable to groups like Hezbollah, as 
they afford them protection, safe havens in which to operate, and even 
diplomatic status and immunity.
---------------------------------------------------------------------------
    \12\ Jose R. Cardenas, ``The Chavez Model Threatens Ecuador,'' AEI 
Latin American Outlook (March 2011), www.aei.org/outlook/101037; 
Douglas Farah, Into the Abyss: Bolivia under Evo Morales and the MAS 
(Alexandria, VA: International Assessment and Strategy Center, 2009), 
www.strategycenter.net/files/2011/10/06/
20090618_IASCIntoTheAbyss061709.pdf (accessed September 27, 2011).
    \13\ Douglas Farah, ``Hezbollah in Latin America: Implications for 
U.S. Security,'' Testimony before the House Committee on Homeland 
Security Subcommittee on Counterterrorism and Intelligence, July 7, 
2011, www.homeland.house.gov/sites/homeland.house.gov/files/
Testimony%20Farah.pdf (accessed September 27, 2011).
---------------------------------------------------------------------------
                iran's dangerous gambit near our borders
    To comprehend what Iran is up to, we must set aside conventional 
wisdom about its ambitions, strategies, and tactics and follow the 
evidence where it leads. For example, in the aftermath of a bizarre 
plot discovered in October 2011 in which Iranian agents conspired with 
supposed Mexican drug cartel leaders to commit a terrorist bombing in 
the heart of our Nation's capital,\14\ Director of National 
Intelligence, James R. Clapper, revealed that ``Iranian officials'' at 
the highest levels ``are now more willing to conduct an attack in the 
United States . . . '' General Clapper also reported that Iran's so-
called ``supreme leader'' Ali Khamenei was probably aware of this 
planning.
---------------------------------------------------------------------------
    \14\ ``Notorious Iranian Militant has a Connection to Alleged 
Assassination Plot Against Saudi Envoy,'' by Peter Finn, The Washington 
Post, October 14, 2011.
---------------------------------------------------------------------------
    Iranian officials have made no secret of the regime's intention to 
carry its asymmetrical struggle to the streets of the United States. 
For example, in a May 2011 speech in Bolivia, Iran's Defense Minister 
Ahmad Vahidi promised a ``tough and crushing response'' to any U.S. 
offensive against Iran.\15\ At the same time that Iran caught the 
world's attention by threatening to close the Strait of Hormuz, Mahmoud 
Ahmadinejad announced a five-nation swing through Latin America aimed 
at advancing its influence and operational capabilities on the U.S. 
doorstep.\16\
---------------------------------------------------------------------------
    \15\ ``Sanction shows U.S. weakness, says Iran minister,'' Iranian 
Students' News Agency, June 1, 2011; ``Iran Warns of Street War in Tel 
Aviv If Attacked,'' Fars News Agency, November 8, 2011.
    \16\ ``Iran Seeking to Expand Influence in Latin America,'' by Joby 
Warrick, The Washington Post, January 1, 2012.
---------------------------------------------------------------------------
    The intelligence community's fresh assessment of Iran's willingness 
to wage an attack on our soil leads to the inescapable conclusion that 
Tehran's activities near our homeland constitute a very real threat 
that can no longer be ignored.
    Bracing for a potential showdown over its illicit nuclear program 
and emboldened by inattention from Washington in Latin America, Iran 
has sought strategic advantage in our neighborhood. It also is 
preparing to play the narco-terrorism card--exploiting its partnership 
with Venezuelan operatives, reaching into Mexico, and activating a 
decades-old network in Argentina, Brazil, and elsewhere in the region.
    Today, a shadowy network of embassies, Islamic centers, financial 
institutions, and commercial and industrial enterprises in several 
countries affords Iran a physical presence in relatively close 
proximity to the United States. Iran is well-positioned to use its 
relationships with these countries to pose a direct threat to U.S. 
territory, strategic waterways, and American allies. Iran also has 
provided the Venezuelan military with weapon systems that give Chavez 
unprecedented capabilities to threaten its neighbors and the United 
States.
    Notably, a half-dozen Iranian companies sanctioned by the United 
Nations, U.S. or European authorities have built suspicious industrial 
installations at various sites in Venezuela.\17\ These facilities were 
important enough to attract secret visits by Iranian Major General Amir 
Ali Hajizadeh, the Revolutionary Guard Corps aerospace commander who 
previously headed Iran's missile program, in July 2009 and November 
2011.
---------------------------------------------------------------------------
    \17\ Iranian companies sanctioned on repeated occasions by the U.S. 
Treasury, the Office of Foreign Assets Control, the U.N. Security 
Council (United Nations Security Council Resolutions 1747, 1803, 1929), 
the European Union (2008, 2010, 2011), the United Kingdom (2007, 2008), 
Germany (2005), and Japan.
---------------------------------------------------------------------------
                   venezuela's hezbollah-narco nexus
    It is said that wherever Iran goes, Hezbollah is not far behind. In 
the case of Venezuela, Hezbollah blazed the trail in Venezuela, 
establishing a network of commercial enterprises meant to raise and 
channel funds and hide its financial tracks. These activities have 
exploded in the last 6-7 years, as Hezbollah's activities in the region 
gained the active complicity of the Venezuelan government, the backing 
of Iranian security forces and notorious Muslim radicals, and the 
cooperation of powerful Mexican and narco-trafficking syndicates that 
reach onto U.S. soil.
    Research from open sources, subject-matter experts, and sensitive 
sources within various governments has identified at least two 
parallel, collaborative terrorist networks growing at an alarming rate 
in Latin America. One of these networks is operated by Venezuelan 
collaborators, and the other is managed by the Qods Force of the 
Iranian Revolutionary Guard Corps. These networks encompass more than 
80 operatives in at least 12 countries throughout the region (with 
their greatest areas of focus being Brazil, Venezuela, Argentina, and 
Chile).
    The Nassereddine Network.--Ghazi Atef Nassereddine Abu Ali, a 
native of Lebanon who became a Venezuelan citizen about 12 years ago, 
is Venezuela's second-ranking diplomat in Syria. Nassereddine is a key 
Hezbollah asset because of his close personal relationship to Chavez's 
Justice and Interior Minister, Tarik El Aissami, and because of his 
diplomatic assignment in Damascus. Along with at least two of his 
brothers, Nassereddine manages a network to expand Hezbollah's 
influence in Venezuela and throughout Latin America.
    Nassereddine's brother Abdallah, a former member of the Venezuelan 
congress, uses his position as the former vice president of the 
Federation of Arab and American Entities in Latin America and the 
president of its local chapter in Venezuela to maintain ties with 
Islamic communities throughout the region.\18\ He currently resides on 
Margarita Island, where he runs various money-laundering operations and 
manages commercial enterprises associated with Hezbollah in Latin 
America. Younger brother Oday is responsible for establishing 
paramilitary training centers on Margarita Island. He is actively 
recruiting Venezuelans through local circulos bolivarianos 
(neighborhood watch committees made up of the most radical Chavez 
followers) and sending them to Iran for follow-on training.
---------------------------------------------------------------------------
    \18\ This organization was founded in Argentina in 1972 to unite 
Muslims, namely the Syrian and Lebanese communities, in Latin America 
and has spread rapidly throughout Latin America, with offices in 
Argentina, Chile, Brazil, Cuba, Venezuela, Guadalupe Island, Antigua, 
and Uruguay. It is overtly anti-Israel; supportive of anti-American 
regimes in the Middle East and Latin America; and used as a platform 
for Hezbollah to raise money, recruit supporters, and solicit illegal 
visas.
---------------------------------------------------------------------------
    The Rabbani Network.--Hojjat al-Eslam Mohsen Rabbani, who was the 
cultural attache at the Embassy of the Islamic Republic of Iran in 
Buenos Aires, Argentina, oversees a parallel Hezbollah recruitment 
network.\19\ Rabbani is currently the international affairs advisor to 
the Al-Mostafa Al-Alam Cultural Institute in Qom, which is tasked with 
propagation of Shia Islam outside Iran.\20\ Rabbani, referred to by the 
important Brazilian magazine Veja as ``the Terrorist Professor,''\21\ 
is a die-hard defender of the Iranian revolution and the mastermind 
behind the two notorious terrorist attacks against Jewish targets in 
Buenos Aires in 1992 and 1994 that killed 144 people.\22\
---------------------------------------------------------------------------
    \19\ ``Reis-Jomhour-e Arzhantin Dar Sazeman-e Melal: Tehran Ba 
Mohakemeh-ye Maqamatash Dar Keshvar-e Sales Movafeqat Konad'' [The 
President of Argentina: Tehran Should Accept Trial of Its Authorities 
in a Third Country], Asr-e Iran (Tehran), September 25, 2010, 
www.asriran.com (available in Persian, accessed September 29, 2011).
    \20\ ``Din va Siasat Dar Amrika-ye Latin Dar Goftegou Ba Ostad 
Mohsen Rabbani'' [Religion and Politics in Latin America in 
Conversation with Professor Mohsen Rabbani], Book Room (Tehran), May 3, 
2010.
    \21\ ``The Terrorist `Professor,' '' Veja (Brazil), April 20, 2011.
    \22\ Marcelo Martinez Burgos and Alberto Nissman, Office of 
Criminal Investigations: AMIA Case (Buenos Aires, Argentina: 
Investigations Unit of the Office of the Attorney General, 2006), 
www.peaceandtolerance.org/docs/nismanindict.pdf (accessed September 27, 
2011).
---------------------------------------------------------------------------
    At the time, Rabbani was credentialed as Iran's cultural attache in 
the Argentine capital, which he used as a platform for extremist 
propaganda, recruitment, and training that culminated in the attacks in 
the 1990s. In fact, he continues to exploit that network of Argentine 
converts today to expand Iran's and Hezbollah's reach--identifying and 
recruiting operatives throughout the region for radicalization and 
terrorist training in Venezuela and Iran (specifically, the city of 
Qom).
    At least two mosques in Buenos Aires--Al Imam and At-Tauhid--are 
operated by Rabbani disciples. Sheik Abdallah Madani leads the Al Imam 
mosque, which also serves as the headquarters for the Islamic-Argentine 
Association, one of the most prominent Islamic cultural centers in 
Latin America.
    Some of Rabbani's disciples have taken what they have learned from 
their mentor in Argentina and replicated it elsewhere in the region. 
Sheik Karim Abdul Paz, an Argentine convert to Shiite Islam, studied 
under Rabbani in Qom for 5 years and succeeded him at the At-Tauhid 
mosque in Buenos Aires in 1993.\23\ Abdul Paz is now the imam of a 
cultural center in Santiago, Chile, the Centro Chileno Islamico de 
Cultura de Puerto Montt. Another Argentine convert to radical Islam and 
Rabbani disciple is Sheik Suhail Assad, who lectures at universities 
throughout the region and recruits young followers to the cause.\24\
---------------------------------------------------------------------------
    \23\ ``Goftegou Ba Sarkar-e Khanom-e Ma'soumeh As'ad Paz Az 
Keshvar-e Arzhantin'' [Conversation with Lade Ma'soumeh As'ad Paz From 
Argentina], Ahlulbayt (Tehran), June 13, 2011.
    \24\ Marielos Marquez, `` `El Islam es una forma de vida': Sheij 
Suhail Assad,'' DiarioCoLatino, August 27, 2007.
---------------------------------------------------------------------------
    A key target of the Rabbani network--and Hezbollah in general--is 
Brazil, home to some 1 million Muslims. Rabbani travels to Brazil 
regularly to visit his brother, Mohammad Baquer Rabbani Razavi, founder 
of the Iranian Association in Brazil.\25\ Another of his principal 
collaborators is Sheik Khaled Taki Eldyn, a Sunni radical from the Sao 
Paulo Guarulhos mosque. Taki Eldyn, who is active in ecumenical 
activities with the Shia mosques, also serves as the secretary general 
of the Council of the Leaders of the Societies and Islamic Affairs of 
Brazil.\26\ A sensitive source linked that mosque to a TBA network 
cited by the U.S. Treasury Department as providing major financial and 
logistical support to Hezbollah.\27\ As far back as 1995, Taki Eldyn 
hosted al-Qaeda leader Osama bin Laden and 9/11 mastermind Khalid Sheik 
Mohammed in the TBA region.
---------------------------------------------------------------------------
    \25\ ``Sourat-e Jalaseh'' [Agenda], Iranianbrazil (Brazil), March 
17, 2010.
    \26\ ``Aein-ha-ye Ramezani Dar Berezil'' [Ramadan Traditions in 
Brazil], Taghrib News (Qom), September 5, 2010.
    \27\ U.S. Department of the Treasury, ``Treasury Designates Islamic 
Extremist, Two Companies Supporting Hizballah in Tri-Border Area,'' 
news release, June 10, 2004.
---------------------------------------------------------------------------
    According to Brazilian intelligence sources cited by the magazine 
Veja, at least 20 operatives from Hezbollah, al-Qaeda, and the Islamic 
Jihad are using Brazil as a hub for terrorist activity.\28\ The fact 
that Brazil is set to host the FIFA World Cup tournament in 2014 and 
the Summer Olympics in 2016 makes it an inviting target for 
international terrorism. U.S. officials should be approaching Brazilian 
officials to discuss the potential threat of Venezuelan-Iranian support 
for narcoterrorism. Unfortunately, most U.S. diplomats are as 
indifferent to this reality as their Brazilian counterparts.
---------------------------------------------------------------------------
    \28\ ``The Terrorist `Professor' '' Veja (Brazil), April 20, 2011.
---------------------------------------------------------------------------
              continued congressional leadership required
    Mr. Chairman, our project has shared substantial information about 
these aforementioned threats with U.S. Government officials--either 
directly or through Members of Congress. Too often the attitude we have 
encountered in the Executive branch has been one of skepticism or 
indifference.
    Apparently, this indifference has left senior U.S. officials 
uninformed on the subject. For example, President Obama told a Miami 
journalist in July 11, ``[M]y sense is that what Mr. Chavez has done 
over the last several years has not had a serious National security 
impact on us.'' U.S. General Douglas Fraser (USAF), regional commander 
of U.S. Southern Command, subsequently supported the appraisal that 
Venezuela does not represent a threat to U.S. National security.\29\ 
``As I look at Iran and their connection with Venezuela,'' said Fraser, 
``I see that still primarily as a diplomatic and economic 
relationship.'' Mr. Chairman, I believe the foregoing discussion of the 
facts on the ground will lead most reasonable observers to a very 
different conclusion.
---------------------------------------------------------------------------
    \29\ ``Top U.S. General: Venezuela not a Threat,'' by Frank Bajak, 
The Associated Press, July 31, 2012 http://bigstory.ap.org/article/top-
us-general-venezuela-not-threat.
---------------------------------------------------------------------------
    Important exceptions to Executive branch neglect is the work of the 
Drug Enforcement Administration (DEA) and the Office of Foreign Assets 
Control (OFAC) of the Department of the Treasury to sanction numerous 
Venezuelan officials and entities for their complicity with and support 
for Iran and international terrorism; in addition, U.S. Attorney for 
the Southern District of New York, Preet Bharara, has investigated and 
prosecuted key cases to attack this international conspiracy. 
Inexplicably, according to law enforcement sources, State Department 
officers systematically resist the application of sanctions against 
Venezuelan officials and entities, despite the fact that these suspects 
are playing an increasingly important role in Iran's operational 
capabilities near U.S. territory.
    Mr. Chairman, I am convinced that Congressional attention, such as 
this hearing, is essential to encourage Executive branch agencies to 
act. For example, sanctions against Venezuela's state-owned petroleum 
company for transactions with Iran were the direct result of pressure 
by the House Committee on Foreign Affairs, acting in part on 
information uncovered by AEI's project.
    This summer, the House passed H.R. 3783, ``Countering Iran in the 
Western Hemisphere Act of 2012,'' legislation authored by 
Representative Jeff Duncan (R-SC), to require the Executive branch to 
report to Congress on Iran's activities in a host of areas and to 
provide a strategy for countering this threat. I understand that this 
bill enjoys bipartisan support in the U.S. Senate--where Senator Robert 
Menendez (D-NJ) is a leader on this issue--and the bill may be approved 
with several amendments before Congress recesses.
    I believe that such a thorough, Congressionally-mandated review 
will require the Executive branch to apply additional needed 
intelligence resources to collect on subject matters in Venezuela, 
Mexico, Bolivia, Ecuador, Central America, and beyond. Once National 
security officials study the scope and depth of the problem, I hope for 
a whole-of-Government response to protect our security, our interests, 
and our allies against the threat posed a narco-terrorist network in 
the Americas. Once Congress receives this report, perhaps this 
challenge will be treated as a budgetary priority so that law 
enforcement and intelligence agencies have the resources required to 
respond urgently and effectively.
    Of course, our project at AEI is prepared to cooperate with this 
policy review by providing the subcommittee documents and analysis 
regarding suspicious transactions and installations operated by Iran in 
Venezuela, Mexico, Ecuador, Bolivia, and elsewhere in the region.
                            recommendations
  <bullet> The involvement of Venezuelan officials and state-run 
        entitites in drug trafficking and terrorism must be publicized 
        and punished in the form of federal indictments. Sanctions by 
        the Department of the Treasury's Office of Foreign Assets 
        Control are good interim measures. However, in the case of 
        Venezuelan officials and state-run entities, indictments are 
        much more meaningful. The Department of Justice headquarters 
        should be asked to explain why such prosecutorial actions have 
        failed to meet this extraordinary lawlessness by the Venezuelan 
        narcostate.
  <bullet> Congress should demand U.S. diplomats be more cooperative 
        with law enforcement and intelligence efforts aimed at exposing 
        and punishing criminal behavior and terrorist activities in the 
        region. Specifically, the Department of State must be more 
        cooperative in raising this phenomenon with our neighbors. We 
        also must find a way to talk about this problem with our 
        friends in a way that it is not misunderstood as an accusation 
        against those governments that are trying to confront the 
        problem.
  <bullet> Congress should give U.S. intelligence and security agencies 
        the resources required to expand their capabilities to confront 
        extra-regional threats and cross-border criminality.
  <bullet> U.S. National security agencies, led by the Department of 
        State, should increase the dialogue and cooperation with 
        regional and European military, intelligence, and security 
        agencies on the common threat posed by the Venezuelan-Iranian 
        alliance.
  <bullet> Congress should use its oversight functions to determine if 
        U.S. Northern and Southern Commands, the U.S. Coast Guard, and 
        the Drug Enforcement Administration have adequate programs and 
        funding to support U.S. anti-drug cooperation with Mexico and 
        Central America.
                               conclusion
    As I stated before another panel of this committee 16 months ago, 
the ``Hezbollah/Iranian presence in Latin America constitutes a clear 
threat to the security of the U.S. homeland . . . In addition to 
operational terrorist activity, Hezbollah also is immersed in criminal 
activity throughout the region--from trafficking in weapons, drugs, and 
persons . . . If our Government and responsible partners in Latin 
America fail to act, I believe there will be an attack on U.S. 
personnel, installations, or interests in the Americas . . . '' as a 
result of this dangerous conspiracy.
    The narco-terrorism on our doorstep, backed by Venezuela and Iran, 
demands a response from those whose job it is to keep us safe. Our 
Government must take effective measures--unilaterally and with willing 
partners--to disrupt and dismantle illicit operations and neutralize 
unacceptable threats.

    Mr. McCaul. Thank you, Mr. Ambassador. It is certainly a 
real honor to have such a man of distinction as yourself at 
this hearing.
    Next, the Chairman calls on Mr. Cilluffo for his testimony.

  STATEMENT OF FRANK J. CILLUFFO, DIRECTOR, HOMELAND SECURITY 
       POLICY INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Cilluffo. Thank you, Mr. Chairman, Mr. Keating, Mr. 
Davis, Mr. Long, Mr. Marino, I appreciate the opportunity to 
appear before you today.
    The topic of the hearing and what I consider your excellent 
report, ``A Line In the Sand,'' are unquestionably issues of 
National importance, and they do indeed have significant 
implications for U.S. National security.
    I am often amazed by the way how little attention the 
Americas seems to get, whether good news, bad news, but 
especially the troubling situation in the region seems to get 
inside the Beltway, and to me, I hope this helps ring a bit of 
a bell that we need to focus more of our time and effort on 
some of these challenges.
    I have got an awful lot of territory to cover in a very 
short period of time, 5 minutes. As you probably noted, I just 
came under the wire on the maximum length on my prepared 
remarks; that rule is probably created for me or people like me 
since I have never had an unspoken thought. But I will try to 
be very brief and pick up on a couple of points because 
everybody here brings an awful lot to the table.
    First, my views are highly consistent with the findings and 
recommendations of your report, but I want to elaborate on a 
couple of very brief points. The fact that terrorists 
exploiting our borders, whether by air, land, or sea, has long 
been a profound concern of our National security community. If 
we just look back to the 1999 plot, Ressam's plot, the 
Millennium plot; obviously, after 9/11, you saw how hijackers 
were able to exploit our aviation systems. One of the things 
that is interesting is after these attacks, and by no means 
perfect, but we have put a lot of effort into enhancing our 
aviation security and improving our intelligence, terror travel 
data, and the like. But I think we need to think about borders 
a little differently today.
    Mr. Chairman, you mentioned lack of imagination. When you 
deal with cyberspace, for example, traditional concepts of 
border are irrelevant; they are moot in many cases where 
someone can anonymously cloak and step foot and come to this 
country without ever stepping foot into this country.
    Mr. Keating, you mentioned I think a very important point; 
we have to remember that there been over 50 plots of homegrown 
Jihadi-based terrorism in the United States that didn't 
necessarily--some were foreign fighters, they traveled overseas 
to receive training--but many of whom reside in the United 
States. I might note CRS did an excellent report and some of 
the colleagues are here to discuss that further.
    But the bottom line is drug-trafficking organizations, 
there is an old joke. The old joke was if you want to smuggle 
in a tactical nuclear weapon, just wrap it in a bale of 
marijuana. The reality is, is our ability to seize drugs is not 
as robust as we would like it to be. We are seeing what I 
consider, and conventional wisdom went along the following when 
you are dealing with drug-trafficking organizations and foreign 
terrorist organizations, drug-trafficking organizations would 
not bring about more heat because they are financially 
motivated by working with foreign terrorist organizations, who 
are obviously ideologically motivated. I would argue in most 
cases that is still the reality. But not in all.
    You mentioned the assassination plot on Ambassador al-
Jubeir. The reality is you are seeing a fractioning to one 
extent or another of both drug-trafficking organizations and 
foreign terrorist organizations. It is this divergence that I 
think we need to really keep our eyes on and the convergence.
    You increasingly see foreign terrorist organizations 
turning to criminal activity, kidnapping and ransom, drug 
trafficking, organized crime activity, probably best 
exemplified by al-Qaeda and the Islamic Maghreb, the broader 
Sahel in Africa. I mean, it is a whole swoop from east to west 
where you have a hybrid of criminal enterprises, drug-
trafficking organizations and Jihadi-based foreign terrorist 
organizations. Look at the Haqqani network in the FATA. Right 
here, is that a state? Is it a state within a state? In 
essence, they have usurped authorities of a state. Basically, 
you have got a narco-state. Guinea-Bissau, same thing in the 
Sahel, Mauritania, Mali, these are all countries that are 
falling under the power and sway of criminal enterprises.
    But you are also seeing drug cartels turning to terrorist 
tactics to achieve their objectives. If you see the beheadings, 
if you see the violence, if you see the TTPs, terrorist 
tactics, techniques and procedures, they are increasingly 
learning, increasingly engaging in terrorist activities. This 
is a big concern.
    So you have both of those trends occurring while at the 
same time, you have the potential for convergence and hybrid 
threats. If you just think about the reach that these drug-
trafficking organizations have in the United States, remember 
smuggling is smuggling is smuggling is smuggling whether you 
are smuggling drugs, weapons, people; those same routes can be 
exploited by the same individuals.
    The question is, is: How do we keep the heat? How do we 
keep disrupting? How do we ensure that we don't see that 
marriage--that ugly marriage--that is, in fact, occurring 
between these organizations?
    I am already over my time. I promised I never had an 
unspoken thought, but Lebanese Hezbollah, big issue, we have 
done a lot of work on the government of Iran, and I am happy to 
get into that during Q and A.
    The one other point I would like to make is the Caribbean. 
It is not only the Southwest Border. The Caribbean gateway is a 
big concern. If you look back to the Dudus Coke case, he had 
distribution routes from Miami through New York. He had 
protection inside Jamaica. It was very difficult to be able to 
seize him and arrest him.
    Then you have got Abdullah el-Faisal. Abdullah el-Faisal is 
one of these so-called Jihadi rock stars, a bridge figure. His 
fingerprints can be found on multiple foreign terrorist cases 
aimed at the United States.
    So I just put a little caution there; it is not just the 
Americas, it is also the Caribbean gateway, and we have got to 
think about these issues differently.
    Thank you, sir.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
                           November 16, 2012
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify before 
you today. The subject matter of this hearing and of the subcommittee's 
report titled, ``A Line in the Sand: Confronting Crime, Violence, and 
Terror at the Southwest Border,'' are unquestionably issues of National 
importance. Your sustained focus on these challenges, especially at a 
time when the U.S. and global economies dominate the headlines, is to 
be appreciated. My own written remarks address the hemispheric threat 
and its implications for the U.S. homeland; and include proposed 
recommendations for action to meet the threat, moving forward. I think 
you will find that our respective conceptualizations of the threat and 
the means and methods of combating it, as reflected in your Report (``A 
Line in the Sand'') and in my statement below, are in sync and 
complement one another. Indeed, we are clearly jointly concerned about 
Iran/Hezbollah's presence in the Americas, the relationship of same 
with Mexican drug cartels, the potential for future and more nefarious 
such cooperation and collaboration, and the significant sources of 
threat and already-existing challenges in this country that emanate 
from the U.S.-Mexico border--just to name a few points of agreement and 
intersection. Likewise, a mix of both strategic and tactical steps are 
needed in order to address the threat ecosystem more effectively, 
including an approach that encourages and leverages enhanced 
interagency cooperation.
        defending u.s. borders: evolution of thought and threat
    The exploitation of American borders--by land, sea, and air--has 
long been of profound concern to U.S. authorities and the general 
public alike. Consider the Millennium plot of December 1999 in which 
Ahmed Ressam sought to enter the United States from Canada by car in a 
plot to blow up Los Angeles International Airport. Thanks to the 
vigilance of an astute U.S. border official at the tip of the spear, 
the attack did not materialize. Such a mixture of luck and skill saved 
the day in that case; but what is needed is a system that offers 
defense-in-depth and that keeps the threat as far away as possible from 
the Continental United States in the first place. This is all the more 
challenging an end-state to achieve at a time in history when the 
nature of borders has changed, due in part to technological advances. 
Indeed, to the extent that our borders ever created watertight 
compartments, they are now more porous in character than ever. Consider 
cyberspace, where traditional conceptions of border security simply do 
not translate. In a domain without traditional physical checkpoints, 
our adversaries can cloak themselves in anonymity and seek to do us 
harm, often without tipping off the target or stepping foot into that 
country. Though the United States has begun to direct substantial 
resources toward redressing its vulnerabilities in this area, much 
remains to be done. Correspondingly, we have invested much in aviation 
security and in supporting measures and tools such as travel data and 
intelligence. While an imperfect situation, we have made substantial 
strides over time in terms of shoring up our posture in these areas. 
However, the task at hand must not be underestimated, especially 
because the threat also emanates from within. Over 50 ``homegrown'' 
jihadist plots have been discovered since 9/11.
    In addition to an evolution in the manner in which to think about 
borders, a separate but related phenomenon, not new but intensified, 
has occurred--a convergence of the forces of crime and terror. 
According to conventional thinking and analysis, terrorists (motivated 
by ideology) and criminals (motivated by money/profit) would not 
cooperate and collaborate. Why? Because criminals such as drug 
traffickers seek to do business, and associating with terrorists could 
jeopardize that goal by drawing the full attention of U.S. (and other) 
law enforcement authorities dedicated to counterterrorism. While 
terrorists and criminals may have undertaken their operations 
separately in past and often continue to do so at present, there are 
today significant and concerning counter-examples. Consider the 
thwarted 2011 plot, sponsored by Iran, to assassinate the Saudi Arabian 
Ambassador to the United States, with Mexican drug cartel hit-men 
serving as the hired killers. This case is in fact indicative of a 
broader trend in which terrorists are turning increasingly to crime/
criminals and criminals such as drug cartels are increasingly turning 
to terrorist tactics. Grisly news reports from Mexico in recent months, 
that highlight beheadings and other brutal violence perpetrated by the 
cartels, have offered ample evidence of the latter proposition. As to 
the former, we have seen foreign terrorist organizations (FTOs) turn 
more and more to drug trafficking, kidnapping, and organized crime in 
order to support terrorist activities. This phenomenon is best 
exemplified by al-Qaeda in the Islamic Maghreb (AQIM) and the larger 
Sahel region of Africa, as well as the Haqqani Network (HQN) operating 
in Pakistan's Federally Administered Tribal Areas (FATA). For its part, 
HQN has effectively become a state within a state, usurping the 
traditional prerogatives of government. One of the upshots of the power 
that HQN, AQIM, and other terrorist groups have accumulated (at the 
expense of government authorities) is that the lucrative Golden 
Crescent--the drug routes from Asia/Africa into Europe--is firmly under 
their control.
    For the U.S. homeland, this convergence of the forces of crime and 
terror is particularly concerning because the pipelines and pathways 
used to smuggle drugs into this country can also be used to smuggle in 
people (including terrorists) and weapons. Put another way, smuggling 
is smuggling is smuggling. Terrorists can tap the distribution networks 
and routes that drug trafficking organizations (DTOs) have established. 
The reach of DTOs is expansive and stretches throughout the Continental 
United States. An old joke, which still serves as a stark reminder of 
the dangers that we face today, is that the easiest way to smuggle a 
tactical nuclear weapon into the United States is to wrap it in a bale 
of marijuana. The threat picture grows yet more complex and vivid when 
we contemplate further just which terrorist organizations are now 
heavily involved in the drug trade. Consider Lebanese Hezbollah (Iran's 
chief proxy) which has expanded its illegal narcotics activities from 
its original foothold in the Bekaa Valley to the Tri-Border Area of 
South America, west Africa, and Europe. With this kind of reach, 
Hezbollah is well-poised to do Iran's dirty work (or its own)--
including in the Americas.
    Relationships between and among terrorist groups are also becoming 
more overt and strategic in nature. There exists substantial evidence 
of cooperation and collaboration between and among groups with U.S. and 
Western targets ever more in their sights and aspirations. These 
terrorist groups include al-Qaeda affiliates in Yemen, the Sahel, and 
Somalia, as well as jihadist forces based elsewhere in Africa, 
Pakistan, and beyond. Despite U.S. and allied counterterrorism efforts 
that have yielded a good measure of success, these terror affiliates 
remain committed to carrying forward the mantle of bin Laden, and to 
exploiting both ungoverned and under-governed spaces. The latter tactic 
pre-dated the Arab Spring, but evidenced reinforcement and 
magnification thereafter. The tragic violence in Benghazi, directed 
against U.S. personnel and interests (and those of allies) further 
proves this point. As the Commander of U.S. Africa Command, General 
Carter Ham, stated earlier this week, `` . . . it appears to me very 
likely that some of the terrorists who participated in the attack in 
Benghazi have at least some linkages to AQIM.''\1\
---------------------------------------------------------------------------
    \1\ ``US Commander: Libya attack linked to Qaeda in Maghreb,'' 
Reuters (November 14, 2012) http://www.trust.org/alertnet/news/us-
commander-libya-attack-linked-to-qaeda-in-maghreb.
---------------------------------------------------------------------------
              spotlight: hezbollah, iran, and the americas
    There is thus little cause for complacency as toxic forces converge 
and cooperate in multiple spots across the globe, more than ever 
before. As the former head of operations for the U.S. Drug Enforcement 
Administration (DEA) testified earlier this year, both Iran's Quds 
Force and Hezbollah ``are now heavily involved in the global drug trade 
. . . Their participation in that effort presents them with myriad 
opportunities with which to build their terrorist and criminal capacity 
in the Western Hemisphere and elsewhere.''\2\ Likewise, the Commander 
of U.S. Southern Command, General Douglas M. Fraser, has observed 
convergence--based on convenience--between terrorist and criminal 
organizations in the Tri-Border Area of Argentina, Brazil, and 
Paraguay.\3\ Unfortunately, these developments are matched by a 
disturbing (even if understandable) shortcoming on the U.S. side. For 
the past decade, U.S. Government analysts have focused on al-Qaeda, 
resulting in a lesser reservoir of U.S. intelligence on, and perhaps 
even a blind spot, regarding Hezbollah and their networks and 
activities.\4\
---------------------------------------------------------------------------
    \2\ Joby Warrick, ``In Iran, drug trafficking soars as sanctions 
take bigger bite,'' The Washington Post (November 1, 2012) citing 
Michael Braun http://www.washingtonpost.com/world/national-security/in-
iran-drug-trafficking-soars-as-sanctions-take-bigger-bite/2012/10/31/
12ff0930-1d81-11e2-b647-bb1668e64058_story.html.
    \3\ Statement before the Senate Armed Services Committee (March 6, 
2012) http://www.armed-services.senate.gov/statemnt/2012/03%20March/
Fraser%2003-13-12.pdf.
    \4\ Frank J. Cilluffo, Sharon Cardash, and Michael Downing, ``Is 
America's view of Iran and Hezbollah dangerously out of date?'' 
FoxNews.com (March 20, 2012) http://www.foxnews.com/opinion/2012/03/20/
is-americas-view-iran-and-hezbollah-dangerously-out-date/.
---------------------------------------------------------------------------
    As an astute analyst of these issues, Matthew Levitt, has observed, 
Hezbollah's ``expansion into the South American narcotics industry 
began in the early-1980s but grew significantly in the following 
decades.'' Hezbollah now derives ``major funding'' from these 
activities and ``facilitates drug trafficking for other smuggling 
networks, including those of the Colombian terrorist group FARC.'' 
Former assistant administrator for intelligence in the DEA, Anthony 
Placido, reinforced the point in 2010 testimony noting, ``Drug 
trafficking organizations based in the tri-border area have ties to 
radical Islamic organizations such as Hizbullah.'' And as Levitt writes 
further, ``Over time, Hizbullah leveraged its criminal ties to support 
operational objectives, including trading drugs for intelligence from 
Arab-Israeli (and sometimes Jewish-Israeli) criminals and, . . . moving 
weapons or explosives through drug smuggling networks.'' Cross-
fertilization of forces is also noted in the 2011 State Department 
Country Reports on Terrorism, which underscored that ``ideological 
sympathizers in South America and the Caribbean continued to provide 
financial and ideological support to . . . terrorist groups in the 
Middle East and South Asia.''\5\
---------------------------------------------------------------------------
    \5\ Matthew Levitt, ``Hizbullah narco-terrorism: A growing cross-
border threat'' IHS Defense, Risk and Security Consulting (September 
2012) citing Placido, and State Department http://
www.washingtoninstitute.org/uploads/Levitt20120900_1.pdf.
---------------------------------------------------------------------------
    These developments draw warranted attention to the risk posed by 
hybrid threats, where an adversary acquires from a third party the 
necessary access, resources, or know-how needed to attack or threaten a 
target--all of which could be used strategically against the United 
States. Against this background, the New York City Police Department 
has expanded its decade-plus focus on core al-Qaeda (AQ), affiliates, 
and the homegrown threat (inspired by AQ), to include Iran and 
Hezbollah.\6\ In doing so, NYPD continues its efforts to build a robust 
and independent counterterror posture for the City of New York. In 
turn, the Los Angeles Police Department recently elevated the 
Government of Iran and its proxies, notably Hezbollah, to a Tier I 
threat.\7\
---------------------------------------------------------------------------
    \6\ Testimony of Mitchell D. Silber before the U.S. House of 
Representatives Committee on Homeland Security, Iran, Hezbollah, and 
the Threat to the Homeland (March 21, 2012) http://homeland.house.gov/
sites/homeland.house.gov/files/Testimony-Silber.pdf.
    \7\ Cilluffo, Cardash, and Downing. ``Is America's view of Iran and 
Hezbollah dangerously out of date?''
---------------------------------------------------------------------------
    Clearly, much as we might wish state-sponsored terrorism to have 
fallen off the map, it has not. Indeed, both the Director of the 
National Counterterrorism Center and the Director of National 
Intelligence have underscored concern about Iran and their proxies, 
suggesting respectively in recent testimony that ``Iran remains the 
foremost state sponsor of terrorism'';\8\ and that Iran is ``now more 
willing to conduct an attack in the United States.''\9\ Concern about 
Iran and its proxies, as reflected above, is all the more disturbing 
given Iran's on-going drive to achieve nuclear weapons capability, and 
the recent statement of Lebanese Hezbollah leader Sayyed Hassan 
Nasrallah to the effect that there will be no distinction drawn between 
Israel and the United States in terms of retaliation, should Israel 
attack Iran to halt its progress toward the nuclear goal: ``If Israel 
targets Iran, America bears responsibility.''\10\
---------------------------------------------------------------------------
    \8\ Matthew G. Olsen, ``Understanding the Homeland Threat 
Landscape'' Hearing before the House Committee on Homeland Security 
(July 25, 2012) http://homeland.house.gov/sites/homeland.house.gov/
files/Testimony-Olsen.pdf.
    \9\ James R. Clapper, ``Unclassified Statement for the Record on 
the Worldwide Threat Assessment of the U.S. Intelligence Community for 
the Senate Select Committee on Intelligence'' (January 31, 2012) http:/
/intelligence.senate.gov/120131/clapper.pdf.
    \10\ Reuters, ``Nasrallah: Iran could strike U.S. bases if 
attacked'' The Jerusalem Post (September 3, 2012) http://www.jpost.com/
IranianThreat/News/Article.aspx?id=283706.
---------------------------------------------------------------------------
    Note that Hezbollah's nexus with criminal activity is greater than 
that of any other terrorist group. In the United States, there were 16 
arrests of Hezbollah activists in 2010 based on Joint Terrorism Task 
Force investigations in Philadelphia, New York, and Detroit. And the 
organization has attempted to obtain equipment in the United States 
including Stinger missiles, M-4 rifles and night vision equipment.\11\ 
These links, including with drugs and cartels, generate new 
possibilities for outsourcing, and new networks that can facilitate 
terrorist travel, logistics, recruitment, and operations. After all, 
the distribution routes are the same regardless of what is being moved 
illicitly. Authorities have noted significant terrorist interest in 
tactics, techniques, and procedures used to smuggle people and drugs 
into the United States from Mexico. According to Texas State Homeland 
Security Director, Steve McCraw, Hezbollah operatives were captured 
trying to cross the border in September 2007.\12\ Thus, the old 
assumption that Hezbollah and others would avoid linking up with drug 
traffickers, in order to avoid drawing attention (and potentially heat) 
from law enforcement officials, no longer applies.
---------------------------------------------------------------------------
    \11\ Immigration and Customs Enforcement, Department of Homeland 
Security, ``Indictment charges 4 with conspiracy to support Hezbollah 6 
others charged with related crimes,'' Press Release (November 24, 2009) 
http://www.ice.gov/news/releases/0911/091124philadelphia.htm.
    \12\ ``Terrorists have been arrested on the border, security chief 
says,'' Associated Press (September 13, 2007).
---------------------------------------------------------------------------
    Instead we have seen a troubling hybridization and convergence of 
such forces, pursuant to which ``terrorists look to criminals'' and 
vice versa, while ``criminals emulate businesses.'' Regrettably, as 
noted more than a decade ago, ``The linkage between terrorists and 
narcotics is strong, and getting stronger . . . Suffice it to say 
narcotics provide a substantial source of funding and have deepened the 
connection between terrorists and organized crime. Kidnapping is also 
nothing new to terrorists. They have been taking hostages since day one 
to gain media attention and ransom money. But there is a new twist--
more and more terrorists take hostages for money--not for publicity. 
Kidnapping has become big business. The $64,000 question is how much 
money is going into their coffers to further their terrorist campaigns 
and how many of these organizations are transforming into outright 
criminal enterprises.''\13\ The cross-walk between terror and crime may 
therefore be murky. By way of example, ``Abu Sayyaf is a good example 
of an ideologically-driven group that have transformed into a criminal 
enterprise.''\14\
---------------------------------------------------------------------------
    \13\ Statement of Frank J. Cilluffo before the U.S. House of 
Representatives, Committee on Oversight and Government Reform, 
Subcommittee on National Security, Veterans Affairs, and International 
Relations (April 3, 2001) http://www.gwumc.edu/hspi/policy/
testimony4.3.01_cilluffo.pdf.
    \14\ Statement of Frank J. Cilluffo before the U.S. House of 
Representatives, Committee on the Judiciary, Subcommittee on Crime 
(December 13, 2000) http://www.gwumc.edu/hspi/policy/testimony- 
12.13.00_cilluffo.pdf.
---------------------------------------------------------------------------
    Also noteworthy, particularly with an eye to the future, is the 
growing activity among the Bolivarian axis states of Ecuador, Bolivia, 
Nicaragua, and Venezuela--and between them and external actors, 
including Iran and Russian organized crime.\15\ Such is another 
dangerous variation on the theme of convergence and cooperation between 
state and non-state actors with postures that are hostile to the West 
generally and to the United States in particular. For example, 
Venezuelan President Hugo Chavez and Iranian President Mahmoud 
Ahmadinejad established the IRISL (Islamic Republic of Iran Shipping 
Lines) Group to facilitate and obscure activity between the two 
countries and third-party criminal enterprises--including drug 
trafficking organizations. Although the IRISL Group and its offshoots 
are on the radar of the United States and its allies (having already 
been blacklisted by the Treasury Department), this is a threat that 
bears careful and active watching, in order to remain ahead of the 
curve and on proactive rather than reactive footing.\16\
---------------------------------------------------------------------------
    \15\ Douglas Farah, ``Transnational Organized Crime, Terrorism, and 
Criminalized States in Latin America: An Emerging Tier-One National 
Security Priority'' U.S. Army War College Strategic Studies Institute 
Monograph (August 2012).
    \16\ Douglas Farah, ``Hezbollah in Latin America: Implications for 
U.S. Security'' Testimony before the House Committee on Homeland 
Security (July 2011) http://www.strategycenter.net/research/pubID.249/
pub_detail.asp. Sandra Warmoth, ``Iran's Expanding Footprint in Latin 
America.'' Small Wars Journal (May 2012) http://smallwarsjournal.com/
jrnl/art/irans-expanding-footprint-in-latin-america.
---------------------------------------------------------------------------
    Spillover effects from Mexico are also in evidence in the United 
States, up to and including the northeast and northwest regions of this 
country, where Mexican drug trafficking organizations have established 
a presence. As noted in the subcommittee's Report, ``A Line in the 
Sand,'' Mexican cartels now have an established presence in more than 
1,000 U.S. cities. If not challenged by action on our part, there is no 
logical reason why we should expect that number to decrease. In fact, 
it will grow. Narco-trafficking in Mexico is big business, and the 
Mexican drug cartels have become so powerful that they threaten, if not 
effectively supplant, the state in certain parts of the country. If we 
continue to observe an increase in the strength and position of the 
cartels in Mexico, we should expect to observe an increase in their 
reach into the United States. Alone, the drug threat poses a serious 
threat to the United States. That threat becomes truly grave, however, 
when you consider its potential to move beyond narcotics. Mexico now 
grapples with a triple threat--a mixture of crime, terrorist tactics, 
and insurgency--that is at once adaptive, lethal, and determined.\17\ 
Cartels and other criminals there have adopted the violent tactics, 
techniques, and procedures of terrorists. Meanwhile terrorist groups 
have undertaken a range of illicit activities. This convergence of 
forces with differing motivations (profit, ideology, etc.) has already 
yielded a case in which a ``controversial imam'' was smuggled across 
America's Southwestern Border by smugglers based in Mexico.\18\ And as 
the subcommittee's Report (``A Line in the Sand'') notes, intelligence 
from the 2011 raid on bin Laden's compound found evidence that bin 
Laden wanted to exploit Mexican smuggling routes into the United 
States. The concern among U.S. security and intelligence officials is 
that this type of activity could become more institutionalized, for 
instance if major Mexican drug cartels were to ally and partner with 
terrorists. Recall the plot targeting Ambassador Al-Jubeir.
---------------------------------------------------------------------------
    \17\ Sharon L. Cardash, Frank J. Cilluffo, and Bert B. Tussing, 
Mexico and the Triple Threat (October 20, 2011) http://www.gwumc.edu/
hspi/policy/issuebrief_MexicoTripleThreat.pdf.
    \18\ Richard Marosi, ``Controversial Muslim cleric is arrested 
while sneaking into the U.S.'' Los Angeles Times (January 27, 2011) 
http://articles.latimes.com/2011/jan/27/local/la-me-border-cleric-
20110127.
---------------------------------------------------------------------------
    Mexico, however, is not the only avenue of approach. If you were to 
take a map of the Americas and trace the points of origin, transit 
routes, and destinations of drug trafficking and other illicit 
smuggling operations, you would see a spider-web of conduits--including 
some that pass through U.S. territory. The DEA has noted that Puerto 
Rico is becoming a principal entry point for drug trafficking into the 
United States. From the perspective of the cartels and terrorists, 
Puerto Rico is a perfect target and opportunity. As a U.S. border, the 
island is under-protected, receiving too little resources and 
attention--a fact evidenced by a growing drug-related murder rate (more 
than five times the National average); and the fact that for the second 
time in 3 years, major smuggling rings were recently uncovered at San 
Juan's Luis Munoz Marin International Airport. These rings were 
responsible for shipments to New York, New Jersey, Florida, 
Pennsylvania, Maryland, and Massachusetts; and highlight the fact that 
once drugs, weapons, individuals, or materials make it to the island, 
they are within the United States--just hours from the major population 
centers of the East Coast.\19\
---------------------------------------------------------------------------
    \19\ CNN Wire Staff, ``Drug raid targets baggage handlers, airline 
workers in Puerto Rico'' CNN (June 7, 2012) http://www.cnn.com/2012/06/
06/us/puerto-rico-airport-arrests/index.html.
---------------------------------------------------------------------------
    In addition, we are also witnessing growing hybrid threats in the 
Caribbean. At times, the hybrid threats emanate from a blending of 
criminal activity and community resources. Witness the case of the 
Jamaican drug lord Christopher ``Dudus'' Coke. Coke rose to his 
position after the death of his father, a gang leader with considerable 
influence in the Jamaican Labour Party. In Jamaica, ``Dudus'' Coke 
controlled the Tivoli Gardens neighborhood of Kingston and exercised 
considerable influence within Jamaican populations both on and off the 
island. Eventually Coke leveraged this community of influence to 
establish a global trafficking ring that connected Kingston, Miami, and 
New York. Before being convicted earlier this year in New York, he 
pleaded guilty to charges that included the trafficking of more than 3 
tons of marijuana and 30 pounds of cocaine; Coke effectively ran a 
state within a state--a fact that landed him on the Department of 
Justice's list of most dangerous drug traffickers.\20\
---------------------------------------------------------------------------
    \20\ ``Manhattan U.S. Attorney Charges Jamaican-Based Drug Kingpin 
with Narcotics and Firearms Trafficking Crimes.'' Press Release. U.S. 
Attorney for the Southern District of New York (2009) http://
www.justice.gov/usao/nys/pressreleases/August09/cokechristophermichael- 
idictmentpr.pdf. United States of America v. Christopher Michael Coke. 
Sealed Indictment S15 07 Cr. 971 (RPP) (2009) http://
www.americanthinker.com/Christopher%20Coke- %20Indictment.pdf. Kareem 
Fahim, ``Jamaica Strains to Fill Void Left by Gang Bosses'' The New 
York Times (2010) http://www.nytimes.com/2010/06/01/world/americas/
01jamaica.html?_r=1&ref=christopher_coke. Carlin DeGuerin Miller, 
``Christopher ``Dudus'' Coke Extradited, Pleads Not Guilty in U.S. 
Court'' CBS News (2010) http://www.cbsnews.com/8301-504083_162-
20008897-504083.html. Richard Esposito, Mark Schone, & Luis Martinez. 
``U.S. Report: Jamaican Prime Minister Is `Known Criminal Affiliate' of 
Hunted Drug Lord.'' ABC News (2010) http://abcnews.go.com/Blotter/
jamaica-christopher-dudus-coke-escaped-security-forces-assault/
story?id=10737428. Jason Horowitz, ``Renewed Questions about Firm's 
Involvement in Jamaican Extradition Case'' The Washington Post (2010) 
http://www.washingtonpost.com/wp-dyn/content/article/2010/05/26/
AR2010052604233.html. Ed Pilkington, ``Christopher `Dudus' Coke handed 
23-year U.S. jail term for drug trafficking'' The Guardian (2012) 
http://www.guardian.co.uk/world/2012/jun/08/christopher-dudus-coke-
jail-term.
---------------------------------------------------------------------------
    At other times, the hybrid threat represents a blending of criminal 
activity with terrorist narrative and incitement. For example, Jamaica 
is also home to Abdullah al-Faisal, a prominent jihadist imam who 
preaches violence and calls for the murder of Americans, Jews, and 
Hindus. A jihadi ``rock star'' on YouTube and other internet sites, al-
Faisal inspired Zacarias Moussaoui, Richard Reid (the failed shoe 
bomber), Jermaine Lindsay (one of the 7/7 bombers that struck London), 
and Faisal Shahzad (who sought to detonate a car bomb in Times Square); 
and likely others too.\21\ It is also worth noting the Caribbean ties 
present in the 2007 plot to bomb the jet fuel artery at New York's JFK 
airport. Two of the perpetrators were from Trinidad and Tobago, but 
more importantly, the plotters repeatedly travelled to Trinidad for 
moral and financial support from the extremist Muslim group Jamaat al-
Muslimeen.\22\
---------------------------------------------------------------------------
    \21\ ``Profile: Sheikh Abdullah al-Faisal'' BBC News (2007) http://
news.bbc.co.uk/2/hi/uk_news/6692243.stm. Madeleine Gruen, ``Abdullah 
al-Faisal: Extremist Ideologue with Influence in the West.'' NEFA 
Backgrounder. New York, NY; The NEFA Foundation (2009) http://
www.nefafoundation.org/miscellaneous/FeaturedDocs/
nefa_alfaisal1009.pdf.
    \22\ Cara Buckley and William K. Rashbaum, ``4 Men Accused of Plot 
to Blow Up Kennedy Airport Terminals and Fuel Lines'' The New York 
Times (2007) http://www.nytimes.com/2007/06/03/nyregion/03plot.html. 
Jerome P. Bjelopera, ``American Jihadist Terrorism: Combating a Complex 
Threat.'' Washington, DC; Congressional Research Service (2011) http://
www.fas.org/sgp/crs/terror/R41416.pdf.
---------------------------------------------------------------------------
    This last point brings variants of the threat back to and within 
the United States, where bin Laden's ideology and narrative continues 
to inspire a small but dangerous constituency. As indicated above, well 
over 50 home-grown U.S. jihadi terrorism plots have been discovered 
since 9/11. In addition, as foreign fighters return to their respective 
homelands (U.S. included) battle-hardened and armed with Western 
passports--10 feet tall in the eyes of those who admire their 
exploits--these returned fighters pose a direct threat to Western 
security given their familiarity with potential targets they may select 
to attack. Where foreign fighters are concerned, so-called ``bridge 
figures'' are of special importance, as they ensure that the fighter 
pool is replenished, by helping to inspire, radicalize, and motivate. 
These figures exude charisma, and exhibit cultural and linguistic 
fluency as well as other skills that propel them to positions of 
leadership, guidance, and prominence. This was the role Abdullah al-
Faisal played.\23\ He and others like him, illustrate both the 
actuality and potential for the Caribbean to serve as a threat gateway 
to the United States. A concerted and comprehensive U.S. effort to 
counter our adversaries' narrative is the largest missing dimension of 
our counterterrorism statecraft.
---------------------------------------------------------------------------
    \23\ Frank J. Cilluffo, Jeffrey B. Cozzens, and Magnus Ranstorp, 
Foreign Fighters: Trends, Trajectories & Conflict Zones (October 1, 
2010) http://www.gwumc.edu/hspi/policy/report_foreignfighters501.pdf.
---------------------------------------------------------------------------
                the cyber threat--which knows no borders
    The threat has also taken hold in the cyber domain, where our 
adversaries may be surfing in the wake of ``Anonymous'' and other such 
groups in order to learn from and perhaps also exploit their actions. 
Here, foreign states--China, Russia, North Korea, Iran--are our primary 
concern. What Iran may lack in cyber capability (notwithstanding heavy 
investment in that area) it makes up for in intent. Together with cash, 
Iran and others who wish to do us harm can go far, simply by buying or 
renting the cyber weapons and tools they need or seek. Bear in mind 
that cyber threats manifest in nanoseconds. Protecting critical 
infrastructure and building resilience in relation to it, should 
therefore be at the top of our priority list. Consider, for example, 
``reports that Iranian and Venezuelan diplomats in Mexico were involved 
in planned cyber-attacks against U.S. targets, including nuclear power 
plants.''\24\ The scenario is especially concerning, keeping in in mind 
that Hurricane Sandy and other recent storms have highlighted this 
country's shortcomings in terms of resilience. Mother Nature may be a 
formidable adversary, but just imagine the level of damage and 
destruction that a determined and creative enemy could wreak.
---------------------------------------------------------------------------
    \24\ Shaun Waterman, ``U.S. authorities probing alleged cyberattack 
plot by Venezuela, Iran'' The Washington Times  (December 13, 2011) 
http://www.washingtontimes.com/news/2011/dec/13/us-probing-alleged-
cyberattack-plot-iran-venezuela/?page=all.
---------------------------------------------------------------------------
                recommendations and potential solutions
    To fight back effectively against the complex multi-dimensional 
threat outlined above, a multi-dimensional response that incorporates 
law enforcement, intelligence, diplomatic, and other measures, is 
needed.
  <bullet> Mexico's Triple Threat and U.S. Spillover.--There is more 
        that the United States could do in terms of border security and 
        enforcement, with the aim of tackling spillover effects of 
        Mexico's triple threat of crime, terrorist tactics, and 
        insurgency. Whether it is drugs or weapons being trafficked, 
        the illicit enterprise operates like a business. This presents 
        opportunities for U.S. and counterpart authorities to exploit 
        for the purpose of counter-attack. For example, careful and 
        comprehensive mapping of the movement of weapons and funds by 
        Mexican drug-trafficking organizations operating with the 
        United States would generate additional opportunities to 
        disrupt and seize flows of arms and money. As a prerequisite to 
        capitalizing on these potential opportunities, we would need to 
        develop the intelligence needed to better track, locate, and 
        seize cash and weapons before they reach the border--at which 
        point the task of intercepting them is much harder since 
        efforts to conceal are then at their peak.\25\
---------------------------------------------------------------------------
    \25\ Cardash, Cilluffo, and Tussing, Mexico and the Triple Threat.
---------------------------------------------------------------------------
    In addition to this type of painstaking and patient work that 
        supports operations, we must also do the hard strategic 
        thinking required to further develop a comprehensive--meaning 
        multi-dimensional and multi-instrument--plan to work with 
        Mexico to help create and reinforce the institutional and 
        social foundations and developments needed to achieve strategic 
        success in the long run. On this there is, perhaps, a window of 
        opportunity. On December 1, President-elect Enrique Pena Nieto 
        of Mexico will be sworn in. Although Nieto's campaign promises 
        to lower the level of drug-related violence gave rise to 
        concerns about his willingness to tackle the threat posed by 
        the cartels, his appointment of retired Colombian police chief 
        General Oscar Naranjo as a security advisor suggests that Nieto 
        is committed to a broad strategic fight against the cartels. 
        Naranjo is a veteran of Colombia's drug war and led that 
        country's intelligence efforts against the cartels. President-
        elect Nieto seems intent on bringing the lessons learned from 
        success in Colombia (efforts this country supported) to 
        Mexico.\26\ As we did in Colombia, we must work with our 
        Mexican allies, as well as allies across Central and South 
        America, and the Caribbean, to combat this threat and 
        strengthen regional security writ large.
---------------------------------------------------------------------------
    \26\ Steven Dudley, ``Can Colombian expert reform Mexico's troubled 
police force?'' The Christian Science Monitor (July 13, 2012)  http://
www.csmonitor.com/World/Americas/Latin-America-Monitor/2012/0713/Can-
Colombian-expert-reform-Mexico-s-troubled-police-force.
---------------------------------------------------------------------------
    This undertaking will be especially challenging at a time of 
        domestic and international economic turbulence and restraint. 
        Although policy without resources is rhetoric, we must try to 
        work smarter and better. Strategy and doctrine in Mexico, in 
        the United States, and in the region, must evolve and keep pace 
        with the triple threat that is lethal and determined. Until our 
        thinking ripens across the board, so as to lay the groundwork 
        for a posture that is powerfully suited to the threat climate 
        the United States, Mexico, and our regional allies will 
        continue to play catch-up to the mix of forces at play. The 
        challenge is further magnified because facts on the ground will 
        continue to change and there will no doubt be other important 
        developments that shake up the equation moving forward. Against 
        this background, the best and most effective thing that we can 
        do at this point is increase our awareness through better 
        region-wide intelligence and analysis. We must have a rich 
        picture of what is happening in the Americas and the Caribbean. 
        We must be able to look beyond our own borders.
  <bullet> Iran/Hezbollah.--Disruption should be our goal here, though 
        Iran and its proxies are no doubt expecting as much. Keeping 
        eyes and ears open at home and abroad to glean indications and 
        warnings (I&W) of attack will be fundamental, as will outreach 
        to and partnership with State and local authorities and 
        communities, where the rubber meets the road. Searching for I&W 
        will require fresh thinking that identifies and pursues links 
        and patterns not previously established by U.S. officials. In 
        part, this entails hitting the beat hard, with local police 
        tapping informants and known criminals for leads--bearing in 
        mind the interconnections between Iran/Hezbollah and gangs/
        cartels. As criminal and terrorist networks increasingly 
        support and reinforce one another, the post-9/11 shift of U.S. 
        law enforcement resources away from drugs and thugs toward 
        counterterrorism may be in need of some recalibration, to 
        better serve both counterterrorist and counter-narcotics aims.
    At minimum, red-teaming and the production of additional threat 
        assessments should be pursued, to include modalities of attack 
        (such as cyber, see more below) and potential consequences. The 
        upside of today's grim operating presumptions, including the 
        perception that the United States is fair game as subject of 
        attack, is that the intersection of threat vectors (terrorists, 
        drug traffickers, etc.) provides additional opportunities to 
        U.S. intelligence and law enforcement authorities to exploit 
        for collection and other purposes.\27\
---------------------------------------------------------------------------
    \27\ Statement of Frank J. Cilluffo before the U.S. House of 
Representatives, Committee on Homeland Security, Subcommittee on 
Counterterrorism and Intelligence; and Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies (April 26, 2012) 
http://www.gwumc.edu/hspi/policy/
Iran%20Cyber%20Testimony%204.26.12%20Frank%20Cilluffo.pdf.
---------------------------------------------------------------------------
  <bullet> Counter-Radicalization in a Borderless World.--Addressing 
        specific outbreaks of violent Islamist extremism will not 
        prevent its virulent spread--including to and among Americans 
        (``home-grown'' terrorist cases)--unless the underlying 
        extremist ideology is exposed, unpacked, dissected, and 
        combated. Government agencies currently involved in various 
        aspects of the mission of combating violent Islamist extremism 
        (CVIE) do not represent systemic failures so much as the 
        complete lack of a system at all. Without clear interagency 
        directives instructing how to distribute resources and 
        coordinate aspects of the mission, individual, and broader 
        agency efforts are improvised. As a result, an inconsistent and 
        haphazard approach to dealing with the force underlying today's 
        terrorist threat is all but guaranteed.
    Counter-radicalization is an essential complement to 
        counterterrorism. Elements of a cohesive National strategy 
        could incorporate a range of approaches that have proven 
        effective in other contexts. The power of negative imagery, as 
        in a political campaign, could be harnessed to hurt our 
        adversaries and further chip away at their appeal and 
        credibility in the eyes of their peers, followers, and 
        sympathizers. A sustained and systemic strategic communications 
        effort aimed at exposing the hypocrisy of Islamists' words 
        versus their deeds could knock them off balance, as could 
        embarrassing their leadership by bringing to light their seamy 
        connections to criminal enterprises and drug trafficking 
        organizations. Imagine the groundswell that could be achieved 
        if the tragic attack on Pakistani teenager Malala Yousufzai, 
        and the many others who have been similarly targeted by al-
        Qaeda and the Taliban, were similarly recognized world-wide--
        and the impact of these incidents thus multiplied thousands-
        fold.
    Brokering infighting within and between al-Qaeda, its affiliates, 
        and the broader jihadi orbit in which they reside, will damage 
        violent Islamists' capability to propagate their message and 
        organize operations both at home and abroad. Locally-
        administered programs are especially significant, as many of 
        the solutions reside outside the U.S. Government and will 
        require communities policing themselves. In the last year or 2, 
        the United States has made some headway on these fronts, 
        including through the efforts of the Department of State's 
        Office of Strategic Counterterrorism Communications--but we 
        could do more and we could (and should) hit harder, especially 
        when our adversaries are back on their heels. Indeed, now is 
        the time to double down rather than ease up on the pressure. In 
        short, we must encourage defectors, delegitimize and 
        disaggregate our adversaries' narrative, and above all, 
        remember the victims.\28\
---------------------------------------------------------------------------
    \28\ Statement of Frank J. Cilluffo before the U.S. Senate 
Committee on Homeland Security and Governmental Affairs (July 11, 2012) 
http://www.gwumc.edu/hspi/policy/Testimony%20-%20SHSGAC%20Hearing%20-
%2011%20July%202012.pdf.
---------------------------------------------------------------------------
  <bullet> Securing Cyberspace, the Borderless Domain.--Cyber threats 
        manifest in nanoseconds. Our response measures must be almost 
        as quick. This means developing and implementing an ``active 
        defense'' capability to immediately attribute and counter 
        attacks and future threats in real-time. Despite multiple 
        incidents that could have served as galvanizing events to shore 
        up U.S. resolve to formulate and implement the changes that are 
        needed, and not just within Government, we have yet to take 
        those necessary steps. Officials in the homeland security 
        community should therefore undertake contingency planning that 
        incorporates attacks on U.S. infrastructure. At minimum, ``red-
        teaming'' and additional threat assessments are needed. The 
        latter should include modalities of attack and potential 
        consequences. Working together with DHS Intelligence and 
        Analysis colleagues, the Department's National Protection and 
        Programs Directorate (NPPD) could and should do more in terms 
        of threat and intelligence reporting, especially in relation to 
        critical infrastructure, where DHS is well-positioned to add 
        real and unique value given the Department's relationship with 
        and responsibilities towards the private sector.
    The United States should also develop and clearly articulate a 
        cyber-deterrence strategy. Such a deterrence policy should 
        apply generally, and also in a tailored manner that is actor/
        adversary-specific. A solid general posture could serve as an 
        80 percent solution, neutralizing the majority of threats 
        before they manifest fully. This, in turn, would free up 
        resources (human, capital, technological, etc.) to focus our 
        limited resources and bandwidth on the high-end of the threat 
        spectrum and on those which are most sophisticated and 
        persistent. To operationalize these recommendations, we must 
        draw lines in the sand. Preserving flexibility of U.S. response 
        by maintaining some measure of ambiguity is useful, so long as 
        we make parameters clear by laying down certain markers or 
        selected redlines whose breach will not be tolerated. More 
        investment needs to be made in our offensive capability as 
        well, in order to support the foregoing proposals in terms of 
        practice and at the level of principle (to signal a credible 
        commitment). Cybersecurity by definition is transnational in 
        nature and will require some level of transnational solutions, 
        yet it must not be approached like an arms control treaty 
        (i.e., attribution and verification are still a ways away).\29\
---------------------------------------------------------------------------
    \29\ Statement of Frank J. Cilluffo before the U.S. House of 
Representatives, Committee on Homeland Security (September 20, 2012) 
http://www.gwumc.edu/hspi/policy/testimony9.20.12_Cilluffo.pdf.
---------------------------------------------------------------------------
    It is my privilege to have been afforded the opportunity to tender 
the above thoughts for consideration by Congress and the next 
administration. Thank you to both the subcommittee and its staff for 
your leadership and hard work on the pressing issues before us today 
and covered in your Report, ``A Line in the Sand.'' I would be pleased 
to try to answer any questions that you may have.

    Mr. McCaul. Thank you, sir.
    I just want to agree with you, state for the record we 
actually had a hearing on the Caribbean, calling it the third 
border and the threat from that region. They are not just going 
across land borders. They are going by sea as well.
    With that, the Chairman now recognizes Mr. Farah for his 
testimony.

   STATEMENT OF DOUGLAS FARAH, SENIOR FELLOW, INTERNATIONAL 
                 ASSESSMENT AND STRATEGY CENTER

    Mr. Farah. Thank you, Chairman McCaul, and Ranking Member 
Keating, for the opportunity to participate in this. I have 
spent a lot of time on the ground in Latin America, 
particularly Central America and northern South America, and 
what I am seeing closely tracks with what your excellent report 
came up with.
    I would like to step back a little bit from what Ambassador 
Noriega said to perhaps a little larger lens view. I believe 
what we are seeing today is something that is fundamentally 
reordering the threat to the U.S. homeland, and that is the 
emergence of multiple, criminal state actors in Latin America, 
primarily grouped into the self-identified Bolivarian alliance 
led by Venezuela, now operating in conjunction with 
transnational organized crime groups, extraregional actors, 
such as Iran and terrorist groups. States such as Iran, that 
traditionally have had little interest or influence in Latin 
America, have become important players, as you have noted, led 
by Hugo Chavez and including Rafael Correa of Ecuador, Evo 
Morales of Bolivia, and Daniel Ortega in Nicaragua.
    The intentions of Iran in the region have long been subject 
of debate, but today, it is clear the goal of Iran's presence 
is at least at a minimum two-fold, to develop the capacity and 
capability to wreak havoc in Latin America and possibly the 
U.S. homeland if the Iranian leadership views this as necessary 
to the survival of its nuclear program and to develop and 
expand ways to avoid international sanctions that are 
increasing crippling their economic life.
    With the emergence of criminalized states, we face the 
prospect of transnational organized crime networks facilitating 
weapons of mass destruction for terrorists under the protection 
of one or more states, thus greatly increasing their chances of 
success.
    Chavez and his allies have allowed Iran to open financial 
facilities, front companies and dedicated shipping lines to 
evade sanctions on its nuclear program. At the same time, Iran 
is carrying out multiple mining activities that directly 
benefit its missile and nuclear programs in Latin America while 
moving aggressively to expand intelligence-gathering 
capabilities and military access. Ecuador, Venezuela, Bolivia, 
and Nicaragua have all granted hundreds of Iranian citizens 
passports from their respective countries, freeing these 
individuals to travel in almost untraceable ways as agents of 
the Iranian region.
    While Iran's revolutionary rulers view the 1979 revolution 
in theological terms, as a miracle of divine intervention in 
which the United States as the Great Satan was defeated by the 
Allah, the Bolivarians view it from a secular point of view, as 
a road map to defeat the United States, the evil empire, 
through asymmetrical warfare.
    Iran's revolution serves as a model for how asymmetrical 
leverage, when applied by Allah or humans, can bring the 
equivalent of David defeating Goliath on the world stage. I go 
into some detail on the relationship of this in my full 
testimony in the role that Carlos the Jackal, one of the most 
wanted terrorists in the world until his arrest in 1994, has 
played since his conversion to Islam in prison, where he is 
serving a life sentence, infusing the concept of radical Shi'a 
Islam and Marxist revolutionary dialectic together into 
something that President Hugo Chavez has picked up on and gone 
forward with.
    The emerging military doctrine of the Bolivarian 
revolution, officially adopted in Venezuela and now spreading 
to Bolivia and Ecuador, explicitly embraces the use of weapons 
of mass destruction and nuclear weapons against the United 
States. This is occurring at a time when Hezbollah's presence 
in Latin America is growing and when Chavez announced his 
successful completion of a project to build drones in Venezuela 
with Iranian help.
    Chavez has adopted as his military doctrine the concepts 
and strategies articulated in this book, ``Peripheral Warfare 
and Revolutionary Islam: Origins, Rules, and Ethics of 
Asymmetrical Warfare,'' by the Spanish politician and ideologue 
Jorge Verstrynge. The tract is an explicit endorsement of the 
use of WMD for the destruction of the United States. Chavez 
liked the Verstrynge book so well that he had a special pocket-
sized edition printed and distributed to his Armed Forces as 
part of their official military doctrine. You can see here the 
Venezuelan flag and officer corps in there, and it is pocket-
sized, so they can carry it with them and study.
    The road ahead will require enhanced resources in this time 
of scarcity and a much better understanding of the ground game 
of those who wish us harm. They have the clearly-stated 
intention of carrying out asymmetrical attacks against us. It 
would be foolish to assume that the capacity lags far behind.
    In addition to the vulnerabilities presented by having 
states granting legitimate travel documents to hostile state 
and nonstate actors, the Southwest Border in the Caribbean, as 
noted, remained relatively easy points of entry. The almost 
unlimited pool of violent, well-armed, and increasingly well-
traced members of gangs both in Central America and Mexico, 
which are truly now by bidirectional and binational, present an 
almost unlimited labor supply for those who wish to do us harm 
as well.
    I think one of the things that you mentioned, Mr. Chairman, 
in the opening was the submersibles, which also present now the 
ability to carry 10 tons of cargo, any cargo, any place, all 
the way from Ecuador to northern--past California into northern 
United States, presents an extraordinary challenge because we 
simply cannot find the submersibles.
    Expanded human intelligence and advanced field research by 
experts in the region are, I think, fundamental. Given the 
hundreds of billions of dollars in legitimate commerce and the 
legal flows of millions of people across our border, the task 
of finding and interdicting illicit products, weapons, or 
individuals at the border itself is more daunting than finding 
a needle in a haystack. Intelligence generated before they 
arrive at the border area is vital. This intelligence-driven 
effort must combine law enforcement, the intelligence 
community, and the capacities of the Special Operations Command 
and other DOD entities with the international cooperation 
channeled through the State Department.
    Thank you.
    [The prepared statement of Mr. Farah follows:]
                  Prepared Statement of Douglas Farah
                           November 16, 2012
    Chairman McCaul, Ranking Member Keating, thank you for the 
opportunity to participate in this important hearing on the threats to 
our Nation's borders. It is a matter of utmost importance to the 
security of the United States, and something that has long been the 
subject of my on-going field research in Central and South America. My 
own investigations in recent months have led me to many of the same 
concerns your report raises, particularly relating to the activities of 
Iran and Hezbollah in the region.
    I believe that what we are seeing today is the emergence of 
multiple criminalized state actors in Latin America, primarily grouped 
into the self-identified Bolivarian Alliance led by Venezuela, now 
operating in conjunction with Transnational Organized Crime groups 
(TOCs), extra regional actors such as Iran, and terrorist groups.
    In recent months there has been increased awareness of the flow of 
South American cocaine through Venezuela to West Africa, particularly 
through Mali, Guinea Bissau, and other fragile states--possibly 
benefitting not only the traditional regional TOC structures and their 
Colombian and Mexican allies, but several terrorist entities including 
al-Qaeda in the Islamic Maghreb (AQIM), Hezbollah,\1\ and the 
Revolutionary Armed Forces of Colombia (Fuerzas Armadas Revolucionarias 
de Colombia-FARC).\2\
---------------------------------------------------------------------------
    \1\ For a detailed look at this development see: Antonio L. 
Mazzitelli, ``The New Transatlantic Bonanza: Cocaine on Highway 10,'' 
Western Hemisphere Security Analysis Center, Florida International 
University, March 2011.
    \2\ The FARC is the oldest insurgency in the Western hemisphere, 
launched in 1964 out of Colombia's Liberal Party militias, and enduring 
to the present as a self-described Marxist revolutionary movement. For 
a more detailed look at the history of the FARC see: Douglas Farah, 
``The FARC in Transition: The Fatal Weakening of the Western 
Hemisphere's Oldest Guerrilla Movement,'' NEFA Foundation, July 2, 
2008, accessible at: http://www.nefafoundation.org/miscellaneous/
nefafarc0708.pdf.
---------------------------------------------------------------------------
    As the subcommittee's report notes, the case of Ayman Joumaa, the 
Lebanese national and Hezbollah supporter, provides clear evidence of 
new types of overlap among criminal and terrorist groups which, in 
years past, did not easily mix. Yet, Joumaa was able to work on behalf 
of Latin America TOCs, including Los Zetas, and Hezbollah, dealing in 
both cocaine and weapons. These ``alliances of convenience'' among 
highly-trained groups with complementary skill sets, with the new 
levels of State protection being offered, presents a much more 
dangerous and volatile panorama in the hemisphere, and specifically for 
our borders, than we have traditionally confronted.
    Just as telling, as the committee's report notes, is the 
willingness of at least some senior members of the Iranian government 
to engage the services of a person they thought belonged to Los Zetas, 
Mexican drug trafficking organization in order to kill the Saudi 
ambassador to the United States on U.S. territory; an act of war. This 
is something that should give us pause. It speaks to willingness of the 
Iranian regime to cross U.S. borders, and the sense that it can do so 
with impunity. It also shows their awareness of the abilities of 
Mexican organizations to carry out operations inside the United States, 
and the willingness of some in the Iranian regime to make a significant 
leap to work through a criminal organization with which it has no 
religious or political affinity at all. This shows that many of the 
``lines in the sand'' that we thought existed (the U.S. border; 
terrorist and TOC group divisions) have been largely erased.
    As I recently wrote in a monograph published by the U.S. Army War 
College, which addresses some of the same issues this subcommittee's 
report does:

``This (emerging Latin American) threat includes not only traditional 
TOC activities such as drug trafficking and human trafficking, but 
others, including the potential for WMD-related trafficking. These 
activities are carried out with the participation of regional and 
extra-regional state actors whose leaders are deeply enmeshed in 
criminal activities. These same leaders have a publicly-articulated 
doctrine of asymmetrical warfare against the United States and its 
allies that explicitly endorses as legitimate the use of weapons of 
mass destruction.
``This emerging combination of threats comprises a hybrid of criminal-
terrorist, and state- and non-state franchises, combining multiple 
nations acting in concert, and traditional TOCs and terrorist groups 
acting as proxies for the nation-states that sponsor them. These hybrid 
franchises should now be viewed as a tier-one security threat for the 
United States. Understanding and mitigating the threat requires a 
whole-of-Government approach, including collection, analysis, law 
enforcement, policy, and programming. No longer is the state/non-state 
dichotomy viable in tackling these problems, just as the TOC/terrorism 
divide is increasingly disappearing.
``These franchises operate in, and control, specific geographic 
territories, which allow them to function in a relatively safe 
environment. These pipelines, or recombinant chains of networks, are 
highly adaptive and able to move a multiplicity of illicit products 
(cocaine, weapons, humans, bulk cash) that ultimately cross U.S. 
borders undetected thousands of times each day. The actors along the 
pipeline form and dissolve alliances quickly, occupy both physical and 
cyber space, and use both highly-developed and modern institutions, 
including the global financial system, as well as ancient smuggling 
routes and methods.
``Most of the goods and services that generate this wealth pass through 
geographic regions that are often described as `stateless' or 
`lawless.' However, these regions are far from ungoverned. In fact, 
they represent a powerful component of the threat from TOCs and other 
non-state actors which control them, either at the expense of weak host 
states and their neighbors, or in alliance with stronger ones which 
host them, tolerate them, or use them as instruments of 
statecraft.''\3\
---------------------------------------------------------------------------
    \3\ Douglas Farah, ``Transnational Organized Crime, Terrorism and 
Criminalized States in Latin America: An Emerging Tier-One National 
Security Priority,'' Strategic Studies Institute, U.S. Army War 
College, Carlisle Barracks, PA, pp. 1-2.

    States that traditionally have had little interest or influence in 
Latin America have emerged as important players over the past decade, 
primarily at the invitation of the self-described Bolivarian states 
seeking to establish ``21st Century Socialism.'' This bloc of nations--
led by Hugo Chavez of Venezuela, includes Rafael Correa of Ecuador, Evo 
Morales of Bolivia, and Daniel Ortega of Nicaragua--seeks to break the 
traditional ties of the region to the United States. To this end, the 
Bolivarian alliance has formed numerous organizations and military 
alliances--including a military academy in Bolivia to erase the 
vestiges of U.S. military training--which explicitly exclude the United 
States.\4\
---------------------------------------------------------------------------
    \4\ These include recently founded Community of Latin American and 
Caribbean States (Comunidad de Estados Latinoamericanos y Caribenos--
CELAC), and the Bolivarian Alliance for the Peoples of Our America 
(Alianza Bolivariana para los Pueblos de Nuestra America--ALBA), as 
well as the ALBA Defense School, inaugurated in 2011 in Warnes, 
Bolivia, to develop a joint military doctrine and training.
---------------------------------------------------------------------------
    Iran, identified by successive U.S. administrations as a state 
sponsor of terrorism, has expanded its regional political alliances, 
diplomatic presence, trade initiatives, and military, intelligence, and 
informational programs via the Bolivarian axis.
    The intentions of Iran in the region have long been a subject of 
debate; but today there is a much clearer indication available, to both 
the intelligence community and investigators on the ground, that the 
goal of Iran's presence in the region is two-fold: To develop the 
capacity and capability to wreak havoc in Latin America--and possibly 
the U.S. homeland--if the Iranian leadership views this as necessary to 
the survival of its nuclear program; and, to develop and expand the 
ability to avoid international sanctions that are increasingly 
crippling the regime's economic life.
    As DNI James Clapper recently stated, ``some Iranian officials--
probably including Supreme Leader Ali Khamenei--have changed their 
calculus and are now more willing to conduct an attack in the United 
States in response to real or perceived U.S. actions that threaten the 
regime. We are also concerned about Iranian plotting against U.S. or 
allied interests overseas.'' \5\
---------------------------------------------------------------------------
    \5\ James R. Clapper, Director of National Intelligence, 
``Unclassified Statement for the Record: Worldwide Threat Assessment of 
the U.S. Intelligence Community for the Senate Select Committee on 
Intelligence, January 31, 2012, p. 6.
---------------------------------------------------------------------------
    A recent Univision documentary La Amenaza Irani (The Iranian 
Threat) showed Iranian diplomats in Mexico, working with their 
Venezuelan and Cuban counterparts, to try to develop the capacity to 
carry out a sophisticated cyber attack against U.S. military, nuclear, 
and economic targets. The documentary shows military training provided 
by Hezbollah to Venezuelan militias directly under the control of 
Chavez, with weapons and ammunition provided by the Venezuelan 
military. It also identifies by name the leaders of Hezbollah in 
Venezuela.\6\
---------------------------------------------------------------------------
    \6\ Univision, La Amenaza Irani, aired December 8, 2011.
---------------------------------------------------------------------------
    This press for expanded ties comes despite the almost complete lack 
of cultural or religious ties to the region, linguistic affinity, or 
traditional economic logic and rationale in the relationships.
    While it is true that TOC penetration of the state threatens the 
rule of law, as the administration's TOC strategy released in July 2011 
notes,\7\ it also poses significant new threats to the homeland. 
Criminalized states frequently use TOCs as a form of statecraft, 
bringing new elements to the ``dangerous spaces'' where non-state 
actors intersect with regions of weak sovereignty and alternative 
governance systems.\8\ This fundamentally alters the structure of 
global order.
---------------------------------------------------------------------------
    \7\ National Security Council, ``Strategy to Combat Transnational 
Organized Crime: Addressing Converging Threats to National Security,'' 
Office of the President, July 2011. The Strategy grew out of a National 
Intelligence Estimate initiated by the Bush administration and 
completed in Dec. 2008, and is a comprehensive Government review of 
transnational organized crime, the first since 1995.
    \8\ The phrase ``dangerous spaces'' was used by Phil Williams to 
describe 21st Century security challenges in terms of spaces and gaps, 
including geographical, functional, social, economic, legal, and 
regulatory holes. See: Phil Williams, ``Here be Dragons: Dangerous 
Spaces and International Security,'' Ungoverned Spaces: Alternatives to 
State Authority in an Era of Softened Sovereignty, Anne L. Clunan and 
Harold A. Trinkunas editors, Stanford University Press, 2010, pp. 34-
37.
---------------------------------------------------------------------------
    The possibility of TOC networks facilitating the transfer of 
weapons of mass destruction for terrorists, as described in the NSC 
strategy document, is very troubling, but assumes that the TOC groups 
and terrorists are in confrontation with states and their multiple law 
enforcement and intelligence tools. With the emergence of criminalized 
states, we face the prospect of TOC networks facilitating such 
transfers under the explicit or implicit protection of one or more 
states, thus greatly increasing the chances of success. Parts of this 
pipeline are already being developed in Latin America.
    As the state relationships consolidate, the recombinant criminal-
terrorist pipelines become more rooted, and more dangerous. Rather than 
being pursued by state law enforcement and intelligence services in an 
effort to impede their activities, TOC groups (and perhaps terrorist 
groups) are able to operate in a more stable and secure environment, 
something that most businesses, both licit and illicit, crave.
    Rather than operating on the margins of the state, or seeking to 
co-opt small pieces of the state machinery, the TOC groups in this 
construct operate in concert with the state on multiple levels. Within 
that stable environment a host of new options open up. These range from 
the sale of weapons, to the use of national aircraft and shipping 
registries, easy use of banking structures, the use of national 
airlines and shipping lines to move large quantities of unregistered 
goods, the acquisition of diplomatic passports and other identification 
forms; and, access to sensitive law enforcement, military, and 
intelligence information and capabilities, to include those shared with 
the United States, Interpol and, other international entities.
    We are already seeing multiple other types of transfers that 
greatly benefit terrorist organizations and their state sponsors.
    Each leader in the Bolivarian bloc of nations has publicly and 
privately supported the FARC rebels in Colombia--a prototypical hybrid 
organization that is both a designated terrorist organization and TOC 
group that produces some 90 percent of the cocaine consumed in the 
United States. This support, in the form of money, weapons, sanctuary, 
and joint business enterprises helps FARC-produced cocaine flow to the 
outside world, and helps the FARC to survive the military battering it 
has undergone at the hands of the Colombian military and police.\9\
---------------------------------------------------------------------------
    \9\ For a look at the weapons transfers see: ``Los `rockets' 
Venezolanos,'' Semana (Colombia), July 28, 2009. For a look at 
documented financial and logistical support of Chavez and Correa for 
the FARC see: ``The FARC Files: Venezuela, Ecuador, and the Secret 
Archives of `Raul Reyes,' '' An IISS Strategic Dossier, International 
Institute for Strategic Studies, May 2011. To see FARC connections to 
Evo Morales see: Douglas Farah, ``Into the Abyss: Bolivia Under Evo 
Morales and the MAS,'' International Assessment and Strategy Center, 
2009: http://www.strategycenter.net/docLib/
20090618_IASCIntoTheAbyss061709.pdf.
---------------------------------------------------------------------------
    Chavez and his allies have allowed Iran, a state sponsor of terror, 
to open financial facilities, front companies, and dedicated shipping 
lines to evade sanctions on its nuclear program. At the same time, Iran 
is carrying out multiple mining activities that directly benefit its 
missile and nuclear programs in Latin America, without normal 
transparency, and with no public scrutiny, while moving aggressively to 
expand intelligence-gathering capacities and military access.\10\
---------------------------------------------------------------------------
    \10\ Douglas Farah, ``Iran in Latin America: Strategic Security 
Issues,'' International Assessment and Strategy Center, Defense Threat 
Reduction Agency Advanced Systems and Concepts Office, May 2011.
---------------------------------------------------------------------------
    Several hundred Iranian citizens have been given Ecuadoran cedulas 
or national identity cards, which allow them to travel to many places 
in Latin America as Ecuadoran rather than Iranian nationals. Ecuador, 
Venezuela, Bolivia, and Nicaragua have all granted hundreds of Iranian 
citizens passports from their respective countries, freeing those 
individuals to travel in almost untraceable ways. It also gives the 
individuals access to the Colon Free Trade Zone (CFTZ) in Panama, and 
to other relatively unmonitored FTZs in the region, which has greatly 
enhanced Iran's ability to circumvent international sanctions aimed at 
crippling the Iranian nuclear program.
    The most common assumption among those who view the Iran-Bolivarian 
alliance as troublesome (and many still do not see it as a significant 
threat at all), is that points of convergence of the radical and 
reactionary theocratic Iranian government and the self-proclaimed 
socialist and progressive Bolivarian revolution are: (1) An overt and 
often stated hatred for the United States and a shared belief in the 
need and methods to destroy this common enemy; and (2) a shared 
acceptance of authoritarian state structures that tolerate little 
dissent and encroach on all aspects of a citizen's life.\11\
---------------------------------------------------------------------------
    \11\ For a more detailed look at this debate see: Iran in Latin 
America: Threat or Axis of Annoyance?, op cit., in which the author has 
a chapter arguing for the view that Iran is a significant threat: 
http://www.strategycenter.net/research/pubID.204/pub_detail.asp.
---------------------------------------------------------------------------
    These assumptions are true, but do not necessarily recognize the 
broader underpinnings of the relationship. While Iran's revolutionary 
rulers view the 1979 revolution in theological terms as a miracle of 
divine intervention in which the United States, the ``Great Satan,'' 
was defeated, the Bolivarians view it from a secular point of view as a 
roadmap to defeat the United States as the Evil Empire. To both, Iran's 
revolution has strong political connotations, serving as a model for 
how asymmetrical leverage, when applied by Allah or humans, can bring 
the equivalent of David defeating Goliath on the world stage.
    I want to go into some detail on this issue because I believe it is 
fundamental to understanding why this threat we face must be taken 
seriously, and to underscore that this threat has direct bearing on our 
border security.
    Among the first to articulate the possible merging of radical Shite 
Islamic thought with Marxist aspirations of destroying capitalism and 
U.S. hegemony was Illich Sanchez Ramirez, better known as the terrorist 
leader `Carlos the Jackal', a Venezuelan citizen who was, until his 
arrest in 1994, one of the world's most wanted terrorists. He converted 
to Shite Islam in prison.
    In his seminal 2003 book Revolutionary Islam, written from prison 
where he is serving a life sentence for killing two French policemen, 
Sanchez Ramirez praises Osama bin Laden and the 9/11 attacks on the 
United States as a ``lofty feat of arms'' and part of a justified 
``armed struggle'' of Islam against the West. ``From now on terrorism 
is going to be more or less a daily part of the landscape of your 
rotting democracies,'' he writes.\12\
---------------------------------------------------------------------------
    \12\ `` `Jackal' book praises bin Laden,'' BBC News, June 26, 2003.
---------------------------------------------------------------------------
    In this context, the repeated, public praise of Chavez for Sanchez 
Ramirez can be seen as a crucial element of the Bolivarian ideology and 
an acceptance of his underlying premise as important to Chavez's 
ideological framework. Acolytes of Sanchez Ramirez continued to develop 
his ideology of Marxism and radical Islamism rooted in the Iranian 
revolution.
    The emerging military doctrine of the ``Bolivarian Revolution''--
officially adopted in Venezuela and rapidly spreading to Bolivia, 
Nicaragua, and Ecuador--explicitly embraces the radical Islamist model 
of asymmetrical or ``fourth-generation warfare,'' with its heavy 
reliance on suicide bombings and different types of terrorism, 
including the use of nuclear weapons and other WMD. This is occurring 
at a time when Hezbollah's presence in Latin America is growing and 
becoming more identifiable,\13\ and when Chavez has announced the 
successful completion of a project to build drones in Venezuela with 
Iranian help.\14\
---------------------------------------------------------------------------
    \13\ In addition to Operation Titan there have been numerous 
incidents in the past 18 months of operatives being directly linked to 
Hezbollah who have been identified or arrested in Venezuela, Colombia, 
Guatemala, Aruba, and elsewhere in Latin America and the Caribbean.
    \14\ Brian Ellsworth, ``Venezuela Says Building Drones with Iran's 
Help,'' Reuters News Agency, June 14, 2012, accessed at: http://
www.reuters.com/article/2012/06/14/us-venezuela-iran-drone-
idUSBRE85D14N20120614.
---------------------------------------------------------------------------
    Chavez has adopted as his military doctrine the concepts and 
strategies articulated in Peripheral Warfare and Revolutionary Islam: 
Origins, Rules and Ethics of Asymmetrical Warfare (Guerra Periferica y 
el Islam Revolucionario: Origenes, Reglas y Etica de la Guerra 
Asimetrica), by the Spanish politician and ideologue Jorge 
Verstrynge.\15\ The tract is a continuation of and exploration of 
Sanchez Ramirez's thoughts, incorporating an explicit endorsement of 
the use of weapons of mass destruction to destroy the United States. 
Verstrynge argues for the destruction of United States through series 
of asymmetrical attacks, like those of 9/11, in the belief that the 
United States will simply crumble when its vast military strength 
cannot be used to combat its enemies.
---------------------------------------------------------------------------
    \15\ Verstrynge, born in Morocco to Belgian and Spanish parents, 
began his political career on the far right of the Spanish political 
spectrum as a disciple of Manuel Fraga, and served as a national and 
several senior party posts with the Alianza Popular. By his own 
admission he then migrated to the Socialist Party, but never rose 
through the ranks. He is widely associated with radical anti-
globalization views and anti-U.S. rhetoric, repeatedly stating that the 
United States is creating a new global empire and must be defeated. 
Although he has no military training or experience, he has written 
extensively on asymmetrical warfare.
---------------------------------------------------------------------------
    Although he is not a Muslim, and the book was not written directly 
in relation to the Venezuelan experience, Verstrynge moves beyond 
Sanchez Ramirez to embrace all strands of radical Islam for helping to 
expand the parameters of what irregular warfare should encompass, 
including the use of biological and nuclear weapons, along with the 
correlated civilian casualties among the enemy.
    Central to Verstrynge's idealized view of terrorists is the belief 
in the sacredness of the willingness of the fighters to sacrifice their 
lives in pursuit of their goals. Before writing extensively on how to 
make chemical weapons and listing helpful places to find information on 
the manufacture of rudimentary nuclear bombs that ``someone with a high 
school education could make,'' Verstrynge writes:

``We already know it is incorrect to limit asymmetrical warfare to 
guerrilla warfare, although it is important. However, it is not a 
mistake to also use things that are classified as terrorism and use 
them in asymmetrical warfare. And we have super terrorism, divided into 
chemical terrorism, bioterrorism (which uses biological and 
bacteriological methods), and nuclear terrorism, which means `the type 
of terrorism uses the threat of nuclear attack to achieve its goals.' 
''\16\
---------------------------------------------------------------------------
    \16\ Verstrynge, op cit., pp. 56-57. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    In a December 12, 2008 interview with Venezuelan state television, 
Verstrynge lauded Osama bin Laden and al-Qaeda for creating a new type 
of warfare that is ``de-territorialized, de-stateized, and de-
nationalized,'' a war where suicide bombers act as ``atomic bombs for 
the poor.''\17\ In his interview with Univision, Verstrynge said his 
model was specifically drawn from Hezbollah's experience.
---------------------------------------------------------------------------
    \17\ Bartolome, op cit. See also: John Sweeny, ``Jorge Verstrynge: 
The Guru of Bolivarian Asymmetric Warfare,'' www.vcrisis.com, Sept. 9, 
2005; and ``Troops Get Provocative Book,'' Miami Herald, Nov. 11, 2005.
---------------------------------------------------------------------------
    Chavez liked the Verstrynge book so well that he had a special 
pocket-sized edition printed and distributed to the armed forces 
officer corps with express orders that it be read cover to cover. It 
has since been adopted as official Venezuelan military doctrine. Even 
more worrisome, copies of the book have been found over the past year, 
for the first time, in FARC camps in Colombia, indicating the doctrine 
is being passed on to Venezuela's non-state proxy.
    To further ingrain this teaching, and explicitly to eradicate any 
vestiges of U.S. military doctrine in the region, Chavez and other 
Bolivarian leaders, in conjunction with Iran, have recently opened a 
new military academy to teach Bolivarian military doctrine, operating 
in Santa Cruz, Bolivia. The ALBA Defense School is going to teach the 
``beautiful projects and experiences that unite our military,'' said 
Nicolas Maduro, Venezuela's foreign minister. This includes, he said, 
the doctrines of Jose Marti, the hero of Cuban independence; Simon 
Bolivar, the hero of South American independence; Eloy Alfaro, an 
Ecuadoran revolutionary; and, Augusto Casar Sandino, a Nicaraguan 
revolutionary.\18\
---------------------------------------------------------------------------
    \18\ Juan Pauliler, ``Que busca la academia military del ALBA?'' 
BBC Spanish Service, June 15, 2011.
---------------------------------------------------------------------------
    Bolivian President Morales, speaking at the inauguration of the 
facility, said the School would prepare the peoples of the region to 
defend against ``imperialist threats, which seek to divide us.'' He 
said that the ``Peoples of the ALBA are being besieged, sanctioned, and 
punished by the imperial arrogance just because we are exerting the 
right of being decent and sovereign.'' He added that, ``We must not 
allow that the history of colonization repeats and that our resources 
are the loot of the empire.'' 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Iran's interest in the project, which it supports financially, was 
made clear when Iranian defense minister Ahmad Vahidi arrived in 
Bolivia for the school's inauguration, despite having an Interpol Red 
Notice issued for his arrest as a result of his alleged participation 
in the 1994 AMIA bombing in Buenos Aires. His public appearance at a 
military ceremony the day before the school's inauguration set off an 
international scandal and sharp protests from Argentina, which had 
asked Interpol to emit the Red Notice. Vahidi quietly slipped out of 
Bolivia.\19\
---------------------------------------------------------------------------
    \19\ Robin Yapp, ``Iran defense minister forced to leave Bolivia 
over 1994 Argentina bombing,'' The Telegraph (London), June 1, 2011.
---------------------------------------------------------------------------
    This is not an encouraging panorama and it has many direct 
implications for U.S. National security. Where, in the not distant 
past, drug traffickers, coyotes, and bulk-cash smugglers routinely 
crossed our Southwest Border, today a much larger group of illicit 
actors are opening up multiple new ways to cross our border undetected.
    The traditional human smuggling routes continue to function 
efficiently under the control of Los Zetas, the Mara Salvatrucha (MS-
13) gang, and other increasingly violent actors whose primary, if not 
sole, motivation is economic. The budding alliances among Mexican gangs 
such as the Barrio Azteca and the Central American gangs such as the 
MS-13 along with the expanding reach of Los Zetas in the human 
smuggling business all auger ill for border security. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The traditional border vulnerabilities remain while new ones 
continue to arise. The willingness of multiple criminalized and corrupt 
states in the region to issue legitimate passports (including 
diplomatic passports) to officials and agents of a state sponsor of 
terrorism such as Iran makes securing the U.S. border ever more 
complex. As the relationships among traditional TOC's and terrorist 
groups mature in places like Venezuela, Ecuador, and Bolivia, and 
relationships are built and knowledge exchanged, it will become a 
significantly more complex challenge to detect and deter those seeking 
to cross our borders to do us harm.
    The road ahead will require enhanced resources in a time of 
scarcity, and a much better understanding of the ``ground game'' of 
those who wish to hurt us. They have a clearly stated intention to 
carry out asymmetrical attacks against us; it would be foolish to 
assume the capacity lags far behind.
    The demonstrated willingness of the Iranian government to reach out 
to Mexican TOCs in order to perpetrate attacks inside the United States 
shows just how blurry many of the TOC-Terrorist lines have become, and 
they are likely to get blurrier. The implications of this new paradigm 
are often still not clearly understood by policy makers and often are 
dismissed by some who do not understand the pace at which the world is 
changing. Hearings like this one are a necessary first step in 
advancing a debate that is very late in getting started.
    In addition to the vulnerabilities presented by having states 
granting legitimate travel documents to state and non-state actors who 
are plotting attacks against the United States, the Southwest Border 
remains a relatively easy point of entry. The almost unlimited pool of 
violent, well-armed, and increasingly well-trained gang members who 
operate daily from our border, south to the Northern Triangle of 
Central America (Honduras, El Salvador, Guatemala), is truly bi-
directional and bi-national. Not only do members cross the border 
regularly, as the report notes, but they also maintain structures in 
hundreds of U.S. cities (as well as in Canada), giving them broad reach 
to carry out harmful activities on behalf of whomever will meet their 
price.
    Expanded human intelligence and advanced field-based research by 
experts in the region's cultural and political history are necessary to 
further understand the challenges, predict their evolution, and suggest 
countermeasures. Many of the TOCs and terrorist groups use low-tech 
methods to plan, communicate, and move their resources. Given the 
hundreds of billions of dollars in legitimate commerce, and the legal 
flow of millions of people across the border, the task of finding and 
interdicting illicit products, weapons, or individuals at the border 
itself is more daunting than finding a needle in the haystack. 
Intelligence generated before they arrive at the border area is vital 
to successful interdiction (and to minimizing the disruption and 
negative economic consequences on legitimate movements). Such 
intelligence will not always be electronic, nor will it likely derive 
from a single agency, source, or data stream. Timely warning and 
interdiction will increasingly require a more whole-of-Government 
coordinated approach, as opposed to a lane or command-centric one.
    This intelligence-driven effort must combine law enforcement, the 
intelligence community, capacities of the Department of Defense, and 
international cooperation through the Department of State. The Drug 
Enforcement Administration (DEA), which has been a leader in this 
field, was able to detect the attempted attack on the Saudi ambassador 
before it happened through an informant on the ground. Other parts of 
the law enforcement and intelligence communities were then able to 
broaden out the information and take action. Iran's broader actions in 
the hemisphere can only be curtailed by working with partner nations 
such as Colombia, Brazil, Peru, and Mexico to scale back Iran's illicit 
activities, limit their sanctions-busting efforts, and create an 
environment in which they do not have unfettered access.
    Thank you.

    Mr. McCaul. Thank you, Mr. Farah.
    The Chairman now recognizes Dr. Rosenblum for his 
testimony.

     STATEMENT OF MARC R. ROSENBLUM, PH.D., SPECIALIST IN 
       IMMIGRATION POLICY, CONGRESSIONAL RESEARCH SERVICE

    Mr. Rosenblum. Thank you, Mr. Chairman, Ranking Member 
Keating, Members of the subcommittee. It is an honor to be here 
today to testify on behalf of the Congressional Research 
Service.
    I also have a full statement that I would like to submit 
for the record, and it includes a couple of figures that I hope 
you have in front of you because I will refer to them in my 
spoken remarks.
    My statement draws on a new report that I am co-authoring 
with my colleagues, Jerome Bjelopera and Kristin Finklea.
    I want to also thank them for their help.
    My statement will discuss key threats to U.S. borders, 
including terrorists, transnational criminals, and unauthorized 
migrants. I will describe a model to evaluate threats, and I 
will discuss some policy options Congress may consider.
    While certain border threats are overlapping, Congress and 
DHS face trade-offs in how they allocate enforcement resources. 
How members understand and evaluate border risks may shape 
their policy preferences for enforcement at versus away from 
the border, between versus at ports of entry, at the Southwest 
versus other borders and related questions.
    With respect to border threats, unauthorized migration 
mainly from Mexico and illegal drug flows, mainly from Latin 
America, emerged as major policy concerns in the late 1960s. 
The 1993 World Trade Center bombing made counterterrorism a 
third focus, and it became the top concern after 9/11. The 2002 
Homeland Security Act charged DHS with preventing the entry of 
terrorists, enforcing immigration laws, preventing illegal drug 
flows and criminal activity and securing U.S. borders, among 
other responsibilities.
    As Figure No. 1 in my statement illustrates, these elements 
in DHS's mission are distinct but partially overlapping. At the 
core of the diagram, all three circles overlap, describing 
convergent threats, such as drug traffickers, unauthorized 
migrants, and terrorists who use the same smuggling routes or 
techniques. Yet the peripheral areas of the figure are 
important because particular policy responses may be more 
appropriate to combat unique threats.
    For example, most unauthorized migrants do not fall into 
the other categories. None of the 9/11 hijackers or known post-
9/11 interests entered the United States illegally. While most 
migrants enter between ports of entry or by overstaying non-
immigrant visas, illicit drugs are often smuggled into the 
United States hidden within cargo containers or in private 
vehicles. As a result, enforcement tools targeting illegal 
migration likely do not reduce drug smuggling and vice versa.
    Another set of enforcement measures may be ideally designed 
to combat terrorism. Analysts rely on risk models to evaluate 
different threats. A basic model describes risk as the function 
of the likelihood of an event and its potential consequences.
    Figure No. 2 in my statement illustrates unlikely events 
that would have modest consequences are especially low-risk 
threats. A likely event with severe consequences is a high-risk 
threat. The model doesn't provide unambiguous risk assessments, 
however, because our estimates of likelihood are highly 
uncertain and because consequences are complex, uncertain, and 
often subjective.
    In addition, because all of these threat actors are 
strategic and may adapt their behavior in response to 
enforcement, any particular risk assessment only represents a 
snapshot at a point in time.
    Despite these challenges, many would agree that the threat 
of terrorists bringing a weapon of mass destruction into the 
United States is a relatively low likelihood risk but could 
have catastrophic consequences. Conversely, many would describe 
unauthorized migration as a higher probability but lower 
consequence threat.
    Immediately after 9/11, the convergence of immigration 
control, the war on drugs and the urgency attached to the war 
on terror meant that DHS could take an all-of-the-above 
approach to border security. But questions about how to 
allocate scarce resources are more pressing in the current 
fiscal climate. Members of Congress may ask whether policies 
should aim to prevent unauthorized migration in general or 
whether policies should target terrorists and criminal 
organizations?
    Certain border security policies appear designed with the 
more generalized set of goals in mind. Indeed, the Secure Fence 
Act defines zero illegal inflows as part of DHS's statutory 
mission. Some analysts doubt that goal can ever be achieved.
    Where can DHS reap the greatest return on enforcement 
investments? Lawmakers concerned about illicit drugs may favor 
increased spending for more CDP officers, scanners, and drug-
sniffing dogs at ports of entry and for efforts to disrupt 
money laundering and to detect and prevent southbound flows of 
money and guns. For counterterrorism, priorities might include 
intelligence collection, as everybody here as discussed, and 
investments in DHS information systems, such CDP's automated 
targeting system and US-VISIT. Some Members may emphasize 
resiliency to an attack. Counterterrorism and counternarcotics 
work may involve partnerships with allies abroad.
    With respect to migration, some have argued for years that 
the greatest deficiency in America's immigration control system 
involves employment verification and work-site enforcement 
rather than border security. With net unauthorized migration 
flows now around zero, two key questions are how recent 
enforcement policies have contributed to this recent trend and 
how unauthorized flows will respond as the U.S. economy 
recovers.
    These are the types of policy choices that may be informed 
by an assessment of border threats.
    I thank the subcommittee again for this opportunity and 
look forward to your questions.
    [The statement of Mr. Rosenblum follows:]
                Prepared Statement of Marc R. Rosenblum
                           November 16, 2012
    Chairman McCaul, Ranking Member Keating, Members of the committee: 
Thank you for the opportunity to testify today on behalf of the 
Congressional Research Service. My statement draws on a new report that 
I am co-authoring with my CRS colleagues Jerome Bjelopera and Kristin 
Finklea; and I want to thank them and acknowledge their role, along 
with several other colleagues at CRS, in preparing this statement.
    Pursuant to the committee's request, my statement today will 
consist of three parts. First, I will discuss key threats to U.S. 
borders. Second, I will describe selected threat scenarios. Third, I 
will discuss some policy options Members of Congress may consider with 
respect to border security in the next 4 years and beyond.
             the complexity of the border security mission
    America's National security concerns at the border long predate the 
post-9/11 focus on ``homeland security,'' though the nature of border 
threats has changed over time. The first Federal immigration laws, 
passed in 1798, authorized the President to arrest or deport any alien 
deemed dangerous to the United States, and any adult male alien from a 
country at war with the United States.\1\ Over the course of the 20th 
Century, laws expanded to exclude anarchists (in 1903), aliens 
considered a threat to public safety during times of war (1918), 
communists (1950), and terrorists (1990).\2\
---------------------------------------------------------------------------
    \1\ The Aliens Act of June 25, 1798 (1 Statutes-at-Large 570), and 
the Alien Enemy Act of July 6, 1798 (1 Statutes-at-Large 577), 
respectively. Three laws passed prior to June 1798 concerned Federal 
naturalization provisions.
    \2\ Respectively, the Immigration Act of March 3, 1903 (32 
Statutes-at-Large 1213); the Act of May 22, 1918 (40 Statutes-at-Large 
559); the Internal Security Act of 1950 (64 Statutes-at-Large 987); 
Immigration Act of 1990 (Pub. L. 101-649).
---------------------------------------------------------------------------
    The mission and focus of U.S. border enforcement has also changed 
over time. The Border Patrol was established in 1924 and focused 
initially on preventing the entry of Chinese migrants and on preventing 
alcohol inflows during prohibition, with the majority of agents 
stationed on the Northern Border.\3\ Unauthorized migration, mainly 
from Mexico, emerged as a major policy concern beginning in the late 
1960s.\4\ The year 1970 also marked the beginning of America's ``war on 
drugs.''\5\ Border Patrol staffing climbed eleven-fold between 1975 and 
2011,\6\ and the Drug Enforcement Administration's (DEA) budget 
expanded about five-fold (in constant dollars) during the same 
period.\7\ Despite these increases, however, the estimated unauthorized 
population in the United States grew from about 1.7 million in 1979 to 
about 12.1 million in 2007, before declining to about 11.5 million in 
2011.\8\ About 22.5 million individuals were current (past month) 
illegal drug users in 2011, representing a slight per capita increase 
since 2002, but a decline of about one-third since the 1970s.\9\
---------------------------------------------------------------------------
    \3\ See U.S. Customs and Border Protection (CBP), ``Border Patrol 
History,'' http://www.cbp.gov/xp/cgov/border_security/border_patrol/
border_patrol_ohs/history.xml. Also see Tony Payan, The Three U.S.-
Mexico Border Wars: Drugs, Immigration, and Homeland Security 
(Westport, CT: Praeger Security International, 2006).
    \4\ See CRS Report R42560, Mexican Migration to the United States: 
Policy and Trends, coordinated by Marc R. Rosenblum.
    \5\ See CRS Report R41535, Reauthorizing the Office of National 
Drug Control Policy: Issues for Consideration, by Lisa N. Sacco and 
Kristin M. Finklea.
    \6\ Calculations from data available at CRS Report R42138, Border 
Security: Immigration Control Between Ports of Entry, by Marc R. 
Rosenblum; and Syracuse University Transactional Records Access 
Clearinghouse, ``National Trends in Apprehensions and Staffing,'' 
http://trac.syr.edu/immigration/reports/141/include/rep141table2.html.
    \7\ Calculations from data available at Department of Justice, 
``Drug Enforcement Administration,'' http://www.justice.gov/archive/
jmd/1975_2002/2002/html/page100-103.htm; and CRS Report R42440, 
Commerce, Justice, Science, and Related Agencies: FY2013 
Appropriations, by Nathan James, Jennifer D. Williams, and John F. 
Sargent, Jr., Coordinators.
    \8\ See CRS Report R42560, Mexican Migration to the United States: 
Policy and Trends; CRS Report RL33874, Unauthorized Aliens Residing in 
the United States: Estimates Since 1986, by Ruth Ellen Wasem.
    \9\ Substance Abuse and Mental Health Services Administration, 
Results from the 2011 National Survey on Drug Use and Health: Summary 
of National Findings, September 2012, http://www.samhsa.gov/data/NSDUH/
2k11Results/NSDUHresults2011.pdf; The White House, Office of National 
Drug Control Policy, ``Remarks by Director Kerlikowske before the 
Inter-American Drug Abuse Control Commission,'' http://
www.whitehouse.gov/ondcp/news-releases-remarks/remarks-by-director-
kerlikowske-before-the-inter-american-drug-abuse-control-commission.
---------------------------------------------------------------------------
    With the first World Trade Center bombing in 1993, the Oklahoma 
City bombing in 1995, and the interception of the millennium bomber in 
1999, counterterrorism became a third important focus of U.S. border 
security during the 1990s--and the top concern after September 11, 
2001. Thus, the Homeland Security Act of 2002 created the Department of 
Homeland Security and charged the new agency with, among other 
responsibilities, preventing the entry of terrorists and terrorist 
weapons, securing U.S. borders, immigration enforcement, and customs 
enforcement (including preventing illegal drug flows).\10\
---------------------------------------------------------------------------
    \10\ Pub. L. 107-296,  402.
---------------------------------------------------------------------------
    As Figure 1 illustrates, these elements in DHS' border security 
mission are distinct but partially overlapping. The ``criminal 
networks'' circle in Figure 1 includes characteristics that are unique 
to that threat, including trafficking organizations that specialize in 
drug smuggling. The circle intersects with ``unauthorized migrants'' 
where these threats relate, as in the case of drug trafficking 
organizations (DTO) that expand into migrant smuggling. At the core of 
the diagram all three circles overlap, describing convergent threats--
DTOs, unauthorized migrants, and terrorists who use the same smuggling 
routes or techniques, for example. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While one may be drawn to the core of Figure 1, the peripheral 
areas of each circle are also important because threats encompass 
distinct features, and certain policy responses may be more appropriate 
to combat particular threats. For example, while there is some degree 
of overlap among unauthorized migrants, drug smugglers, and potential 
terrorists, the great majority of unauthorized migrants do not fall 
into the other categories. None of the 9/11 hijackers or known post-9/
11 terrorist threats (e.g., Richard Reid, the ``shoe bomber''; Umar 
Farouk Abdulmutallab, the ``underwear bomber''; and Faisal Shahzad, the 
``Times Square bomber'') entered the United States illegally. And while 
most unauthorized migrants enter the country between ports of entry or 
by overstaying nonimmigrant visas,\11\ many illicit drugs are smuggled 
into the United States hidden within cargo containers, private 
vehicles, or in other non-commercial vehicles.\12\ As a result, the 
enforcement tools targeting unauthorized migration--personnel and 
infrastructure between ports of entry, worksite enforcement, Secure 
Communities--likely do little to reduce narcotics smuggling, and vice 
versa. Another set of enforcement measures may be ideally designed to 
combat terrorism, and yet another to prevent other border threats, such 
as fraudulent goods.
---------------------------------------------------------------------------
    \11\ CRS Report RL33874, Unauthorized Aliens Residing in the United 
States: Estimates Since 1986, by Ruth Ellen Wasem.
    \12\ U.S. Department of Justice, National Drug Intelligence Center, 
National Drug Threat Assessment 2011, pp. 13-16, www.justice.gov/
archive/ndic/pubs44/44849/44849p.pdf.
---------------------------------------------------------------------------
                    types of threats at u.s. borders
    Border threats may be divided into actors and goods.
Threat Actors
    Any person who intends to harm the United States, or whose presence 
may lead to harmful consequences, may be a threat and a potential 
target for border enforcement policies. Three general types of threat 
actors are terrorists, transnational criminals, and unauthorized 
migrants,\13\ although certain actors may fall into more than one 
category.\14\ These actors may be broadly distinguished and categorized 
by their motives and their behavior.
---------------------------------------------------------------------------
    \13\ Some people may object to describing unauthorized migrants as 
``threats to border security.'' Nonetheless, illegal migration flows 
threaten certain U.S. interests, even if people disagree about the 
scope or gravity of the threat. In addition, given that DHS' mission 
includes preventing the entry of terrorists, illegal drugs and 
contraband, and unauthorized migrants, a common framework for 
understanding these inflows may be helpful for making border policy and 
allocating DHS resources.
    \14\ In addition, some people may threaten U.S. interests without 
falling into any of these categories, including for example a legal 
migrant who (knowingly or unknowingly) carries a virus that threatens 
U.S. public health.
---------------------------------------------------------------------------
  <bullet> Terrorists.--A defining feature of terrorists is that they 
        are motivated by particular grievances about aspects of the 
        societies that surround them,\15\ and they articulate their 
        views ``on moral grounds.''\16\ Based on their grievances and 
        ideologies, terrorists generally have goals other than personal 
        monetary gain.\17\ Terrorists often seek to instill fear among 
        a targeted population to ``destroy the collective confidence 
        individuals invest in social institutions and . . . national 
        leadership.''\18\ Terrorists use violent tactics to direct 
        public attention toward their grievances, gain recruits, or 
        coerce people.\19\ Terrorists also promote their causes by 
        fashioning propaganda.
---------------------------------------------------------------------------
    \15\ Anthony F. Lemieux and Victor H. Asal, ``Grievance, Social 
Dominance Orientation, and Authoritarianism in the Choice and 
Justification of Terror Versus Protest,'' Dynamics of Asymmetric 
Conflict, vol. 3, no. 3, (November 2010), p. 196. See also: Ryan Hunter 
and Danielle Heinke, ``Radicalization of Islamist Terrorists in the 
Western World,'' FBI Law Enforcement Bulletin, (September 2011), pp. 
27-29, http://www.fbi.gov/stats-services/publications/law-enforcement-
bulletin/september-2011.
    \16\ Louise Richardson, What Terrorists Want: Understanding the 
Enemy, Containing the Threat (New York: Random House, 2007), p. 16. 
Also see Marc Sageman, Leaderless Jihad: Terror Networks in the Twenty-
First Century (Philadelphia: University of Pennsylvania Press, 2008), 
pp. 72-75.
    \17\ Richardson, What Terrorists Want, p. 13.
    \18\ Thomas F. Ditzler, ``Malevolent Minds: The Teleology of 
Terrorism,'' in Understanding Terrorism: Psychosocial Roots, 
Consequences, and Interventions, ed. Fathali M. Moghaddam and Anthony 
J. Marsella (Washington, DC: American Psychological Association, 2004), 
p 197.
    \19\ Robert A. Pape, Dying to Win: The Strategic Logic of Suicide 
Terrorism (New York: Random House, 2005), pp. 9-10.
---------------------------------------------------------------------------
  <bullet> Transnational criminals.--In contrast with terrorists, 
        criminals generally are non-ideological, and fundamentally 
        motivated by the pursuit of profit.\20\ People also participate 
        in criminal organizations for reasons that involve other sorts 
        of personal gain, such as ``belonging to a powerful and even 
        prestigious entity,''\21\ or because of kinship, ethnic ties, 
        or friendship.\22\ Profit incentives drive criminals to 
        ``provide goods and services that are illegal, regulated, or in 
        short supply.''\23\ They devote resources to enhancing their 
        market-related activities, which can involve carving out and 
        defending turf, devising novel smuggling techniques, managing 
        and protecting supply chains, eliminating rivals, laundering 
        money, and shielding their secrets from ``competitors'' (such 
        as rival gangs and law enforcement).\24\ Violence plays a key 
        role in criminal behavior, but it is rarely ideologically-
        driven.\25\ In addition, criminals may secure access to markets 
        by corrupting or intimidating public officials or gaining 
        influence over state activity.\26\
---------------------------------------------------------------------------
    \20\ Frank E. Hagan, `` `Organized Crime' and `organized crime' 
Indeterminate Problems of Definition,'' Trends in Organized Crime, vol. 
9, no. 4 (Summer 2006), p. 135. See also James O. Finkenauer, 
``Problems of Definition: What Is Organized Crime?'' Trends in 
Organized Crime, vol. 8, no. 3 (Spring 2005), pp. 65.
    \21\ Diego d'Andria, ``Investment Strategies of Criminal 
Organisations,'' Policy Studies, vol. 32, no. 1 (January 2011), p. 3.
    \22\ Klaus von Lampe, ``Re-Conceptualizing Transnational Organized 
Crime: Offenders as Problem Solvers,'' International Journal of 
Security and Terrorism, vol. 2, no. 1 (2011), p. 11.
    \23\ Finkenauer, ``Problems of Definition,'' p. 67.
    \24\ Toine Spapens, ``Macro Networks, Collectives, and Business 
Processes: An Integrated Approach to Organized Crime,'' European 
Journal of Crime, Criminal Law, and Criminal Justice, vol. 18 (2010), 
pp. 210-212.
    \25\ See for example, Phil Williams, ``The Terrorism Debate Over 
Mexican Drug Trafficking Violence,'' Terrorism and Political Violence, 
vol. 24, no. 1 (April 2012).
    \26\ See: Moises Naim, ``Mafia States: Organized Crime Takes 
Office,'' Foreign Affairs, vol. 91, no. 3, (May/Jun 2012), pp. 100-111.
---------------------------------------------------------------------------
  <bullet> Unauthorized migrants.--In addition to terrorists and 
        certain criminals, the Immigration and Nationality Act (INA) 
        defines as inadmissible, among others, any alien present in the 
        United States without being admitted or paroled, arriving at an 
        illegal time or place, or not in possession of a valid 
        unexpired visa or other entry document.\27\ Unauthorized 
        migrants--like legal migrants--may be motivated by some 
        combination of employment opportunities, a general desire to 
        improve their economic circumstances, family connections, and 
        dangerous or difficult conditions in their home countries, 
        among other factors.\28\ Apart from immigration-related 
        offenses such as illegal entry or the use of fraudulent 
        documents to obtain employment, some unauthorized aliens never 
        commit a criminal offense.\29\
---------------------------------------------------------------------------
    \27\ INA  212(a)(6)-(7); 8 U.S.C.  1227 (a)(6)-(7). Also see 
CRS Report R41104, Immigration Visa Issuances and Grounds for 
Exclusion: Policy and Trends, by Ruth Ellen Wasem.
    \28\ See for example, Elizabeth Fussell, ``Space, Time, and 
Volition: Dimensions of Migration Theory,'' in Oxford Handbook of 
International Migration, ed. Marc R. Rosenblum and Daniel J. Tichenor 
(New York, NY: Oxford University Press, 2012), pp. 25-52.
    \29\ See CRS Report R42057, Interior Immigration Enforcement: 
Programs Targeting Criminal Aliens, by Marc R. Rosenblum and William 
Kandel. Also see for example, Lesley Williams Reid, Harald E. Weiss, 
and Robert M. Adelman, et al., ``The Immigration-Crime Relationship: 
Evidence Across U.S. Metropolitan Areas,'' Social Science Research, 
Vol. 34, no. 4 (December 2005: pp. 757-780.
---------------------------------------------------------------------------
    The differences among terrorists, transnational criminals, and 
``regular'' unauthorized migrants are summarized in Table 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Illegal Goods
    Any good that is smuggled in or out of the country is illegal and 
may pose security risks. Illegal goods fall into two categories 
distinguished by their inherent illegitimacy: Goods that are always 
illegal and categorically prohibited, and those that are potentially 
legal but illegitimate because they are smuggled to avoid enforcement 
of specific laws, taxes, or regulations.
  <bullet> Categorically prohibited goods include certain weapons, 
        illegal drugs, and counterfeit goods.--Among illegal weapons, 
        ``high-consequence weapons of mass destruction (WMD)'' are 
        considered one of the primary threats to homeland security.\30\ 
        Concerns over WMDs entering the United States generally involve 
        worries over terrorists' use of these weapons, yet some have 
        raised concerns that criminal networks may--for the right 
        price--attempt to smuggle WMDs or related materials. Illegal 
        drugs comprise another set of illicit goods that challenges 
        U.S. border security, as many drugs consumed in the United 
        States are produced abroad and smuggled into the country.\31\ 
        The smuggling of counterfeit and pirated goods into the United 
        States has also been identified as a threat to border 
        security.\32\ This smuggling violates intellectual property 
        rights (IPR) and ``threaten[s] America's economic vitality and 
        National security, and the American people's health and 
        safety.''\33\
---------------------------------------------------------------------------
    \30\ Department of Homeland Security, Quadrennial Homeland Security 
Review Report: A Strategic Framework for a Secure Homeland, February 
2010, p. 6, http://www.dhs.gov/xlibrary/assets/qhsr_report.pdf.
    \31\ CBP seized an average of 13,717 pounds of drugs each day in 
fiscal year 2011; see Customs and Border Protection, On a Typical Day 
in Fiscal Year 2011, March 7, 2012, http://cbp.gov/linkhandler/cgov/
about/accomplish/typical_day_fy11.ctt/typical_day_fy11.pdf.
    \32\ See CRS Report RL34292, Intellectual Property Rights and 
International Trade, by Shayerah Ilias and Ian F. Fergusson.
    \33\ U.S. Customs and Border Protection, Intellectual Property 
Rights Fact Sheet, http://www.cbp.gov/linkhandler/cgov/newsroom/
fact_sheets/trade/ipr_fact_sheet.ctt/ipr_fact_- sheet.pdf. In fiscal 
year 2011, ICE and CBP had 24,792 seizures of counterfeit goods--25% 
more than in fiscal year 2010; see U.S. Customs and Border Protection, 
IPR Seizure Statistics, http://www.cbp.gov/xp/cgov/trade/
priority_trade/ipr/ipr_communications/seizure/.
---------------------------------------------------------------------------
  <bullet> Illegal via Smuggling.--Goods that are not categorically 
        prohibited are still illegal if they are smuggled into or out 
        of the United States. For instance, alcohol and cigarettes, 
        while generally legal and regulated in the United States, are 
        sometimes smuggled to circumvent taxes or to evade other laws. 
        Proceeds from the smuggling of cigarettes have been linked to 
        the financing of terrorist operations abroad.\34\ Other legal 
        products, such as textiles or agricultural products, may be 
        mislabeled to avoid tariffs or circumvent quotas. Illegal 
        outflows are also a concern, particularly as they relate to 
        transnational criminal organizations. Bulk cash smuggling\35\ 
        is one of the primary means by which criminals move their 
        illicit proceeds out of the United States.\36\ Between $20 
        billion and $25 billion in bank notes may be smuggled across 
        the Southwest Border into Mexico each year.\37\ Analysts also 
        believe that Mexican DTOs purchase firearms in the United 
        States and smuggle these weapons to Mexico, where they may 
        contribute to trafficking-related violence.\38\
---------------------------------------------------------------------------
    \34\ International Tax and Investment Center, The Illicit Trade in 
Tobacco Products and How to Tackle It, http://www.kangaroogroup.eu/
DB_beelden/booklet_illicit_trade_tobacco_- products.pdf. Bureau of 
Alcohol, Tobacco, Firearms, and Explosives, Cigarette Smuggling Linked 
to Terrorism, June 18, 2004, http://www.atf.gov/pub/gen_pub/
cigarettesmuggling.pdf.
    \35\ Cross-border movement of money is not inherently illegal, but 
certain practices are. In general, the movement of $10,000 or more out 
of the United States is illegal unless it is declared and reported; see 
31 U.S.C.  5332, 31 C.F.R.  103.23(a).
    \36\ Office of National Drug Control Strategy, National Southwest 
Border Counternarcotics Strategy, June 2009, p. 25, http://
www.whitehousedrugpolicy.gov/publications/swb_counter- 
narcotics_strategy09/swb_counternarcotics_strategy09.pdf.
    \37\ William Booth and Nick Miroff, ``Stepped-Up Efforts by U.S., 
Mexico Fail to Stem Flow of Drug Money South,'' Washington Post, August 
25, 2010, http://www.washingtonpost.com/wp-dyn/content/article/2010/08/
25/AR2010082506161.html. In fiscal year 2011, CBP seized an average of 
$345,687 in undeclared or illicit currency each day--over $126 million 
total; Customs and Border Protection, On a Typical Day in Fiscal Year 
2011, March 7, 2012, http://cbp.gov/linkhandler/cgov/about/accomplish/
typical_day_fy11.ctt/typical_day_fy11.pdf.
    \38\ See CRS Report R40733, Gun Trafficking and the Southwest 
Border, by Vivian S. Chu and William J. Krouse; and CRS Report RL32842, 
Gun Control Legislation, by William J. Krouse.
---------------------------------------------------------------------------
                 understanding border threats and risk
    A fundamental challenge for border security policymaking is the 
uncertainty and fear surrounding border threats: Many different threats 
exist, threat actors do not announce their intentions or capabilities, 
and our understanding of the underlying issues is imperfect. Thus, 
rather than attempting specific predictions about where, when, and how 
border threats will be realized, analysts often rely on probabilistic 
risk models as a framework for analyzing different types of potential 
threats.\39\
---------------------------------------------------------------------------
    \39\ See for example, DHS, Risk Management Fundamentals: Homeland 
Security Risk Management Doctrine, Washington, DC, April 2011.
---------------------------------------------------------------------------
    The standard components of many risk models include estimates of 
the likelihood of a threat (or adverse event) and the potential 
consequence of the event. Risk is modeled as a positive function of 
these two components, so that risk increases with the likelihood and 
potential consequences associated with a particular threat (see Figure 
2). Put another way, this model of risk may be understood as ``as the 
statistical expect[ed] value of an unwanted event that may or may not 
occur.''\40\
---------------------------------------------------------------------------
    \40\ Sven Ove Hansson, ``From the Casino to the Jungle: Dealing 
with Uncertainty in Technological Risk Management,'' Synthese, no. 168 
(2009), p. 424. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Thus, as Figure 2 illustrates, events that are unlikely to occur, 
and that would have low consequences if they did occur, are especially 
low-risk threats. Conversely, an event that is likely to occur, and 
that would have severe consequences, is an especially high-risk threat. 
Threats exist between these two extremes, including high-likelihood, 
low-consequence threats and low-likelihood, high-consequence threats.
    DHS employs this general framework for many of its risk management 
programs, including for example the Homeland Security Grant Program and 
the Strategic National Risk Assessment. Some experts have raised 
questions about whether this type of risk model is the right approach 
to understanding border threats.\41\ An alternative approach, based on 
game theory, places more emphasis on strategic planning by terrorists 
and other threat actors, who may attempt to exploit weakness in U.S. 
defenses.\42\
---------------------------------------------------------------------------
    \41\ See for example, National Research Council, Committee on 
Methodological Improvements to the Department of Homeland Security's 
Biological Agent Risk Analysis, Department of Homeland Security 
Bioterrorism Risk Assessment: A Call for Change (Washington, DC: 
National Academies Press, 2008). Also see Barry Charles Ezell, Steven 
P. Bennett, and Detloff von Winterfeldt, et al., ``Probabilistic Risk 
Analysis and Terrorism Risk,'' Risk Analysis, vol. 30, no. 4 (2010).
    \42\ Ibid.
---------------------------------------------------------------------------
Likelihood of Border Threats
    Historical data may allow analysts to calculate past frequencies 
and use them to estimate probabilities. In the case of unauthorized 
migration, for example, CBP and the legacy INS have used apprehensions 
of unauthorized migrants by the Border Patrol as a proxy to estimate 
unauthorized inflows.\43\ Apprehensions and survey data also may offer 
insight into illegal drug flows, in this case by analyzing drug 
seizures and data on the availability of illegal drugs within the 
United States.\44\
---------------------------------------------------------------------------
    \43\ See CRS Report 42138, Border Security: Immigration Enforcement 
Between Ports of Entry, by Marc. R. Rosenblum.
    \44\ See for example, the White House, ``Drug Availability 
Estimates in the United States, 2012,'' http://www.whitehouse.gov/
sites/default/files/page/files/daeus_report_final_1.pdf.
---------------------------------------------------------------------------
    Yet deriving probabilities from historical observations is 
problematic because measures of past frequencies are only of known 
frequencies and not actual flows. For instance, while data from the 
National Seizure System indicate that over 1.7 million kilograms of 
illegal drugs were seized along the Southwest Border in 2010,\45\ this 
is not indicative of the total amount of illicit drugs smuggled across 
the Southwest Border and into the United States for that time period. 
Any estimates of illegal inflows--whether of drugs, unauthorized 
migrants, or some other illicit flow--are just that: Estimates.
---------------------------------------------------------------------------
    \45\ Data provided to CRS by the National Drug Intelligence Center. 
Data cover seizures of cocaine, heroin, marijuana, MDMA, and 
methamphetamine.
---------------------------------------------------------------------------
    Learning from past history is even more problematic when it comes 
to extremely rare events like attempted terrorist attacks. Probability 
models based on historical frequencies are poorly equipped to describe 
one-in-a-million chances, or to distinguish among, say, probabilities 
of one-in-a-million versus one-in-a-billion or one-in-one-hundred-
thousand.\46\ Especially when the stakes are high, as with terrorism, 
rare event probability models may not generate precise predictions 
about future likelihood.\47\ Partly for this reason, the intelligence 
community often describes likelihood in terms of qualitative ranges, 
such as ``remote,'' ``unlikely,'' ``probable,'' etc.\48\
---------------------------------------------------------------------------
    \46\ Mark Jablonowski, Precautionary Risk Management: Dealing with 
Catastrophic Loss Potentials in Business, the Community, and Society 
(New York: Palgrave MacMillan, 2006).
    \47\ Ibid.
    \48\ See for example DHS Risk Steering Committee, DHS Risk Lexicon, 
p. 20, http://www.dhs.gov/dhs-risk-lexicon.
---------------------------------------------------------------------------
    More generally, historical analysis is limited because ``past 
performance is no guarantee of future results.'' Changes to the 
underlying model may invalidate long-term probabilities. Scientists use 
long-term frequencies to calculate the probability of severe weather, 
for example; but some people believe that rising temperatures and sea 
level may have altered climate dynamics so that probability models 
describing ``500-year'' floods and ``100-year'' storms may no longer be 
accurate. Similarly, some social scientists believe changes in U.S. and 
Mexican labor markets and demographics, along with the decades-long 
escalation in U.S. enforcement, may have fundamentally altered regional 
immigration dynamics.
    Analysts may improve upon historical frequencies by relying on 
subject field experts to make more informed predictions about the 
expected frequency of future events. With respect to the threat of 
terrorism, for example, Federal law enforcement, security agencies, and 
elements within the intelligence community use intelligence analysis to 
estimate the likelihood of a terrorist attack. This involves many 
factors aside from historical frequency, such as probing and evaluating 
the motives of threat actors, their organizational structures, and 
their capabilities, as well as estimating the impact of broad social, 
political, or economic forces on these actors. Analysts may look at 
similar data along with U.S. market forces to estimate the future 
likelihood of illegal drug flows and other contraband; and they may 
examine market and social forces to model future migration flows.
The Strategic Adversary Problem
    Regardless of the methodology, a fundamental challenge to 
estimating the likelihood of border threats is that threat actors like 
unauthorized migrants, transnational criminal organizations, and 
potential terrorists are strategic adversaries who may adapt their 
behavior in response to U.S. border enforcement efforts.\49\ In this 
regard, risk models for border security differ in important ways from 
risk models for natural disasters, industrial failures, or financial 
markets, for example. The strategic adversary problem means that any 
effort to describe the likelihood of a given threat must account for 
given security conditions. And any particular risk assessment can only 
represent a ``snapshot'' at a single point in time within a constantly 
evolving dynamic system.
---------------------------------------------------------------------------
    \49\ NRC, DHS Risk Assessment; Ezell et al., ``Probabilistic Risk 
Analysis.''
---------------------------------------------------------------------------
Potential Consequences of Border Threats
    Border threats may result in a range of potential consequences, and 
policymakers may disagree about how to evaluate them. The process of 
evaluating consequences includes at least three discrete tasks: 
Defining the scope of a threat (i.e., the types of consequences), 
measuring the potential impact, and attaching value to the impact.
  <bullet> Defining consequences.--The first step in evaluating the 
        potential consequences of a given threat is to define its 
        scope: What type of impact may occur? Many traditional risk 
        assessment methodologies limit their analysis to concrete 
        criteria, including in particular direct economic costs and 
        loss of life.\50\ An advantage to defining consequences 
        narrowly in this way is that both of these criteria are easy to 
        quantify (i.e., in dollars and in the absolute number of lost 
        lives). An alternative approach considers a wider scope of 
        consequences. In its Strategic National Risk Assessment, for 
        example, DHS has conceptualized six broad categories of 
        potential consequences: Loss of life, injuries and illness, 
        direct economic costs, social displacement, psychological 
        distress, and environmental impact.\51\ An advantage to 
        adopting this more expansive definition is that, for certain 
        types of threats, these additional consequences may be at least 
        as important as economic and mortality effects. On the other 
        hand, psychological and sociological effects may be far more 
        difficult to define and quantify.
---------------------------------------------------------------------------
    \50\ See for example, Charles Meade and Roger C. Molader, 
Considering the Effects of a Catastrophic Terrorist Attack, RAND Center 
for Terrorism Risk Management Policy, Santa Monica, CA, 2006, http://
www.rand.org/pubs/technical_reports/2006/RAND_TR391.pdf; also see Sara 
Clucking, ``DHS S&T Bioterrorism Risk Assessment (BTRA),'' 
International Symposium on Bioterrorism Risk, October 6, 2009, http://
www.biosecurity.sandia.gov/ibtr/subpages/pastConf/20082009/albuquerque/
6dhs3.pdf.
    \51\ Department of Homeland Security, The Strategic National Risk 
Assessment in Support of PPD 8: A Comprehensive Risk-Based Approach 
Toward a Secure and Resilient Nation, December 2011, p. 5, http://
www.dhs.gov/xlibrary/assets/rma-strategic-national-risk-assessment-
ppd8.- pdf.
---------------------------------------------------------------------------
  <bullet> Measuring consequences.--Within any given category of 
        consequences, a second challenge is how to measure the impact 
        of a given threat. How close in time and space must a given 
        consequence be to attribute it to a particular security 
        incident? For example, what are the economic consequences of a 
        transnational retail crime network?\52\ Retailers incur direct 
        economic costs from the loss of the pilfered goods, and also 
        may incur second-degree costs from security spending to prevent 
        merchandise loss. There may be third-degree costs if the 
        criminal network sells the stolen products and use the proceeds 
        to further additional criminal operations.\53\ Are economic 
        costs limited to the duped retailer, or do they also include 
        the costs to public and private security agencies charged with 
        investigating the crimes and related criminal activities? 
        Partly for these reasons, analysts disagree--often by wide 
        margins--about the potential consequences of different types of 
        threats. In the case of unauthorized migration, for example, 
        even when the analysis is limited to the narrowest economic 
        question of fiscal impact,\54\ estimates of net effects vary by 
        wide margins.\55\
---------------------------------------------------------------------------
    \52\ For more information on organized retail crime, see CRS Report 
R41118, Organized Retail Crime, by Kristin M. Finklea.
    \53\ For instance, Federal law enforcement has reputedly traced the 
illicit proceeds from the theft and resale of infant formula to 
terrorist organizations and insurgent groups, including Hezbollah; see 
testimony by David Johnson, Section Chief, Criminal Investigative 
Division, Federal Bureau of Investigation, before the U.S. Congress, 
House Committee on the Judiciary, Subcommittee on Crime, Terrorism, and 
Homeland Security, Combating Organized Retail Crime: The Role of 
Federal Law Enforcement, 111th Cong., 1st sess., November 5, 2009.
    \54\ Fiscal impacts are just one of three main types of economic 
effects, along with the effect of migration on native-born wages and 
its effect on economic growth.
    \55\ See CRS Report R42053, Fiscal Impacts of the Foreign-Born 
Population, by William A. Kandel.
---------------------------------------------------------------------------
  <bullet> Valuing Consequences.--How one evaluates consequences 
        depends on who is making the judgment. For example, the 
        smuggling of counterfeit medication impacts a range of 
        individuals from law enforcement officers, to individuals 
        consuming the counterfeit drugs, to the legitimate 
        manufacturer. Consumers may place the greatest value on the 
        potential health consequences of consuming the counterfeit 
        product, while manufacturers may perceive the issue primarily 
        in economic terms based on lost sales revenues and reputational 
        costs. A distinction also may be drawn in terms of the motives 
        of threat actors.\56\ What is more threatening: Terrorists who 
        intend to harm U.S. interests, drug traffickers who intend to 
        earn illicit profits but cause mayhem in the process, or an 
        infectious disease outbreak that is not motivated by malicious 
        intent? Ultimately, how one defines the scope of a threat 
        (i.e., what categories of consequences are considered) and how 
        one weighs each category are inherently subjective 
        considerations. There is no ``correct'' way to value the loss 
        of a human life, for example, or the destruction of a 
        particular ecological habitat, or disregard for the rule of 
        law.
---------------------------------------------------------------------------
    \56\ For a discussion of motive or purpose, see: Gregory F. 
Treverton, Intelligence for an Age of Terror (Cambridge: Cambridge 
University Press, 2009), pp. 22-23.
---------------------------------------------------------------------------
                discussion of selected threat scenarios
    Lawmakers may use information about estimated likelihood and 
potential consequences of threat scenarios to develop their own 
``maps'' of border risks in order to set enforcement priorities. At a 
general level, for example, many people would agree that certain threat 
scenarios involving terrorist attacks against the United States are low 
likelihood risks but could have very high consequences, while the 
threat of unauthorized migration flows is more likely, but has lower 
consequences.\57\
---------------------------------------------------------------------------
    \57\ See for example, testimony by Michael Fisher, Chief, U.S. 
Customs and Border Protection Office of Border Patrol, before the House 
Homeland Security Committee, Subcommittee on Border and Maritime 
Security, Measuring Border Security: U.S. Border Patrol's New Strategic 
Plan and the Path Forward, 112th Congress, 2nd sess., May 8, 2012.
---------------------------------------------------------------------------
    With respect to the likelihood of terrorist threats at the 
Southwest Border, the State Department reports no known operational 
cells of Hezbollah or al-Qaeda in the Western Hemisphere;\58\ and CRS 
is not aware of any publically available evidence of ties between 
Mexican DTOs and homegrown terrorists. Terrorists may see crossing the 
Southwest Border between ports of entry as a high-risk strategy, 
because 30-50% of unauthorized Mexican border crossers are apprehended 
at least once while attempting to enter the United States.\59\ The 
apprehension rate is about twice as high for aliens crossing between 
ports of entry as for those who attempt to enter through a port without 
inspection or using a fraudulent document.\60\ And anecdotal evidence 
suggests that apprehension rates are probably lower still at the 
Northern Border and coastal borders. Thus, some analysts consider other 
modes of entry to be at greater risk of terrorist incursion.\61\ This 
intuition is backed up by data on apprehensions of unauthorized aliens 
from special interest countries: 2.3% of aliens apprehended at the 
Northern Border in fiscal year 2006-fiscal year 2011 were from special 
interest countries, compared to 0.05% of aliens apprehended at the 
Southwest Border.\62\
---------------------------------------------------------------------------
    \58\ U.S. Department of State, ``Country Reports on Terrorism 
2011,'' July 31, 2012, http://www.state.gov/j/ct/rls/crt/2011/
index.htm. On terrorism in Latin America, see CRS Report RS21049, Latin 
America: Terrorism Issues, by Mark P. Sullivan and June S. Beittel. In 
addition, out of 40 post-9/11 terrorist plots identified in one recent 
study, none had a nexus with the Southwest Border; see James Jay 
Carafano and Jessica Zuckerman, ``40 Terror Plots Foiled Since 9/11: 
Combating Complacency in the Long War on Terror,'' The Heritage 
Foundation, backgrounder No. 2604, September 7, 2011 http://
www.heritage.org/research/reports/2011/09/40-terror-plots-foiled-since-
9-11-combating-complacency-in-the-long-war-on-terror.
    \59\ Over 90% of Mexicans attempting to cross the border eventually 
succeed after a first apprehension; see David Fitzgerald and Rafael 
Alarcon, ``Migration: Policies and Politics'' in Mexico and the United 
States: Strengthening the Partnership, edited by Andrew Selee and Peter 
H. Smith. New York: Lynne Rienner Publishers, forthcoming.
    \60\ Ibid.
    \61\ See for example testimony by Alan Bersin, Commissioner, U.S. 
Customs and Border Protection, before the Senate Judiciary Committee, 
Subcommittee on Immigration, Refugees, and Border Security, Improving 
Security and Facilitating Commerce at America's Northern Border and 
Ports of Entry, 112th Congress., 1st sess., May 17, 2011. Also see 
Stewart M. Powell, ``Are Potential Terrorists Crossing into Texas from 
Mexico?'' Houston Chronicle, December 2, 2011 http://www.chron.com/
news/houston-texas/article/Are-potential-terrorists-crossing-into-
Texas-from-2341185.php.
    \62\ CRS analysis of data provided by U.S. Border Patrol Office of 
Legislative Affairs. Special-interest countries are defined based on a 
list of 35 special interest countries identified by CBP in 2004. These 
numbers should be interpreted with caution because the vast majority of 
aliens from special-interest countries have no ties to terrorist 
groups, and because these data do not reflect aliens from special-
interest countries who evade detection.
---------------------------------------------------------------------------
    A terrorist attack involving WMD may be particularly unlikely 
because of the technical and practical challenges to obtaining WMD 
materials and designing a delivery system.\63\ Yet the potential 
consequences of a successful WMD attack on U.S. soil are sufficiently 
catastrophic that lawmakers may take such a threat very seriously. One 
estimate suggests that a 10 kiloton nuclear detonation at the Port of 
Long Beach, CA would kill 60,000 people in its immediate aftermath and 
cost more than $1 trillion dollars.\64\ The release of a lethal 
biological agent in an unprotected population could cause untold number 
of deaths and economic costs exceeding $1 trillion dollars.\65\ Even 
without WMD, the 9/11 attack claimed 2,753 lives in New York City 
alone, and has been estimated to have caused $55 billion in destroyed 
and damaged property. The broader economic impacts likely ranged 
between $40 billion and $122 billion.\66\
---------------------------------------------------------------------------
    \63\ See CRS Report RL33787, Maritime Security: Potential Terrorist 
Attacks and Protection Priorities, by Paul W. Parfomak and John 
Frittelli.
    \64\ Charles Meade and Roger C. Molader, Considering the Effects of 
a Catastrophic Terrorist Attack, RAND Center for Terrorism Risk 
Management Policy, Santa Monica, CA, 2006, http://www.rand.org/pubs/
technical_reports/2006/RAND_TR391.pdf.
    \65\ The White House, National Strategy for Countering Biological 
Threats, November 2009, http://www.whitehouse.gov/sites/default/files/
National_Strategy_for_Countering_- 
BioThreats.pdf.
    \66\ ``The Reckoning: America and the World a Decade After 9/11.'' 
New York Times, September 8, 2011, http://www.nytimes.com/interactive/
us/sept-11-reckoning/viewer.html.
---------------------------------------------------------------------------
    On the other hand, with respect to the likelihood of unauthorized 
migration, even in a year in which apprehensions of unauthorized 
migrants fell to a 4-decade low, the U.S. Border Patrol apprehended 
340,252 unauthorized migrants in fiscal year 2011.\67\ This number 
overstates the number of unique individuals apprehended, since it 
includes an unknown number of repeat apprehensions; but it may 
understate unauthorized inflows because it excludes people who 
successfully enter the United States (by crossing the border between 
ports of entry, being smuggled without inspection through a port, using 
fraudulent documents to enter through a port, or entering legally and 
then overstaying or otherwise violating the terms of a visa).
---------------------------------------------------------------------------
    \67\ U.S. Border Patrol, ``Apprehensions/Seizure Statistics--Fiscal 
Year 2011,'' http://www.cbp.gov/linkhandler/cgov/border_security/
border_patrol/usbp_statistics/fy_profile_- 2011.ctt/
fy_profile_2011.pdf. This number includes an unknown number of repeat 
apprehensions, so the number of unique individuals apprehended likely 
was substantially less than 340,000.
---------------------------------------------------------------------------
    Yet the consequences of unauthorized migration may be considered 
less severe that those associated with terrorist threats and some other 
illegal flows.\68\ From an economic perspective, for example, while 
research on fiscal effects reaches conflicting findings,\69\ the weight 
of economic research suggests that the overall impact of unauthorized 
migration is not highly significant.\70\ Likewise, from a public safety 
perspective, while a large proportion of Federal inmates are foreign-
born, research by CRS and others suggests that the overall criminality 
rate among the foreign-born (i.e., including legal and unauthorized 
migrants, at the Federal, State, and local level) likely is no more 
than--and possibly is below--the native-born rate.\71\ Even within the 
border region, while violence has increased on the Mexican side of the 
border, violent crime rates have not significantly increased in U.S. 
border cities or in other metropolitan areas where there has been an 
identified presence of Mexican DTOs. And there was no significant 
difference between average violent crime rates in border and non-border 
metropolitan areas in fiscal year 2000-fiscal year 2010.\72\
---------------------------------------------------------------------------
    \68\ This discussion does not include an analysis of the social, 
psychological, and cultural effects of a terrorist attack or of 
unauthorized migration. These effects are subjective and difficult to 
quantify, but some people may view them as important.
    \69\ See CRS Report R42053, Fiscal Impacts of the Foreign-Born 
Population, by William A. Kandel.
    \70\ One recent study concludes that the overall economic impact of 
unauthorized migration is ``close enough to zero to be essentially a 
wash''; see Gordon Hanson, ``The Economics and Policy of Illegal 
Immigration in the United States,'' Migration Policy Institute, 
Washington, DC, December 2009, http://www.migrationpolicy.org/pubs/
Hanson-Dec09.pdf.
    \71\ See CRS Report R42057, Interior Immigration Enforcement: 
Programs Targeting Criminal Aliens, by Marc R. Rosenblum and William 
Kandel. Also see for example, Lesley Williams Reid, Harald E. Weiss, 
and Robert M. Adelman, et al., ``The Immigration-Crime Relationship: 
Evidence Across U.S. Metropolitan Areas,'' Social Science Research, 
Vol. 34, no. 4 (December 2005): pp. 757-780. Available data make it 
difficult to estimate the criminality rate exclusively among 
unauthorized migrants.
    \72\ CRS analysis of Federal Bureau of Investigation (FBI) data; 
also see CRS Report R41075, Southwest Border Violence: Issues in 
Identifying and Measuring Spillover Violence, by Kristin M. Finklea.
---------------------------------------------------------------------------
                             policy options
    Immediately after the 9/11 attacks, the convergence of immigration 
control, the war on drugs, and the urgency attached to the war on 
terror meant that DHS took an all-of-the-above approach to border 
security. But even when budgets are expanding, Congress and DHS face 
trade-offs among the different elements of DHS' mission. As budgeting 
has grown tighter in the current fiscal climate, policymakers face 
increasingly hard questions about how to set priorities and where to 
allocate scarce resources.
    Members of Congress may ask whether border security and other DHS 
policies should be designed to prevent unauthorized migration in 
general, or whether policies should be tailored to target terrorists, 
transnational gang, or illegal drugs.\73\ While DHS prioritizes 
counterterrorism, certain border security and immigration control 
policies may have been designed with a more generalized set of goals. 
Indeed, the Secure Fence Act defines zero illegal inflows as part of 
DHS' statutory mission.\74\ Many analysts doubt that an open country in 
a globalized economy can ever achieve a 100% interdiction rate--and 
some question whether such a standard is even worth aspiring to.\75\ 
Moreover, even at current interdiction levels, the population of 
unauthorized migrants in the United States has declined by about a 
million people since 2007, and net inflows apparently have declined to 
about zero or become somewhat negative.\76\ In contrast, illegal drug 
flows do not appear to have declined over this period.\77\ It is 
difficult to estimate changes in the likelihood that terrorists will 
cross the Southwest Border.
---------------------------------------------------------------------------
    \73\ As noted above, uncertainty about the likelihood of different 
illegal flows and inherent subjectivity about their consequences mean 
there is no ``right'' answer to this question.
    \74\ See Pub. L. 109-367,  (2)(b).
    \75\ See for example, testimony by Doris Meissner, Director, U.S. 
Immigration Policy Program, Migration Policy Institute, before the U.S. 
Congress, Senate Committee on Homeland Security and Governmental 
Affairs, Securing the Border: Building on the Progress Made, 112th 
Cong., 1st sess., March 30, 2011.
    \76\ See Michael Hoefer, Nancy Rytina, and Bryan Baker, ``Estimates 
of the Unauthorized Immigrant Population Residing in the United States: 
January 2011,'' DHS Office of Immigration Statistics, March 2012, 
http://www.dhs.gov/xlibrary/assets/statistics/publications/
ois_ill_pe_2011.pdf; Jeffrey Passel, D'Vera Cohn and Ana Gonzalez-
Barrera, ``Net Migration from Mexico Falls to Zero--and Perhaps Less,'' 
Pew Hispanic Center, May 3, 2012, http://www.pewhispanic.org/2012/04/
23/net-migration-from-mexico-falls-to-zero-and-perhaps-less/; Scott 
Borger, Gordon Hanson, and Bryan Roberts ``The Decision to Emigrate 
From Mexico,'' presentation at the Society of Government Economists 
annual conference, November 6, 2012.
    \77\ Total illegal drug seizures along the Southwest Border 
increased from 1.1 to 1.7 kilograms in 2005-2010; see CRS Report 41075, 
Southwest Border Violence: Issues in Identifying and Measuring 
Spillover Violence, coordinated by Kristin M. Finklea. According to the 
National Institute on Drug Abuse (NIDA), 8.9% of Americans aged 12 or 
older used an illicit drug in 2010, the latest year for which data are 
available, up from 8.3% in 2002; see NIDA, ``Drug Facts: Nationwide 
Trends,'' http://www.drugabuse.gov/publications/drugfacts/nationwide-
trends.
---------------------------------------------------------------------------
    In addition to setting overall priorities, Members of Congress may 
consider where DHS may get the most effective return on future 
enforcement investments. Lawmakers concerned about illegal drug flows, 
for example, may favor increased investments at ports of entry, such as 
more CBP officers, non-intrusive inspection scanners, and drug-sniffing 
dogs. In addition, DHS and other law enforcement agencies may combat 
traffickers' business models by taking additional action to disrupt DTO 
money-laundering schemes and to detect and prevent southbound flows of 
money and guns.
    For Members focused on counterterrorism, priorities might include 
continued investments in DHS information systems, such as the CBP 
Automated Targeting System, US-VISIT, and the Automated Commercial 
Environment, along with investments in intelligence collection programs 
to ensure that the right data are being analyzed. In addition to 
terrorism prevention, some Members may also emphasize investments in 
resiliency, or the ability to survive and manage a terrorist attack. 
With respect to both counterterrorism and counternarcotics efforts, 
some of the most important work may involve bilateral and multilateral 
partnerships with allies abroad.
    With net unauthorized migration flows at around zero, two key 
questions for Members concerned about unauthorized migration are how 
recent DHS policies like increased border personnel, CBP's consequence 
delivery system, and ICE's Secure Communities program have contributed 
to these recent trends; and the degree to which unauthorized flows will 
increase as the U.S. economy recovers and new hiring resumes.\78\ For 
many years, some have argued that the greatest deficiency in America's 
immigration control system involves employment eligibility verification 
and worksite enforcement, rather than border control.\79\ And some 
believe that it will be impossible to achieve further reductions in 
unauthorized migration without revisions of existing visa categories 
and avenues for certain unauthorized migrants to qualify for legal 
status--though others believe that enforcement should be further 
strengthened before Congress considers broader immigration reforms.
---------------------------------------------------------------------------
    \78\ One recent study found that illegal inflows fell about 60 
percent between 2004 and 2010, with 40% of the reduction due to a 
stronger Mexican economy, 30% of the reduction due to increased U.S. 
border enforcement, and 30% of the reduction due to the weaker U.S. 
economy; see Scott Borger, Gordon Hanson, and Bryan Roberts ``The 
Decision to Emigrate From Mexico,'' presentation at the Society of 
Government Economists annual conference, November 6, 2012.
    \79\ See for example, U.S. Commission on Immigration Reform (Jordan 
Commission), U.S. Immigration Policy: Restoring Credibility 
(Washington, DC: U.S. Government Printing Office, 1994).
---------------------------------------------------------------------------
                           concluding comment
    In sum, DHS' border security mission is broader than any single 
type of border threat. And policies to combat terrorism, criminal 
networks, unauthorized migration, and other illegal flows likewise are 
broader than border security per se, as they include enforcement within 
the United States and abroad. Understanding the differences among these 
threats, their relative risks, and how policies may be designed to 
respond to them is a logical starting point for a conversation about 
how to allocate scarce enforcement resources.
    I thank the committee again for this opportunity to testify and 
look forward to your questions.

    Mr. McCaul. Thank you Dr. Rosenblum.
    The Ranking Member has to leave here shortly so he will be 
recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. Thank you for just 
allowing me to do that.
    I had two areas I just wanted to focus on, it is very 
hard--you covered so much ground--to focus in on areas. But one 
of them that I think you will have some concern with is the 
issue the challenges we face with different Federal agencies 
and how they coordinate and don't coordinate with each other as 
well, how some have greater abilities to deal with these issues 
and others don't. For instance, DEA has some I think some 
statutory abilities that other agencies don't have, to follow 
some of these things.
    I just want to ask the panelists, whoever wants to step up, 
how best can we coordinate these different agencies so that we 
are working together on this issue? I think it is an important 
issue. That is why I want that to be the really one of my two 
questions.
    Mr. Noriega. Sir, if I could take the first stab at that. 
Well, you are exactly right. The DEA does have authorities that 
Congress wisely provided to them to treat the terrorism issue 
as it runs parallel with drug trafficking. They have a task 
force that brings all of the various agencies, intelligence, 
law enforcement, and others together to coordinate some of 
their work.
    It has to be treated, though, as a higher priority.
    I think Representative Duncan's legislation, which passed 
unanimously in the House and enjoys bipartisan support in the 
Senate, would be an important part of getting all of the 
agencies to do a whole-of-Government assessment and produce a 
strategy and hopefully elevate this as a priority. You see some 
U.S. Attorneys putting in vast hours on these things, and 
unless Justice treats it as a priority, you are not going to 
see indictments coming forward. So I would just suggest that 
that is extraordinarily important.
    Then the State Department, really, I worked there for 10 
years, some of these people are long-time friends, at least 
acquaintances, and if they, if you did a report on the State 
Department, you would title it ``head in the sand'' because 
they completely--they drag their feet. They prevent law 
enforcement from doing its work, and I have specific examples 
of all that. If they said there aren't operational cells, it 
isn't lack of imagination; it is lack of vision that is being 
on display there. I have seen that statement before, and I just 
have to disagree with it.
    Mr. Cilluffo. Mr. Keating, if I can also expand on that 
really quickly.
    In addition to looking at the alphabet soup in the various 
agencies and departments at the Federal level, obviously, State 
and local play a significant role here. When you look at LAPD, 
they would probably have a better position on some of the 
government of Iran and the Lebanese Hezbollah activities in the 
United States. So we have got to continue to the support and 
look to ways that we can improve our fusion centers between 
Federal, State, local.
    But let me also add one other set of issues. In addition to 
the agencies, you have got doctrinal challenges. Is this a 
counterterrorism issue? Is it a counterinsurgency issue? Is it 
a counter-crime issue? The reality is, it is all of the above. 
What you want to be able to do is bring out the best of all of 
those entities. So, however we structure it, we have got to 
start thinking doctrinally how do we address these issues as 
well.
    I would just add, the Drug Enforcement Administration, DEA, 
I would argue is, if not the top, is one of the top agencies in 
the world when it comes to human intelligence. I will tell you 
all the technology in the world we need to bring to bear, it is 
going to take multiple intelligence disciplines and sources. 
But at the end of the day this is still a humint business. It 
is about human intelligence. I would like to see that tapped in 
a greater way to get at the priority that Ambassador Noriega 
discussed.
    Mr. Keating. I know we did grant them greater authority, 
and they do have ability to talk about and to investigate some 
of the issues we have talked about in terms of laundering and 
other issues, and that information could be valuable if it is 
transferred successfully among agencies.
    I do want to just touch base on the second thrust I have. 
As a committee, we have to have a way of measuring resources in 
how we go forward. I am worried about when you have so many 
diverse issues all coming together, I am worried that the 
metrics that are involved may not be such that we can look at 
things. Are we always going to be looking at apples and 
oranges? Could you comment on how effective the metrics are--
how effective that is now in being able for us to utilize that 
to see if resources are being effective or not, or how they 
could be changed to make us, put us in a better position so we 
can evaluate where our resources go?
    Maybe, Dr. Rosenblum, I can start with you.
    Mr. Rosenblum. Thank you. I know this is a question that 
many Members of Congress have been focused on, and I think it 
is an important and good question. I can speak most directly to 
immigration control metrics and that component of border 
security. DHS for almost 10 years now has been building its 
biometric database, US-VISIT, that tracks people who are 
apprehended anywhere along the border, and they have developed 
much better capacity to measure, for example, how people who 
come through different enforcement pipelines, what their 
recidivism rate, what their re-apprehension rate is, although 
those data aren't public, but it is something that Congress has 
expressed an interest in, and I hope that we will have a chance 
to look at those data and to be able to evaluate programs 
through those data.
    I think as you get into these more complex threats and 
certainly with terrorism and the nexus in Latin America, again, 
it comes down to intelligence because on those kinds of issues, 
what we have to measure--with migration we have got people to 
count, we can count apprehensions. So the measurement is less 
of a problem, and it is the analysis. With some of these more 
uncertain things, we need the intelligence so that we know we 
are looking at the right things.
    Mr. Keating. I would just, a final comment. I am glad that 
I don't know which one of our witnesses just a moment ago had 
said that local law enforcement has to be a part of this. I 
agree that it does.
    We were in the port of Houston with one of our field visits 
that came back to us very strongly that COPS programs, other 
ways to make sure there are resources at the local level, make 
sure they are available, are important front-line issues for 
intelligence and enforcement, but particularly for intelligence 
purposes. So I am glad you brought that point up.
    With that, Mr. Chairman, I thank you for taking me out of 
turn, and I yield back my time.
    Mr. McCaul. Thank you as well.
    Let me first commend the committee staff for putting 
together this report, which we had written this 5 years ago. 
This is the second volume, if you will, of ``A Line in the 
Sand.''
    I would like to submit it, without objection, into the 
record,* as well as a letter that we sent to the 
administration, to the Assistant to the President for National 
Security Affairs, after we took a delegation, led a delegation 
down to Latin America to look at the very issues that we are 
discussing here today. I would like to enter that into the 
record as well. Also state that this letter was sent on October 
5, and we have yet to receive any sort of response from the 
administration.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    [The information follows:]
        Letter From Chairman Michael T. McCaul to Thomas Donilon
                                   October 5, 2012.
Mr. Thomas Donilon,
Assistant to the President for National Security Affairs, Eisenhower 
        Executive Office Building, Washington, DC 20501-0005.
    Dear Mr. Donilon: We recently returned from a bipartisan 
Congressional Delegation (Codel)\1\ overseas, which included stops in 
Mexico, Colombia, Paraguay, and Argentina. Based on this trip the 
Delegation developed several observations and recommendations listed 
below for your consideration.
---------------------------------------------------------------------------
    \1\ Congressmen Michael T. McCaul (TX-10) Henry Cuellar (TX-28), 
Tom Graves (GA-09), Jeff Duncan (SC-03), and Robert Turner (NY-09).
---------------------------------------------------------------------------
    The purpose of the trip was to examine the Iranian and Hezbollah 
presence in South America, the threat to the Southwest Border from 
terrorists and drug cartels, and to acquire information about the 
terrorist pipeline from the Middle East into South America. In each 
country we met with the U.S. country team, foreign leaders, and other 
key officials to gain more insight on this evolving threat, which 
ultimately affects the security of our homeland.\2\
---------------------------------------------------------------------------
    \2\ Mexico.--(Mexico City) U.S. Ambassador to Mexico Anthony Wayne 
and Country Team; National Security and Investigations Center (CISEN) 
Director Jaime Domingo Lopez Buitron and staff; and Secretary of Public 
Security, Genaro Garcia Luna and staff. Colombia.--(Bogota) U.S. 
Ambassador to Colombia Peter Michael McKinley and Country Team; 
Narcotics Affairs Eradication Chief Alexandra Z. Tenny; Narcotics 
Affairs Aviation Chief Ted Harkin; Major General Jose Perez Mejia, 
Chief of Defense; Melgar Base Commander Col Losada; Pijaos Base 
Commander Col Ramirez; Narcotics Affairs Interdiction Chief Michael 
Schreuder; Narcotics Affairs Jungla Advisor William Worley; and 
Narcotics Affairs Rural Police Advisor Roberto Valles. Paraguay.--
(Ciudad Del Este) U.S. Ambassador to Paraguay James Thessin and Country 
Team; and Chief of Paraguayan National Police--Counter Terrorism Unit 
Carlos Humberto Benitez Gonzalez. Argentina.--(Buenos Aires) Charge 
d'Affaires Alexis Ludwig and Country Team; Argentine Israelite Mutual 
Association (AMIA); and Minister for Foreign Affairs Hector Marcos 
Timerman.
---------------------------------------------------------------------------
                                 mexico
    OBSERVATION.--The Government Accountability Office concludes only 
873 miles of our 1,969-mile border with Mexico is under operational 
control and only 129 miles are under full control. This problem is 
compounded by the fact that the Mexican government does not have the 
capacity to effectively control much of their side of the border. 
Recognizing this concern, the Mexican government passed a law to build 
its border patrol capacity. However there is no funding available for 
this initiative.
    RECOMMENDATION.--The U.S. Government should redirect some of the 
Merida initiative funds to help Mexico build its capacity to control 
their side of the border.
    RECOMMENDATION.--The U.S. Government should pursue with Mexico a 
bilateral strategy deploying unused U.S. Department of Defense assets 
returned from Iraq and Afghanistan such as unmanned aerial vehicles, 
tethered aerostats, and integrated fixed towers along each side of the 
border. The information gathered by these shared technologies should be 
symmetrical, managed respectfully, and have clear protocols concerning 
how it will be used.
    RECOMMENDATION.--Continue to foster cooperation between the 
Governments of Colombia and Mexico so that Mexico has the benefit of 
Colombia's experience dealing with drug cartels. The U.S. Government 
should help facilitate regular meetings between the two countries.
    RECOMMENDATION.--Continue pursuing with Mexico a shared biometric 
system that could be used to track human smuggling of Special Interest 
Aliens (SIAs).
    OBSERVATION.--Qods Force and Hezbollah are in Mexico and fully 
aware of the porous border between the United States and Mexico. The 
Mexican government shares our concerns. Mexico considers the Arbabsiar 
case a success story because it highlighted the close information-
sharing relationship between the United States and Mexico. The Mexican 
government stated the case was an ``eye opener;'' the threat is still 
here, but it's not known how large.
    Qods Force and Hezbollah are actively researching human smuggling 
routes and establishing relationships with drug cartels who have 
knowledge of known routes into the United States. These relationships 
between Iran, Hezbollah, and organized criminal organizations could 
potentially assist in strikes against the homeland.
    RECOMMENDATION.--U.S. intelligence agencies, in conjunction with 
CISEN, should develop as a priority mission with additional resources 
and authorities targeting Iran and Hezbollah operatives in Mexico and 
throughout the region. This priority targeting should help provide U.S. 
operational entities some advance notice of possible terrorist attacks 
against the homeland.
                                colombia
    OBSERVATION.--Although Plan Colombia has had considerable success 
in combating the Revolutionary Armed Forces of Colombia (FARC), a 
narco-terrorist organization, the war has yet to be won, and challenges 
remain. The FARC continues to adapt and rebuild itself along the 
borders with Venezuela, Brazil, and Ecuador. There does not appear to 
be a strategy to combat the emerging threat of FARC operations in other 
countries such as Ecuador and Bolivia. Additionally, activity by 
smaller drug and criminal organizations has increased in the region.
    RECOMMENDATION.--The United States should increase efforts to 
assist Colombia interdict and eradicate cocaine, enhance information 
sharing, provide continued resources for Colombia's special operation 
forces, and send advisors to assist Colombian officials reform their 
judicial system.
    OBSERVATION.--Cocaine is the ``Center of Gravity'' in Colombia's 
fight against the FARC. Cocaine funds terrorist organizations. South 
America is considered a ``cash cow'' for terrorist operations. 92% of 
FARC activity occurs where cocaine is grown. The FARC is the first leg 
in the supply chain for cocaine bound for the United States and 
operates and owns complete supply lines into the United States.
    An example of the nexus between the FARC and the Mexican drug 
cartels is the November 2011 indictment of the Ayman Joumaa network. 
Joumaa is the alleged leader of an international drug-trafficking and 
money-laundering network that coordinated multi-ton shipments of 
cocaine from Colombia to the Los Zetas Mexican drug cartel. He also 
laundered hundreds of millions of dollars in drug proceeds back to the 
Colombian suppliers and Hezbollah. These actions underscore major links 
between terrorist organizations and major South American narcotics 
money-laundering organizations.
    RECOMMENDATION.--As cocaine use in the United States is a large 
funding source for terrorist organizations, the administration should 
expand telegraphing this fact to the American public, and make the 
point that those who use cocaine fund terrorists.
    OBSERVATION.--Venezuela is a safe haven for not only Iran and 
Hezbollah, but also the FARC. The Colombian government has evidence of 
a Venezuelan Army helicopter providing operational support to the FARC. 
The Colombian government also has evidence of Venezuelan government 
officials working for the FARC narco-terrorist organization. 
Additionally, Hezbollah is connected to communities in Colombia where 
the FARC is operating, which provides support back to the terrorist 
organization. Hezbollah is also purchasing cocaine from the FARC. FARC 
weapons were found to be from Russia and Venezuela.
    From these observations, we conclude the FARC is operating with 
Iran and Hezbollah in Venezuela, and the Venezuelan government is 
complicit in these operations.
    RECOMMENDATION.--The U.S. Government should consider designating 
Venezuela a state sponsor of terrorism.
                                paraguay
    OBSERVATION.--The Tri-Border region is identified as a center that 
finances Islamic terrorism. Hezbollah has a well-known and established 
presence in the Tri-Border region. Additionally, Iranian government 
officials have been found entering Paraguay with Venezuelan passports 
and meeting with Hezbollah operatives. Shops are owned and operated by 
Hezbollah and in one particular mall you must be a Hezbollah 
sympathizer in order to rent space in that location. A sizable amount 
of profits from these shops go to the Middle East to fund terrorists.
    While the region is mainly known for illicit financing and money-
laundering activities, it was reported in December 2006 that Ali 
Muhammad Kazan, a leader in Hezbollah's political structure and who 
served as a commanding member of counterintelligence for Hezbollah was 
present in the Tri-Border region. According to the 2011 State 
Department Country Reports on Terrorism, the Barakat Network in the 
Tri-Border area is another example of drug money being funneled to 
Hezbollah. Although the total amount of money being sent to Hezbollah 
is difficult to determine, the Brakat network provided, and perhaps 
still provides, a large part of the $20 million sent annually from the 
Tri-Border Area to finance Hezbollah and its operations around the 
world.
    Unfortunately, high levels of corruption within law enforcement and 
the judicial system, along with weak terrorism-related laws, continue 
to exacerbate and allow these terrorist organizations to operate in the 
region.
    RECOMMENDATION.--The U.S. Government should increase resources and 
work more closely with the Paraguayan government to aid in building a 
more trusted and capable law enforcement and legal system and establish 
more effective terrorism-related laws related to financing of terrorist 
organizations.
    RECOMMENDATION.--While the Codel was in Paraguay, the Brazilian 
government recently announced they plan to send 10,000 troops to the 
lawless Tri-Border region in part to address these transnational 
criminal and terrorism-related security threats. The U.S. Government 
should support these efforts and work with the Brazilian government in 
sharing information that could target and dismantle these Hezbollah 
financing operations.
                               argentina
    OBSERVATION.--Hezbollah and Iran launched two terrorist attacks 
from the Tri-Border region in 1992 and 1994, which destroyed the 
Israeli embassy and the Jewish Cultural Center in Buenos Aires. These 
terrorist attacks were against soft targets. The planners of the 
attacks have not been brought to justice. Of the six Iranian citizens 
accused of plotting these attacks, one suspect in particular, the 
Minister of Defense of Iran, was recently in Bolivia to open up a 
military school. The Bolivian government apologized and claimed to not 
have known about the connections between the Iranian Minister of 
Defense and the terrorist attacks.
    RECOMMENDATION.--The U.S. Government should work with Argentina to 
bring to justice the individuals alleged to have carried out the 
terrorist attacks against the Israeli Embassy and Jewish Cultural 
Center.
    RECOMMENDATION.--With these terrorist bombings serving as an 
example, the U.S. Government should recognize the reality of Hezbollah 
and Iran's capability to leverage sympathizers in Latin America to 
become operational and attack soft targets without difficulty.
    OBSERVATION.--There are indications that bimonthly flights are 
still occurring between Iran and Venezuela. Interpol has not been able 
to learn what cargo is on these flights. Clearly these flights are a 
direct pipeline between the two countries that could be used to 
transfer weapons, nuclear material, and terrorists.
    RECOMMENDATION.--The U.S. Government should regularly monitor these 
continuing claims of flights between Iran and Venezuela, and arbitrate 
its frequency, potential cargo, and other suspicious activities. 
Additionally, the United States should demarche the Venezuela 
government and request they abide by transparent flight requirements.
    OBSERVATION.--There have been indications that Iran is proactively 
reaching out to many countries in Latin America, including Argentina, 
to establish relationships, increase trade, fund infrastructure 
projects, spread its ideology, and build stronger cultural ties in the 
region. Although publicly denouncing Iran, there is increased concern 
Argentina will be more open in its relationship and establish larger 
trade with the Iranian regime. In addition, Iran has stated its 
intention of opening up companies in Argentina.
    RECOMMENDATION.--The U.S. Government should closely monitor Iran's 
activity throughout Latin America and work with our allies in the 
region.
    We are deeply concerned Iran and its surrogates are conducting 
operations in the Western Hemisphere. The alarming connections between 
Iran, Venezuela, Hezbollah, the FARC, drug cartels, criminal 
organizations, and Iranian sympathizers throughout Latin America could 
be leveraged by Iran to carry out terrorist attacks in the United 
States and against our allies in the region. Given Iran's recent 
efforts to intervene in Latin American affairs, the U.S. Government 
should not downplay the implications of the recent decision on June 5, 
2012 by Bolivia, Ecuador, Nicaragua, and Venezuela to be removed from 
the Inter-American Treaty of Reciprocal Assistance, also known as the 
Rio Treaty of 1947. This Western Hemispheric defense doctrine 
recognizes that an attack on a Western Hemispheric nation is an attack 
against us all, and any unraveling of a Western Hemispheric defensive 
treaty threatens the sovereignty of the United States and our allies 
throughout the Western Hemisphere. In accordance with the Monroe 
Doctrine, the United States should send a strong signal to the world 
that any effort by Iran and its surrogates to enroot operations in the 
Western Hemisphere is dangerous and a threat to our peace, safety, and 
prosperity.
    We welcome the opportunity to discuss these matters with you more 
fully. If you have any questions or would like additional information 
on these observations and recommendations, please contact Dr. R. 
Nicholas Palarino, Staff Director or Mr. Brett DeWitt, Professional 
Staff Member for the Subcommittee on Oversight, Investigations and 
Management, House Homeland Security Committee, who accompanied us on 
the Codel.
            Sincerely,
                                         Michael T. McCaul,
          Chairman, Subcommittee on Oversight, Investigations, and 
                                                        Management.

    Mr. McCaul. This is an area that I know Mr. Duncan shares 
my concerns. I believe, Mr. Cilluffo, as you stated, this is an 
area that has gone largely ignored, overlooked, and yet it is 
right in our backyard, and we talk about the Middle East a lot. 
We talk about North Africa and Egypt and Libya. Yet some things 
are happening not too far from here that I think the American 
people just have no idea the threat level that it presents to 
us. As you look at the tension between Israel and Iran right 
now and how that has heightened to a flash point that I don't 
think I have seen as great in my lifetime. As that tension 
heightens, so does the tension across the world and in this 
hemisphere. If, God forbid, there is a strike from Israel into 
Iran, the retaliation will be certain, and it will be swift, 
not just against Israel but in the entire Middle East, and it 
will also expand into this hemisphere. It will light up 
Hezbollah operatives I think in Latin America. It will also 
light up Hezbollah cells in the United States. Many people 
don't even realize that there are Hezbollah cells in the United 
States.
    When I was a former AUSA chief of counterterrorism that was 
our job to find out where they are. You don't know what you 
don't know. Where are these cells? What we found was Hezbollah 
is actually pretty sophisticated and, in some ways, more so 
than al-Qaeda.
    They are certainly probably better-financed. So when we 
went down to Latin America, Mr. Duncan and I, we went to the 
Tri-Border Area, Paraguay, Brazil, Argentina, and we saw a huge 
Hezbollah presence, billions of dollars being sent from that 
area, that region, to Hezbollah to Iran.
    We also saw that there are satellite nations of Iran in 
Latin America, certainly Venezuela being one of the biggest, 
and then Bolivia and Ecuador and Cuba. They are even talking 
about disavowing a treaty from 1947 that deals with the Monroe 
Doctrine where an attack on one is an attack against all. Why 
would these states want to violate that treaty or get out of 
that treaty? It is because of the influence of Iran in the 
region?
    So I guess my question is that we were always told, and 
Ambassador Noriega, I think you put it, you hit the nail on the 
head by saying, when it comes to the State Department, it is 
the head in the sand. Because when we were down there, we got 
briefings from the chief of station, which were pretty good, 
but the local security guys, better, and then we went to the 
Jewish community center that was blown up by Hezbollah, and 
these guys probably gave us the best briefing that we got down 
there, most likely wired into Israeli intelligence, which is 
probably the best when it comes to Iran.
    But then when we talked to our own State Department, 
amazing how the threat is downplayed, how the terrorism word is 
not even used. I think it has been taken out of their 
vernacular, and even though you have this large Hezbollah 
presence down there, they don't seem to care. It is like 
diplomacy outweighs threat; diplomacy outweighs looking at this 
as a counterterrorism issue. So I think that was to me the line 
in the hearing, the head in the sand. They need to get their 
head out of the sand and look at this problem.
    So my question to the panel is: We were always told, you 
know, yeah, Hezbollah is down there, but they are just finance 
support cells; it is nothing to get too worried about, so don't 
overblow this problem. It is not really a problem.
    Well, then we saw the Qods Force operative in Mexico, the 
aligning with what he thought was a Los Zetas cartel member to 
assassinate the Saudi ambassador in Washington and to hit the 
embassies in Argentina, both the Israeli and Saudi embassies. 
The first time we are seeing this theory that there couldn't 
possibly be a threat to suddenly seeing an operative, an 
operation.
    So I guess, again, my final question is: Can you discuss 
the sort-of unholy alliance that we are seeing now and marriage 
between these Hezbollah Qods Force, more radical Islamic 
groups, and the drug cartels, that are largely finance and I 
understand that, but discuss that and then also is it possible 
that they could become operational in the future, particularly 
in light of the situation between Israel and Iran currently?
    Mr. Cilluffo. If I could jump in, well, Mr. Chairman you 
are exactly right, Ahmad Vahidi is the minister of defense of 
Iran. He said, if Iran were attacked by anyone, that there 
would be a tough and crushing response. He said that on May 
2011, in Bolivia, where he was inaugurating an academy on 
asymmetrical warfare that is being funded by Iran. Just one 
example, Mohsen Rabbani is a cleric who is wanted for his role 
in the 1992 and 1994 bombings in Buenos Aires. He travels on 
documents provided him by Venezuela. He is not supposed to be 
able to travel at all because there is a red notice, an 
Interpol red notice, but he travels in this hemisphere on a 
regular basis, and we have been able to place him through our 
sources at least a couple times in the last 18 months. So that 
exists.
    The Jouma case that I referred to involves all of these 
different criminal elements and really a global enterprise, 
where Jouma played a role bringing Colombian cocaine to the Los 
Zetas through Central America, taking the money there, 
commingling it with a used car enterprise, those cars, that 
value was then exported to Africa, converted to cash, so you 
launder the resources, and then flown back to the Western 
Hemisphere. This is a terrifically sophisticated mechanism that 
is going to reach out and touch us in a serious way if we don't 
get ahead of the curve and start to block some of these moves 
on their part.
    Mr. McCaul. Thank you.
    Mr. Cilluffo.
    Mr. Cilluffo. Mr. Chairman, to build on one of the previous 
questions as well regarding metrics, I think before jumping in 
the specifics, it is worth remembering the terrorism, what gets 
measured gets done, but are we measuring what matters? But more 
importantly, terrorism is a small numbers business. If you look 
back to 9/11, we weren't talking about hundreds of thousands of 
people, so it is worth factoring in the vulnerabilities that 
can be exploited. You don't need big numbers to cause 
catastrophic effect.
    So in terms of the Lebanese Hezbollah marriage in the Tri-
Border Area, I think General Fraser, head of Southern Command 
put it best, they are working together mostly alliances of 
convenience, but it is those alliances of convenience that can 
cause real significant damage to our U.S. National interest, 
our National security.
    I might note that LAPD recently elevated the government of 
Iran and its proxies to a Tier I threat, at par and even to al-
Qaeda, its affiliates, and those inspired by al-Qaeda. That is 
a significant development.
    NYPD has done much the same.
    In addition to the points that Ambassador Noriega brought 
up, Nasrallah, the head of Lebanese Hezbollah has stated 
himself and his quote was, if Israel targets Iran, America 
bears responsibility. So clearly, they are going to light up 
and tap some of those networks.
    I might also note there have been a number of arrests, JTTF 
arrests in the United States. In 2010, there were 16 
significant arrests of Hezbollah sympathizers trying to access 
stinger missiles, night vision equipment. So this isn't 
something that we need to be worrying about. This has occurred.
    So the question is, if you see these pieces come together 
and should a triggering event cause, yes, I think that is a 
significant issue the United States needs to be concerned 
about.
    I might also note that they are pretty sophisticated in 
terms of trade craft, so that is just something to bear in 
mind.
    Mr. McCaul. Mr. Farah.
    Mr. Farah. I would echo what Ambassador Noriega said. I 
think that but if you look at Iran's history in the region, we 
tend to look at the attack on, the attempted attack on, the 
Saudi Ambassador as sort of a crossing or a sea change in how 
they behave. But it is not really. If you look at the 2007 
attempted attack on the JFK fuel facilities, that was also an 
Iranian plot. It didn't get a lot of publicity, but the Irani 
connection, but Mr. Kadir who was running, involved in the plot 
out of Guyana was sent to the western hemisphere at the same 
time Mohsen Rabbani was and he was working the northern tier as 
Mohsen Rabbani was working Argentine sphere, and part of the 
money for that, and it is documented in our core documents, for 
that attack were put into the mosque that Mr. Kadir was running 
in Guyana.
    So I think they have been waging an asymmetrical campaign 
against us for a long time, and we are not taking it seriously.
    The other thing that one has to pay attention to is simply 
the breadth of their activities. Many of them are small, but 
taken together, they are quite significant. The number of 
businesses that are opening in Panama in the Colon Free Trade 
Zone is astounding. They are buying Panamanian citizenship for 
$10,000; as Panamanian citizens, then opening businesses in the 
Colon Free Trade Zone, with extremely broad capabilities for 
acquiring dual-user, moving whatever they want through that 
particular area.
    If you look at the Univision report from last year on ``La 
Amenaza Irani,'' they documented and filmed Iran's attempts to 
hack our major National security networks from a Mexican 
university in conjunction and with Venezuela asking for 
anything that was taken to be shared back with them.
    So I think that we at least--our assumption is that this is 
all starting now, when in reality, there was a meeting in 
Tehran in 1983, where they made the decision to expand into 
Latin America using guns, automatic weapons, grenades, fusiles, 
y grenadas, you know, weapons and grenades to take over the 
region. So I think that the idea that they are somehow 
unprepared or that this is a new thing for them and they are 
suddenly scrambling to position themselves is nonsense. They 
have been doing this for 20 years. They are in places where we 
are only beginning to look to see where they are. I think the 
potential to light us up if they felt necessary is huge.
    Mr. McCaul. Let me follow up. This isn't about cyber, but 
there was an attack recently by Iran, a cyber attack on Aramco 
in the Saudi peninsula, 30,000 computers compromised, and at 
the same time, an attack against our financial institutions in 
the United States. So it really is astounding, and you are 
correct; it is not some science fiction thing. It is happening 
right now.
    Then these flights going back between Caracas to Tehran. 
What is on those planes? We can't monitor those planes. 
Speculation uranium is on these flights. What if it came back 
weapons grade into this hemisphere and smuggled across the 
border? That is a nightmare scenario for a lot of us.
    Mr. Farah. I would say perhaps even more dangerous than 
those flights are the unregulated shipping, which have much 
more significant capacity and are even less monitored than the 
flights are, in their ability because of state-to-state 
transaction, there is no way of knowing what is on those planes 
as they leave.
    Mr. McCaul. Just one last question, Ambassador, you said 
you have a lot of friends in the State Department. So given all 
this mounting evidence, why do they continue to have their head 
in the sand on this?
    Mr. Noriega. Well, I should add I had a lot of friends in 
the State Department about 20 minutes ago, but maybe fewer.
    Mr. McCaul. Sorry, they are not still there.
    Mr. Noriega. Well, they conflate this, Mr. Chairman, with 
other issues that we have with these countries.
    For example, Venezuela, they don't want to mud wrestle with 
Hugo Chavez, and they think that if we do, it elevates him. It 
is a wonderful theory. Seven years ago it might have had some 
validity, but it has been disproven, as we see that we try to 
studiously ignore him, that he is galloping forward at this 
staggering alliance with Iran, for that matter with PRC, buying 
$9 billion of weapons from the Russians. The Cubans essentially 
run the internal security apparatus. I don't know what else he 
could do if we were to try to provoke him.
    The other thing is there are countries like Mexico and 
Brazil that are just so sensitive about talking about this 
issue, and part of it is every time we raise it, they read it, 
misread it, as an accusation. The fact is we can all up and 
down this table give examples of the things the Mexicans have 
done right in fighting this issue. But for some reason, we 
can't, they are not doing their job at the State Department to 
find a way to have a serious dialogue about this, so but the 
Mexicans are more open and the Brazilians are more open.
    The Brazilians are going to host the Olympics and the World 
Cup in the next 3 or 4 years, both events. If you ask a lot of 
these foreign ministry types in Brazil, they will tell you the 
terrorism is an invention of the United States Government to 
intervene in our internal affairs. Well, it is going to come 
unfortunately in the manifestation, it will manifest itself in 
another way if they don't do something serious to address this 
issue.
    Mr. McCaul. The Brazilians, when we were down there, 
absolutely right, did not want to acknowledge any of this, but 
at the same time, while we were there, sent 10,000 troops to 
the Tri-Border Area. So it is not a threat, but we are going to 
send 10,000 troops to the Tri-Border Area, while you are there.
    Mr. Noriega. Mr. Chairman, some of the best work being done 
on this is by the Brazilian police, by the Brazilian security 
agencies. But at the political level, it is completely Sergeant 
Schultz; they know nothing about anything.
    One other example, Argentina, a country where 144 people 
were the victims of Hezbollah violence not so far in the 
distant past, is engaging in talks right now with the Iranians. 
What are they up to? Well, there have been vast transfers of 
cash, at least a quarter of a billion dollars from Venezuela to 
Argentina. We know that Ahmadinejad asked Chavez to intervene 
with Nestor Kirchner, the former president of Argentina, to 
turn back on the sort of a nuclear cooperation that he had they 
had back in the 1990s before those bombings.
    Now these talks are, I believe, to launder the reputations 
of two potential candidates for president of Iran to succeed 
Ahmadinejad, who are indicted by Argentina.
    So mark my words, this will involve some sort of 
transaction, very high-priced soybean exports from Argentina to 
Iran, and you are going to see Argentina find a way to lift 
those indictments so they don't have a black mark against the 
next president of Iran. This is the sort of stuff the State 
Department needs to know about and engage on.
    Mr. McCaul. Everybody needs to know about it. I can tell 
you, meeting with the ambassador from Argentina was hardly a 
friendly experience as well. Very anti-American, was my sense.
    So I have gone way past my time.
    I would like to now recognize the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Cilluffo, you indicated, I believe, that our efforts to 
seize drugs is not as robust as perhaps they could and should 
be.
    How intertwined is drug trafficking with the whole threat 
and engagement of terrorism in the areas?
    Mr. Cilluffo. Thank you, Mr. Davis.
    Looking at the Americas specifically or--I mean, if you 
look globally, you are starting to see more and more foreign 
terrorist organizations engaging in criminal activity, from 
drug trafficking all the way through to organized crime 
activity, kidnapping and ransom. I mean, if you look at the 
Sahel and the Maghreb, a lot of examples there. If you look at 
FATA, if you look at all these un- and under-governed spaces.
    In the Americas, in particular, I wouldn't say it is--they 
have different aims and objectives, for the most parts. But 
that is almost missing the real question.
    The real question is, is: Will they exploit some of those 
networks, distribution networks and opportunities? I think the 
answer is yes. Because you do see a Lebanese Hezbollah presence 
in the Tri-Border Area, and even in Colombia, and in other 
places. You do have drug trafficking organizations who can 
smuggle, you name the good; if there is the demand, they will 
find the way to get it through.
    I actually think back to Kosovo, during the campaign there. 
I wrote a long piece that was politically incorrect, I guess. 
It was titled ``And the Winner is . . . the Albanian Mafia.'' 
Here you had criminal entities smuggling both Serbs and Croats 
for the same amount of money. They put a tax, another 10 
percent on when the tides turned and others were--asked to be 
smuggled out.
    So at the end of the day, the way I think you look at it, 
look at it as a business enterprise, look at it as a P&L, and 
in this case, very specifically, movement of product. If you 
add those together, and if you have flare points that can 
trigger that, that is a pretty toxic and dangerous blend.
    Mr. Davis. So let me ask the panel, given the fact that 
there is such a serious opportunity and relationship between 
the two, is there any way that we can attack the issue from 
another vantage point of looking at the drug problem as much as 
we look at the threat of terrorism and how we can impact one by 
perhaps impacting the other?
    Mr. Farah. If I might, I would say, in relation to your 
previous question, I would say that the other--you now have 
clear--for the first time it has been--we have had anecdotal 
evidence for a long time, but I think now in judicial cases 
that Hezbollah is directly engaging with the FARC, which is 
another designated terrorist organization, to move cocaine for 
the Mexican cartels. So it is much more than a passing 
relationship. They are now integrally involved in the movement 
and transshipment.
    If you look at the Lebanese Canadian Bank case, which is 
the outgrowth of the Joumaa case that you mentioned in your--
you look at in your paper, that is a multibillion-dollar 
enterprise that was collapsed by taking the cocaine trade out 
of it. So I think that multimillion enterprise for Hezbollah 
collapsed when you took the cocaine out of it. So I think that 
the relationship there is profound and deep.
    I think if you want to get at that, I think the best model 
you have is the Special Operations Division of the Drug 
Enforcement Administration. They are able to use specific 
authorities, unique authorities to go after, in a judicial 
manner also--and judicialize what they find and what they are 
able to collect from some of their foreign colleagues on the 
same targets and use that in judicial court systems to bring 
about indictments and in many cases convictions.
    So I think that that, coupled with some of the special 
authorities that the Special Operations Command has in the 
region, the ability, the resources they provide on the 
intelligence-gathering front, particularly, have to be melded 
and expanded. I think right now we have sort of little 
stovepipes of excellence that need to be broadened out and can 
be broadened out considerably to make that joint fight. I don't 
think you have to choose either/or. I think if you--because you 
see them so often together that if you use the hybrid model the 
DEA has done so well, you can actually do both at the same 
time.
    Mr. Cilluffo. Mr. Davis, I mean, a hybrid threat does 
require a hybrid response. It is all of the above. We have to 
attack it from all fronts. There is a CT component, a 
counternarcotics component, a counterinsurgency component, and 
we have to address the demand issues as well. So we need to 
look at it holistically.
    The problem is, is we are not moving quickly enough or 
treating it with the urgency I believe it deserves.
    Mr. Davis. I guess one of the reasons that I asked the 
question is that I believe that sometimes money is just as 
potent a rationale as ideology; that there are some individuals 
who become a part of the action based upon ideology in terms of 
what they believe and there are others who are recruited 
because there is the resource. I mean, there is the lure of 
money which attracts them just as easily as an ideological 
bent.
    So thank you very much. I yield back.
    Mr. McCaul. Just to make a brief clarification.
    We met with the Argentinean Minister of Affairs--of Foreign 
Affairs, not the Ambassador. So just to make that clarification 
for the record.
    Mr. Cilluffo. Did you get a phone call?
    Mr. McCaul. Yes. It was still--still was not a very 
friendly meeting, though.
    With that, now recognize the gentleman from Pennsylvania, 
Mr. Marino.
    Mr. Marino. Mr. Chairman, I have no questions.
    Mr. McCaul. Okay. I know Mr. Duncan was here. I know he 
certainly would have many questions for you. If we could just 
wait just a minute.
    Okay, great.
    Mr. Farah. Sir, if I could just add, Mr. Davis, to your 
comment on the money.
    I think the money over time has become the defining 
motivator for the vast bulk of these transactions. If you look 
at how groups evolve, particularly the FARC in Colombia, it 
went from being a very ideological organization until it got 
into the drug trade and it is now essentially a major drug 
cartel with very little ideological content left in them. The 
reason for joining the Zetas or any number of the organizations 
in Mexico is entirely devoid of ideology. If you look at how 
these groups operate, I would argue that, although Hezbollah, I 
think, was quite successful for many years in not becoming de-
ideologicized through the drug trade, it now has as well.
    Mr. Cilluffo. If I could just say, there are actual foreign 
terrorist organizations--Abu Sayyaf in the Philippines went 
from a very ideological organization to a huge criminal 
enterprise. Islamic Movement of Uzbekistan, you have got camps, 
some of whom are criminally motivated, financially motivated. 
But Willie Sutton said: Why rob banks? That is where the money 
is. So, yeah.
    Mr. McCaul. See Mr. Duncan has arrived. The Chairman now 
recognizes him for questions.
    Mr. Duncan. Thank you, Mr. Chairman.
    Let me just say again how much your leadership on this 
issue has meant. It is an issue I have been following, as the 
panel knows, for a very long time. We will talk in a minute 
about the threat assessment bill I have residing over in the 
Senate.
    But it was a very informative trip when we went down to 
investigate this issue. You are spot on when the Chairman says, 
you know, we hear one thing from the Department of State, but 
when we talk with the boots on the ground, so to speak, whether 
it is the Paraguayan police force or the folks in Argentina, 
the Israelis and the Jewish community, it is a different story. 
I walked away from that CODEL wondering why it is a different 
story. Why we are hearing the ``head in the sand''-type analogy 
from State and why we are hearing something different from the 
folks who are actually impacted.
    I raise awareness to what I believe, if I remember 
correctly, we just discovered a Hezbollah training camp in 
Nicaragua. What we were told in South America, that most of the 
Hezbollah activity was financial transactions. But we saw 
tremendous money, financial transactions happening in the tri-
border region and Cuidad del Este.
    My thought is, I don't believe that training camp in 
Nicaragua was training bank tellers or folks on financial 
transactions.
    So it is--there is more going on in South America and Latin 
America and in this Western Hemisphere than just financial 
transactions that are going to assist Hezbollah's activities, 
terrorist activities around the world.
    The Iranians and their proxies are here in this hemisphere 
for a reason. It is time for America to truly get their head 
out of the sand and raise awareness to the issue and start 
understanding the issue and come up with a counterterrorism 
strategy to address that real threat.
    I think the Chairman was right, if Israel does take some 
action to assess or address their existential threat in that 
region, I believe we will see some activity here and we better 
be aware of it and better know how to deal with it.
    So I went down after that hearing, after that trip to Latin 
America to assess this, I went down to the border, because I 
wanted to understand the United States-Mexican border. From 
South Carolina, you are a long ways removed from that. So I 
went to Arizona and tried to understand the threats, the 
challenges that CBP has down there. I walked away with a 
tremendous respect for what they are trying to do.
    Because when we think of the Southern Border in South 
Carolina, we think of flat desert terrain, easy to put fences 
up. What I saw was a different topography with the mountains 
and the corridors. The fencing comes up to the foots of the 
mountain and we have basically corridored the bad guys coming 
into this country to have to come through the mountains. But 
when we helo'd over those same mountains, I looked down and I 
saw what looked like cow paths through the mountains. I asked, 
``Well, what kind of animals, what kind of cattle ranches are 
in this area?'' They said, ``No, Congressman, the trails you 
see are the bad guys. These are the smugglers and the folks 
coming into this country.''
    The challenges are real. We have got to figure out a way to 
address those challenges. I think the first step in really 
addressing the threat of terrorism would be countering the 
Iranian threat in the Western Hemisphere bill. Appreciate the 
ambassador mentioning that. I would encourage anyone that can 
contact the Senate and see if we can get this thing hotlined 
over there to pass.
    So on to my question.
    Do you have--and I guess this is for Ambassador Noriega--do 
you have any recommendations for ways we can go about 
strengthening our relationships with our fellow stakeholders in 
Latin America? See, I met with the Honduran government 
officials here in Washington last spring and that was the 
conversation I had.
    I think that the Chairman mentioned the distrust--or maybe 
it was Mr. Farah mentioned, if we bring this subject up with 
Mexico or with some of the Latin America countries, they think 
we are questioning their integrity or questioning something 
else.
    So how do we strengthen that? How do we get them to be 
willing allies with us and show that this is a neighborhood, we 
are all residents in this neighborhood and we have got to work 
together to address that threat? So how do we go about doing 
that?
    Mr. Noriega. Well, Congressman Duncan, you were out of the 
room when I addressed that same point and made the point that 
you just made, which was that when we raise these issues with 
Mexico or Brazil, they see it as an attack on their integrity. 
We can all cite examples where the Mexicans have done precisely 
the right things to fight terrorism and want to be on the same 
side with us.
    The Brazilians, the best informed on these issues are 
Brazilian security folks. But if you talk to the political 
folks and certainly the people in the Foreign Ministry, the 
problem doesn't exist.
    This is what diplomacy is all about, quite frankly, and we 
have to communicate what we know about this threat and why it 
is important to them.
    Another thing, just vis-a-vis Mexico, lot of people talk 
about Mexico's drug war. It is not Mexico's drug war, it is our 
drug war. Mexico is fighting it. If we had the kind of 
political leadership across the political spectrum talking in 
those terms, the Mexicans, frankly, their confidence in us as 
an ally--they would be treated as a wartime ally, quite 
frankly--would go up exceedingly. It would open this kind of 
serious dialogue about the dimensions of this threat. So that 
certainly has to happen.
    In the cases of other countries, they think we have 
everything wired. If you go talk to security officials in Peru 
or Chile or Colombia, they think the United States knows 
everything and that it must not be a problem, particularly when 
our ambassadors don't raise it. So we have to change that.
    I think, quite frankly, bipartisan Congressional 
leadership, like we have seen behind the legislation that you 
are moving, will make a difference. It has to be bipartisan 
leadership to say: Look, we are not making accusations against 
the State Department. What do you need to do a better job in 
engaging these countries on this threat?
    Because Hezbollah is here for--in the Western Hemisphere--
for one reason: Because we are here. We are the target. 
Menacing Nicaragua is not their objective. It is to threaten 
us.
    So we have to--I think the appraisal is part of that. The 
only thing--only concern I have about your bill is it gives 
them 6 months to come up with a strategy. I know they will need 
it. It is going to be an eye-opening experience for a lot of 
these folks.
    But we need a strategy today. There are some--some action-
oriented things that we can do right now. We can bring 
indictments, we can expose the Venezuelan state as a narco-
state. The U.S. attorneys have, you know, hundreds of man-hours 
in on this.
    You have an oil company in Venezuela that has taken in a 
trillion dollars over the last dozen years. That can be used to 
hide--that entity in itself can be used to hide vast 
transactions.
    If we can put those indictments forward, it will signal not 
only to the bad guys, but to the good guys that we are serious 
about this problem.
    It may have serious consequences, which is important. The 
administrative actions are not sufficient because, let's note, 
Chavez has promoted people who the Treasury Department has on 
their list of supporters of terrorism and narco-trafficking. He 
promoted his Minister of Defense, head of his army after they 
were designated by the U.S. Treasury Department. So those are 
not enough, we need to get serious with indictments.
    Mr. Farah. Could I just add, sir? I think that Ambassador 
Noriega is right. But I think that you see a sea change in 
Brazil relating to Bolivia particularly. They have a strong 
alliance. Why? Because they now recognize 90 percent of the 
cocaine they are receiving, and they are the second-largest 
consumer nation in the world, is coming from Bolivia. So 
suddenly the ideological affinity is diminishing and they are 
suddenly saying: Holy cow, we now know where this is coming 
from. They are taking much stronger actions against Bolivia.
    So to go to the point of Ambassador Noriega, I think when 
it is in their self--when they understand yourself what is in 
their self-interest, they will take on these issues. We have 
been very unwilling or unable to communicate what their self-
interest--why it is not just our problem, but their problem. I 
can't tell you how many times, even with the Colombians, with 
whom we have a very good relationship, when I was talking about 
the Iranian issue, I said: What does the U.S. Embassy say about 
them? They say: Nothing. I say: Why not? They say: Well, we 
never gave it to them. I said: Why not? They said: Because they 
never asked for it. It wasn't that they were trying to hide it, 
it was just there was no interest so it doesn't go anyplace.
    I think that that is--that lack of curiosity on our part 
diminishes greatly our ability to understand the regional 
context.
    Mr. Duncan. That is right.
    Well, my time has expired. I just would say for the record, 
Mr. Chairman, I believe the Brazilians sent 10,000 troops up to 
the Tri-Border region when they heard you were there.
    Mr. McCaul. Thanks for that confidence in my strength.
    You know, it was also interesting to see the FARC given 
safe haven in Venezuela. When we were in Colombia, they would 
go across the border, not unlike in Pakistan, and they would 
protect them. The Iranian influence between Venezuela and the 
FARC is very real, and it is clear.
    I think these training camps that you mentioned, that is 
not for financial purposes. They are here for a reason, and I 
don't think it is to be in Nicaragua or Bolivia or Ecuador, it 
is because we are here. We have to be aware of this threat.
    So I want to thank my colleagues for being here.
    Mr. Duncan, your intense interest in this issue, and the 
bill that I co-sponsored, I sure hope we can get that passed 
through the Congress and signed by the President.
    So I want to thank the witnesses for being here today. The 
committee now stands adjourned.
    [Whereupon, at 10:24 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
